No. 20-_____
IN THE

Supreme Court of the United States
PHILIP PILEVSKY, MICHAEL PILEVSKY, SETH PILEVSKY,
PRIME ALLIANCE GROUP, LTD., AND SUTTON OPPORTUNITY
LLC,
Petitioners,
v.
SUTTON 58 ASSOCIATES LLC,
Respondent.
On Petition for a Writ of Certiorari to the
Court of Appeals of the State of New York
PETITION FOR A WRIT OF CERTIORARI

ERIC S. SEILER
ROBERT S. SMITH
LANCE J. GOTKO
ANIL VASSANJI
FRIEDMAN KAPLAN SEILER &
ADELMAN LLP
7 Times Square
New York, NY 10036
(212) 833-1100

DONALD B. VERRILLI, JR.
ELAINE J. GOLDENBERG
Counsel of Record
RACHEL G. MILLER-ZIEGLER
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, DC 20001
(202) 220-1100
Elaine.Goldenberg@mto.com

Counsel for Petitioners

i
QUESTION PRESENTED
Whether the federal Bankruptcy Code preempts
state-law tort claims that are premised on an alleged
misuse of bankruptcy proceedings or that seek to
impose liability based on the very fact of bankruptcy.

ii
PARTIES TO THE PROCEEDINGS
Petitioners Philip Pilevsky, Michael Pilevsky, Seth
Pilevsky, Prime Alliance Group, Ltd., and Sutton
Opportunity LLC were defendants in the trial court,
appellants in the intermediate appellate court, and
respondents below.
Respondent Sutton 58 Associates, LLC was
plaintiff in the trial court, respondent in the
intermediate appellate court, and appellant below.

iii
RULE 29.6 DISCLOSURE STATEMENT
There is no parent corporation of Prime Alliance
Group, Ltd., or Sutton Opportunity LLC, and there is
no publicly held company that owns 10% or more of
either entity’s stock.

iv
RELATED PROCEEDINGS
The proceedings directly related to this petition
are:
Sutton 58 Associates LLC v. Pilevsky, No. 80 (N.Y.
Nov. 24, 2020)
Sutton 58 Associates LLC v. Pilevsky,
654917/16 (N.Y. App. Div. Jan. 10, 2019)

No.

Sutton 58 Associates LLC v. Pilevsky, Index No.
654917/2016 (N.Y. Sup. Ct. Mar. 8, 2018)

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDINGS .......................... ii
RULE 29.6 DISCLOSURE STATEMENT .................iii
RELATED PROCEEDINGS....................................... iv
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 2
JURISDICTION........................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 3
STATEMENT............................................................... 3
REASONS FOR GRANTING THE PETITION .......... 9
A.

The Decision Below Deepens A
Recognized And Entrenched
Conflict. ................................................... 9

B.

The Decision Below Is Wrong. ............. 23

C.

The Question Presented Here Is
Important And Recurring, And
The Legal Rule Adopted By The
Court Below Will Give Rise To
Serious Negative Consequences. ......... 28

D.

This Case Is An Excellent Vehicle
To Address The Question
Presented. ............................................. 30

CONCLUSION .......................................................... 33

vi
TABLE OF CONTENTS
(continued)
Page
APPENDICES
Appendix A: Opinion of the Court of Appeals
of New York (November 24, 2020) ............................ 1a
Appendix B: Opinion of the Supreme Court of
New York Appellate Division, First Judicial
Department (January 10, 2019) .............................. 60a
Appendix C: Decision, Order and Transcript of
Oral Proceedings Held Before the Honorable
Shirley Wener Kornreich (March 6, 2018).............. 62a
Appendix D: Complaint (September 16, 2016) ...... 83a
Appendix E: Sutton 58 Associate LLC’s
Motion to Dismiss Chapter 11 Case Pursuant
to Bankruptcy Code § 1112(b) or, in the
Alternative, to Modify the Automatic Stay
Pursuant to Bankruptcy Code § 362(d)(1)
(March 10, 2016) .................................................... 114a
Appendix F: Constitutional and Statutory
Provisions .............................................................. 140a

vii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Astor Holdings, Inc. v. Roski,
325 F. Supp. 2d 251 (S.D.N.Y. 2003) ................... 11
Belknap, Inc. v. Hale,
463 U.S. 491 (1983) .............................................. 32
Celotex Corp. v. Edwards,
514 U.S. 300 (1995) .............................................. 23
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469 (1975) ........................................ 31, 32
Crosby v. Nat’l Foreign Trade Council,
530 U.S. 363 (2000) .............................................. 23
Davis v. Yageo Corp.,
481 F.3d 661 (9th Cir. 2007) .......................... 14, 19
E. Equip. & Servs. Corp. v. Factory
Point Nat’l Bank, Bennington,
236 F.3d 117 (2d Cir. 2001) .................................. 23
Gonzales v. Parks,
830 F.2d 1033 (9th Cir. 1987) ...................... passim
Goodyear Atomic Corp. v. Miller,
486 U.S. 174 (1988) .............................................. 32
Hawaiian Airlines, Inc. v. Norris,
512 U.S. 246 (1994) .............................................. 32

viii
TABLE OF AUTHORITIES
(continued)

Page(s)

Ingersoll-Rand Co. v. McClendon,
498 U.S. 133 (1990) .............................................. 32
In re Laguna Assocs. Ltd. P’ship,
30 F.3d 734 (6th Cir. 1994) .................................. 24
Local Loan Co. v. Hunt,
292 U.S. 234 (1934) ................................................ 2
Local No. 438 Const. & Gen. Laborers’
Union, AFL-CIO v. Curry,
371 U.S. 542 (1963) .............................................. 32
Marrama v. Citizens Bank of
Massachusetts,
549 U.S. 365 (2007) .............................................. 24
In re Miles,
430 F.3d 1083 (9th Cir. 2005) ............ 14, 16, 19, 21
MSR Exploration, Ltd. v. Meridian Oil,
Inc.,
74 F.3d 910 (9th Cir. 1996) .......................... passim
Murphy v. NCAA,
138 S. Ct. 1461 (2018) .......................................... 23
Nat’l Hockey League v. Moyes,
2015 WL 7008213 (D. Ariz. Nov. 12,
2015)................................................................ 11, 14
NLRB v. Bildisco & Bildisco,
465 U.S. 513 (1984) ................................................ 2

ix
TABLE OF AUTHORITIES
(continued)

Page(s)

Pertuso v. Ford Motor Credit Co.,
233 F.3d 417 (6th Cir. 2000) ................................ 20
In re Phoenix Piccadilly, Ltd.,
849 F.2d 1393 (11th Cir. 1988) ............................ 24
In re Repository Technologies, Inc.,
601 F.3d 710 (7th Cir. 2010) .......................... 12, 13
Rosenberg v. DVI Receivables XVII,
LLC,
835 F.3d 414 (3d Cir. 2016) .................................. 16
In re SGL Carbon Corp.,
200 F.3d 154 (3d Cir. 1999) .................................. 24
Southland Corp. v. Keating,
465 U.S. 1 (1984) .................................................. 32
U.S. Express Lines Ltd. v. Higgins,
281 F.3d 383 (3d Cir. 2002) .................................. 16
STATE CASES
Choy v. Redland Insurance Co.,
127 Cal. Rptr. 2d 94 (Cal. App. 2002) ...... 10, 11, 12
Gene R. Smith Corp. v. Terry’s Tractor,
Inc.,
257 Cal. Rptr. 598 (Cal. App. 1989) ..................... 29
Graber v. Fuqua,
279 S.W.3d 608 (Tex. 2009).................................. 22

x
TABLE OF AUTHORITIES
(continued)

Page(s)

Lama Holding Co. v. Smith Barney Inc.,
668 N.E.2d 1370 (N.Y. 1996)................................ 16
Metcalf v. Fitzgerald,
214 A.3d 361 (Conn. 2019) ........................... passim
PNH, Inc. v. Alfa Laval Flow, Inc.,
958 N.E.2d 120 (Ohio 2011) ......................... passim
Stone Crushed Partnership v. Kassab
Archbold Jackson & O’Brien,
908 A.2d 875 (Pa. 2006) ....................................... 20
Sutton 58 Associates, LLC v. Pilevsky,
137 N.Y.S.3d 359 (N.Y. App. Div.
Dec. 29, 2020) ....................................................... 31
FEDERAL STATUTES
11 U.S.C. 105(a) ......................................................... 24
11 U.S.C. 303(f) .......................................................... 14
11 U.S.C. 303(i) .......................................................... 21
11 U.S.C. 303(i)(2)...................................................... 24
11 U.S.C. 362 ............................................................... 4
11 U.S.C. 362(d) ......................................................... 24
11 U.S.C. 362(d)(1)....................................................... 4
11 U.S.C. 362(d)(3)....................................................... 6

xi
TABLE OF AUTHORITIES
(continued)

Page(s)

11 U.S.C. 362(h) ......................................................... 24
11 U.S.C. 525 ............................................................. 23
11 U.S.C. 707(b) ......................................................... 24
11 U.S.C. 930 ............................................................. 24
11 U.S.C. 1112 ........................................................... 24
11 U.S.C. 1112(b) ................................................... 4, 24
28 U.S.C. 1257(a) ......................................................... 2
FEDERAL RULES
Fed. Bankr. R. 9011 ............................................. 18, 24
CONSTITUTIONAL PROVISIONS
U.S. Const. article I, § 8, cl. 4 .............................. 23, 32
OTHER AUTHORITIES
2 Norton Bankruptcy Law and Practice
3d § 22:12 .............................................................. 14
Plaintiff’s Memorandum of Law in Support of Its Motion for Leave to File a
Supplemental Summons and an
Amended Complaint, Sutton 58
Associates LLC v. Pilevsky et al.,
No. 654917/2016 (N.Y. Sup. Ct. Jan.
8, 2021).................................................................. 31

1
INTRODUCTION
The decision below deepens a longstanding and entrenched division of authority as to whether the Bankruptcy Code preempts state-law tort claims that require deciding whether there has been an abuse of the
bankruptcy process or whether the existence of that
process is itself grounds for liability. Splitting from
the majority of federal and state courts, the New York
Court of Appeals concluded that such claims are not
preempted. That decision on a frequently recurring
issue of federal bankruptcy-preemption law as to
which courts across the country have reached disparate results—and most have disagreed with the approach taken by the majority below—strongly warrants this Court’s review, so that similarly situated litigants are not treated differently based on the happenstance of where the relevant state-law claims are
brought.
The decision below also is wrong on the merits, and
it is likely to give rise to very significant negative consequences. Most notably, it threatens to chill the activities of those who provide assistance to low-income
debtors or other debtors who need help filing for bankruptcy. Many debtors could not afford to enter bankruptcy in the first place, and could not successfully
navigate bankruptcy proceedings once they have begun, without such assistance. Yet, as the dissent below warned, under the majority decision anyone who
plays any causative role in bringing about a bankruptcy filing may face the prospect of a state-law tort
suit—if, for example, the filing amounts to a violation
of a loan agreement into which the debtor has previously entered. That means that debtor-assistance
groups, and even debtors’ friends and family members,

2
are far less likely to step in to help, even when bankruptcy may be the best and most orderly outcome for
the debtor and his or her creditors. See, e.g., Local
Loan Co. v. Hunt, 292 U.S. 234, 244 (1934) (explaining
that central purpose of federal bankruptcy law is to allow debtors to obtain “a new opportunity in life and a
clear field for future effort, unhampered by the pressure and discouragement of pre-existing debt”); see
also NLRB v. Bildisco & Bildisco, 465 U.S. 513, 528
(1984). Allowing state law to undermine and discourage federal bankruptcy filings in that way should not
be countenanced.
In short, this case presents an excellent vehicle to
resolve a longstanding split in authority, to address a
decision with harmful effects, and to bring muchneeded uniformity to an important question of federal
law. This Court’s review is essential.
OPINIONS BELOW
The opinion of the New York Court of Appeals is
reported at 164 N.E.3d 984 and reprinted in the Appendix (App.), infra, at 1a-59a. The opinion of the New
York Supreme Court, Appellate Division (App. 60a61a), is reported at 168 A.D.3d 477. The opinion of the
New York Supreme Court (App. 62a-82a) is unpublished.
JURISDICTION
The judgment of the New York Court of Appeals
was entered on November 24, 2020. By order dated
March 19, 2020, this Court extended the deadline to
file any petition for a writ of certiorari to 150 days from
(as relevant here) the date of a lower-court judgment.
The jurisdiction of this Court is invoked under 28
U.S.C. 1257(a). See pp. 31-32, infra.

3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Pertinent constitutional and statutory provisions
are reproduced in the appendix to the petition. App.
140a.
STATEMENT
1. In June 2015, respondent Sutton 58 Associates
LLC loaned $147,250,000 to BH Sutton Mezz LLC
(Mezz Borrower) and Sutton 58 Owner LLC (Mortgage
Borrower) (collectively, the borrowers) to finance a residential apartment project in Manhattan. App. 1a,
90a. Mezz Borrower, which owned 100% of the membership interest in Mortgage Borrower, pledged that
interest to respondent as security for respondent’s
loan. App. 2a.
The loan agreements documenting the transaction
required the borrowers to agree to a number of provisions intended to limit their ability to pursue bankruptcy. According to the complaint in this case, the
agreements stated that the borrowers (1) would not
“file * * * petition[s] for bankruptcy,” App. 91a; (2)
would “remain * * * special purpose bankruptcy remote entit[ies],” App. 91a, i.e., entities “organized for
the sole purpose of owning property, engag[ing] in no
unrelated business, and hold[ing] no unrelated assets,” App. 2a n.1; and (3) would incur only certain narrow kinds of debt and would not acquire any unrelated
assets or engage in other business, see App. 91a.
When the loans came due in January 2016, the borrowers defaulted. App. 2a. Respondent then scheduled a UCC foreclosure sale of Mezz Borrower’s membership interest in Mortgage Borrower. App. 2a. The
borrowers attempted to enjoin the sale in state court,

4
but a New York trial court denied their preliminaryinjunction motion. App. 3a.
Mezz Borrower subsequently filed a voluntary petition for Chapter 11 bankruptcy in federal court.
That filing resulted in an automatic stay of the sale.
App. 3a, 96a; see 11 U.S.C. 362.
Contending that Mezz Borrower’s bankruptcy petition was “a classic bad-faith filing,” App. 132a, respondent moved to dismiss the bankruptcy case or, in
the alternative, to modify the automatic stay. See
App. 3a; see also 11 U.S.C. 1112(b) (permitting “dismiss[al]” of “a case under this chapter”); 11 U.S.C.
362(d)(1) (permitting “relief from the [automatic]
stay”). In that motion, respondent argued that the
bankruptcy filing was “a litigation tactic without the
intention or serious hope of reorganizing.” App. 126a;
see id. at 128a (“The petition was filed to obtain a litigation advantage * * * and thus lacks a good-faith
basis for invoking bankruptcy jurisdiction.”) (capitalization omitted). Respondent also contended that the
bankruptcy filing reflected “a single asset dispute between two parties—a debtor and its sole secured creditor—that can be fully resolved in the state court system” and therefore did not “belong in Bankruptcy
Court.” App. 116a.
At a hearing on the motion, the bankruptcy court
expressed concern that the motion was “premature.”
Record on Appeal 1346 (N.Y. Ct. Appeals). Respondent subsequently withdrew the motion without prejudice, App. 3a, and never refiled it.
Mortgage Borrower also filed its own Chapter 11
bankruptcy petition. App. 3a. Respondent did not file
a motion to dismiss that petition. App. 3a.

5
The two bankruptcy cases were ultimately consolidated in the Southern District of New York. Respondent and a creditors’ committee filed a joint plan of liquidation, which the bankruptcy court approved. App.
3a-4a. Pursuant to that plan, the project site was sold
at an auction sale in December 2016. App. 3a-4a. Respondent placed the winning bid of $86 million. App.
3a-4a.
2. In September 2016, respondents filed the instant suit in New York state court, claiming that petitioners Philip Pilevsky, Michael Pilevsky, Seth
Pilevsky, Prime Alliance Group, Ltd., and Sutton Opportunity LLC were liable for tortious interference
with contract on the ground that they had interfered
with the loan agreements between respondent and the
borrowers by facilitating the borrowers’ bankruptcies.
App. 4a.
As to Mezz Borrower, respondent alleged that in
February 2016 petitioners loaned $50,000 to Mezz
Borrower to allow it to retain bankruptcy counsel.
App. 4a. That counsel, in turn, filed Mezz Borrower’s
bankruptcy petition. App. 4a.
As to Mortgage Borrower, respondent alleged that
in February 2016 petitioners transferred cash and
their interest in three rental properties to Mortgage
Borrower in exchange for a 49% ownership stake in
Mezz Borrower’s parent company. App. 102a-103a.
According to respondent, Mortgage Borrower used a
portion of that cash to pay bankruptcy counsel a retainer, thus enabling Mortgage Borrower to file its
own bankruptcy petition. App. 103a. Respondent also
contended that the transfer of property interests
caused Mortgage Borrower to lose its status as a special purpose bankruptcy remote entity, thus removing
protections that creditors would otherwise have had

6
relating to the automatic stay and leading to bankruptcy proceedings that were more protracted than
they otherwise would have been. App. 5a; see 11
U.S.C. 362(d)(3).
Respondent’s tort claims were premised on the notion that the bankruptcies were wrongful. See, e.g.,
App. 85a-86a, 101a-102a. Respondent asserted that,
by smoothing the way for the bankruptcy filings, petitioners had caused the borrowers to breach various
covenants in their loan agreements with respondent,
including the covenants forbidding any bankruptcy filing at all. See App. 4a-5a. Respondent also argued
that the existence of the bankruptcies gave rise to all
of the damages it allegedly suffered due to the claimed
tortious interference. In respondent’s view, if it had
been able to proceed with the UCC foreclosure sale in
February 2016, rather than acquiring the project-site
property after months of bankruptcy proceedings, the
property would have been worth $100 million more at
the time of respondent’s acquisition. See App. 4a &
n.4, 5a. That was so, respondents contended, because
the months of bankruptcy proceedings happened to coincide with zoning issues and other market changes
that depressed the value of the property. See App. 4a
& n.4, 5a.
3. a. Petitioners moved for summary judgment,
arguing (as relevant here) that the U.S. Bankruptcy
Code preempts respondent’s state-law tort claims.
App. 5a. As petitioners explained, respondent’s allegations were “all about the bankruptcy” and “[i]f you
took the words bankruptcy out of the complaint, there
would be nothing left.” App. 75a-76a. The trial court
denied the motion, concluding that the “case does not
involve the bankruptcy itself.” App. 71a.

7
b. The New York Appellate Division (First Department) unanimously reversed, concluding that respondent’s claims are preempted. The court explained
that respondent’s asserted damages—a necessary element of its tort claims—“ar[o]se only because of the
bankruptcy filings.” App. 60a. The court also noted
that respondent had tacitly acknowledged that its
remedy, if any, lay in bankruptcy: respondent had
filed a motion to dismiss one of the bankruptcy filings
“as filed in bad faith[,] but voluntarily withdrew that
motion.” App. 60a.
c. In a 4-3 decision, the New York Court of Appeals
reversed.
The four-judge majority explained that “the Bankruptcy Code thoroughly governs the litigation and settlement of controversies between debtors and creditors
in connection with the bankruptcy estate.” App. 11a12a. And the majority acknowledged that most courts
to address the issue had found tort claims “premised
upon a bankruptcy filing, itself, or other alleged
wrongful conduct within a bankruptcy proceeding” to
be preempted. App. 14a (citing cases).
But the majority ruled that no preemption exists
here. The majority focused almost exclusively on the
fact that respondent “seeks to sue non-debtor third
parties for alleged wrongful conduct that occurred
prior to, and separate from, the bankruptcy proceedings.” App. 15a. Because respondent had not sued
bankruptcy debtors (the borrowers) directly, the majority concluded that “the state[-court] action has no
impact on the borrowers’ ability to obtain a ‘fresh
start’” through bankruptcy. App. 16a (citation omitted). The majority also stated that petitioners “may be
found to have tortiously interfered with [respondent’s]
contractual rights prior to the bankruptcy proceedings

8
without any inquiry by the state court into whether
any provision of the Bankruptcy Code was violated.”
App. 17a. And the majority discounted, without extensive explanation, the potential problems associated
with subjecting individuals or entities who assist debtors into bankruptcy, whether by providing loans or
through other forms of assistance. App. 22a-23a.
In a lengthy and thorough dissent, three judges
concluded that the state claims are preempted. Those
judges undertook a close examination of what respondent would have to prove in state court to succeed on
the tortious interference claims and noted numerous
ways in which the claims depend on an assessment of
the validity of the bankruptcy proceedings. As the dissent explained, “[d]amages are an essential element of
the tort” of tortious interference with contract, meaning that respondent’s suit “would require the [trial]
court to calculate the loss flowing from the automatic
stay and any additional delay caused by” Mortgage
Borrower’s change “from a special purpose bankruptcy
remote entity to a holder of multiple assets.” App. 42a,
43a. The dissent also stated that respondent’s suit
would require a showing that petitioners “improperly
induced debtors to breach their contractual obligations,” App. 43a—and to determine whether respondent had made that showing, the trial court would have
“to opine on the legitimacy of the debtors’ bankruptcy
proceedings and [petitioners’] interest and role in facilitating debtors’ filings.” App. 43a. Finally, the dissent reasoned, respondent would have to show a
“causal relationship between [respondent’s] damages
and [petitioners’] alleged tortious conduct,” thus requiring the trial court to evaluate “the propriety of borrowers’ bankruptcy proceedings.” App. 43a.

9
The dissent concluded that a state court that addressed those issues would necessarily “invade the
precinct of bankruptcy law,” which is an area of “exclusive [federal] jurisdiction.” App. 45a. Indeed, the
dissent viewed respondent’s state-law suit as an obvious “attempt to avoid the remedies of the Bankruptcy
Code.” App. 54a. Accordingly, the dissent found this
case indistinguishable from a number of other cases in
which various courts have preempted state-law claims
that were predicated on bankruptcy proceedings. See
App. 45a-54a. The dissent also noted the deleterious
consequences to which the majority’s contrary ruling
would likely give rise, including “disincentiviz[ing]
lawyers and potential secondary lenders from assisting debtors who wish to file for bankruptcy but need
legal counsel and financial assistance to do so.” App.
56a-57a.
REASONS FOR GRANTING THE PETITION
A.

The Decision Below
Recognized
And
Conflict In Authority.

Deepens A
Entrenched

As the dissent below recognized (App. 40a-41a), the
Court of Appeals’ decision conflicts with the decisions
of numerous other courts, including federal courts of
appeals and state courts of last resort. Indeed, some
courts have found that state law must yield to federal
law in the very factual circumstances presented
here—that is, where a plaintiff has brought state-law
claims against non-debtors for conduct occurring prior
to the bankruptcy itself, but premised on some alleged
misuse of or other flaw in the bankruptcy process.
More broadly, the decision below is irreconcilable with
the reasoning of the many courts that have found
preemption as to state tort claims that are based on
conduct by debtors or non-debtors that occurs within

10
the confines of a bankruptcy case. Because of substantial conflict and confusion on this frequently recurring
preemption issue in courts across the country, this
Court’s review is warranted.
1. a. i. Unlike the decision below, decisions of various other courts have held that state-law tort claims
brought against non-debtors involving conduct preceding a debtor’s entry into bankruptcy are preempted by
federal bankruptcy law if those claims are inextricably
tied to some alleged wrongfulness in connection with
a bankruptcy case.
For instance, in Choy v. Redland Insurance Co.,
127 Cal. Rptr. 2d 94 (Cal. App. 2002), the California
Court of Appeal confronted facts that are extremely
similar to those here and held that the state-law
claims before it were preempted. The plaintiff in Choy
was owed money by a debtor that filed for bankruptcy.
Id. at 96-97. The plaintiff alleged that the purpose of
the bankruptcy filing was “to frustrate [the plaintiff’s]
ability to seek and obtain a judgment” against the
debtor. Id. at 97-98. The plaintiff then brought statelaw claims against a non-debtor defendant who was
alleged to have facilitated the bankruptcy filing, including by supplying funds to file the debtor’s bankruptcy petition. See id. at 98 (claims for intentional
infliction of emotional distress and abuse of process);
ibid. (explaining plaintiff’s allegation that bankruptcy
filing “was done on the initiative of [the non-debtor defendant], which paid all of the necessary filing fees”).
The plaintiff argued against preemption on the ground
that cases finding preemption in similar circumstances had “involved suits by or against bankruptcy
debtors,” while he was merely “seek[ing] to proceed

11
against non-bankruptcy parties for their act of inducing and causing the bankruptcy of [his] alleged debtor
in order to benefit themselves.” Id. at 102.
The California Court of Appeal rejected that argument as resting on “a distinction without a difference.”
127 Cal. Rptr. 2d at 103. The court noted that the
plaintiff’s claims would require the state trial court to
assess whether the bankruptcy “petition had been
filed in ‘good faith’ within the meaning of the Bankruptcy Code”—the “very same activity” that triggered
a preemption finding in other cases. Ibid. And those
other authorities “place[d] no emphasis upon the circumstance that the questioned proceeding was
brought ‘by or against a debtor.’” Ibid. What they instead “clearly emphasize[d],” the court explained, was
“the principle that no authorized proceeding in bankruptcy can be questioned in a state court or used as the
basis for the assertion of a tort claim in state court
against any defendant.” Ibid. The bankruptcy proceeding was the basis for the Choy plaintiff’s tort
claims—and the claims were therefore preempted. 1

A number of federal district courts have adopted that analysis
and found preemption in cases presenting facts similar to those
at issue in Choy. See, e.g., Astor Holdings, Inc. v. Roski, 325 F.
Supp. 2d 251, 262 (S.D.N.Y. 2003) (Lynch, J.) (concluding that
claims “involv[ing] allegations that the defendant induced a third
party to file for bankruptcy” were preempted and agreeing with
Choy that “the fact that the particular defendant in the state-law
suit was not the debtor ‘is a distinction without a difference’”
(quoting Choy, 127 Cal. Rptr. 2d. at 103)); Nat’l Hockey League v.
Moyes, 2015 WL 7008213, at *5-7 (D. Ariz. Nov. 12, 2015) (holding
preempted a claim for aiding and abetting a breach of fiduciary
duty, even though claim was “brought against a non-bankruptcy
party, rather than the debtor”).
1

12
The Seventh Circuit’s decision in In re Repository
Technologies, Inc., 601 F.3d 710 (7th Cir. 2010), is consistent with Choy. Although that decision does not directly rule on preemption, it treats claims analogous
to those at issue in the instant case as inseparable
from the bankruptcy process. In that case, Repository
Technologies, Inc. (RTI) filed for Chapter 11 bankruptcy, and the bankruptcy was later dismissed. Id.
at 714-715. Subsequently, a creditor filed suit in state
court against an attorney and law firm that had represented RTI in the bankruptcy, alleging that they
conspired with RTI’s shareholders to enrich themselves through the bankruptcy, “tortiously interfered
with RTI’s loan contract” with the creditor, and
“abused the bankruptcy process.” Id. at 716. The
claims were subsequently removed to federal district
court. The Seventh Circuit ruled that federal subjectmatter jurisdiction existed as to those claims because
of their close relationship to the bankruptcy, noting
that the “claims could not have been the subject of a
lawsuit absent the filing of a bankruptcy case.” Id. at
720 (citation omitted). Moreover, the court of appeals
extended that ruling to the creditor’s allegations regarding “the defendants’ conduct before the official
commencement of RTI’s bankruptcy case” and other
“events that happened outside the bankruptcy context,” because those allegations were “‘inextricably
bound to the bankruptcy proceeding’ and [the creditor’s] claim of abuse of the bankruptcy process.’” Id. at
720-721, 725 (citations omitted); see id. at 725-727. 2
The Seventh Circuit did consider whether federal law completely preempted the state-law claims—that is, whether a federal cause of action “includes the same ingredients as the state
claim and provides some recovery.” 601 F.3d at 723 (citation
omitted). Although no such federal claim existed, and complete

2

13
ii. The Ohio Supreme Court’s decision in PNH, Inc.
v. Alfa Laval Flow, Inc., 958 N.E.2d 120 (Ohio 2011),
is of a piece with those decisions. There, non-debtors
who allegedly sustained damages from an adversary
proceeding sued the non-debtor that filed the proceeding (and that had originally filed an involuntary bankruptcy petition seeking to initiate the bankruptcy).
See id. at 122. All of the parties were “nondebtors,”
and “the actions that gave rise to the claim of tortious
interference with a contract occurred before the involuntary-bankruptcy petition was filed.” Id. at 130-131
(Lanzinger, J., dissenting); see id. at 128 (“the elements of the state-law claim of tortious interference
with a contract arose before the filing”). Adopting the
same approach as the majority decision below, the
PNH dissent would have allowed the claims to proceed, reasoning that the claims were not preempted
where “neither party is the bankruptcy debtor” and
“resolution of the litigation will not affect the bankruptcy estate.” Id. at 128; see App. 16a.
The PNH majority took a different approach. Focusing on the adversary proceeding, the majority sided
with the many courts that have found preemption of
claims “that allow the recovery of damages for a litigant’s abuse of a bankruptcy court proceeding.” PNH,
958 N.E.2d at 125-126. Those courts, the majority explained, “generally recognize that not only would the
threat of litigation in state court potentially chill the
exercise of federal rights created by the Bankruptcy
Code but also that state law would define the standard
of conduct for litigants in federal bankruptcy court
preemption was therefore unavailable, the court made clear that
“the bankruptcy statutes have significant preemptive force” and
that a conflict-preemption argument remained viable on remand.
Ibid.

14
proceedings, establishing standards that vary from
state to state and disrupt the uniformity of bankruptcy
law that Congress had intended to promote.” Id. at
126. That Congress had created “remedies designed to
preclude the misuse of the bankruptcy process,” the
majority reasoned, “demonstrates that Congress recognized the need” for such deterrence “and therefore
did not * * * intend for states to supplement the federal remedies it provided.” Ibid. 3
b. In contrast, the majority below ruled that
preemption does not bar the state-law tort claims here,
which likewise require addressing whether there has
In re Miles, 430 F.3d 1083 (9th Cir. 2005), which held state-law
claims brought against non-debtors who filed involuntary bankruptcy petitions to be preempted, is similar. All of the parties
before the court in Miles were non-debtors. Moreover, no bankruptcy was ever properly commenced in that case, since the involuntary bankruptcy petitions were immediately dismissed and
since an involuntary petition does not actually make the debtor a
bankruptcy petitioner or meaningfully place the debtor into
bankruptcy. See id. at 1086-1087; 11 U.S.C. 303(f) (after involuntary petition is filed, until further action by a court, “any business of the debtor may continue to operate, and the debtor may
continue to use, acquire, or dispose of property as if an involuntary case concerning the debtor had not been commenced”); see
also 2 Norton Bankruptcy Law and Practice 3d § 22:12 (“Upon
service of an involuntary petition, the case is treated very much
like a nonbankruptcy civil proceeding.”). The Ninth Circuit’s
preemption reasoning turned on the fact that the state-law claims
at issue alleged abuse of the bankruptcy process. See Miles, 430
F.3d at 1090-1091. The Ninth Circuit subsequently characterized
Miles narrowly in Davis v. Yageo Corp., 481 F.3d 661, 678 (9th
Cir. 2007), but the allegations at issue in Davis bear no resemblance to those at issue in Miles or here. See App. 51a-52a (Rivera, J., dissenting); see also Nat’l Hockey League, 2015 WL
7008213, at *6 (“The plaintiffs in Davis sought damages that accrued pre-petition and would have accrued whether or not the
bankruptcy petition was filed.”).
3

15
been an abuse of the bankruptcy process. The majority principally relied on the fact that respondent
“seeks to sue non-debtor third parties for alleged
wrongful conduct that occurred prior to, and separate
from, the bankruptcy proceedings.” App. 15a. In the
majority’s view, the Bankruptcy Code “is overwhelmingly concerned with the debtor’s estate.” App. 15a16a. But that rationale cannot be reconciled with the
decisions discussed above in which claims involving
non-debtors and conduct preceding a formal bankruptcy were deemed to be necessarily entangled with
the bankruptcy case.
The majority attempted to distance itself from
those conflicting decisions by asserting that, although
there might be “some tension between the state court
action and the bankruptcy proceeding” here, the tort
claims before it were not “premised upon a bankruptcy
filing itself.” App. 14a, 22a. But that assertion does
nothing to ameliorate the conflict; as the dissent explained, it is clear that multiple independent elements
of respondent’s claims were indeed premised on the
commencement and continuation of the bankruptcy.
See App. 43a. Among other things, establishing a
claim of tortious interference under New York law requires showing “improper[] induce[ment],” App. 17a,
and assessing whether there was such “improper” conduct here would “require the [state] court to opine on
the legitimacy of the debtors’ bankruptcy proceedings
and [petitioners’] interest and role in facilitating debtors’ filings,” App. 43a (Rivera, J., dissenting); see App.
44a (noting that complaint “alleged repeatedly that
the bankruptcy was commenced for an improper purpose, at the behest and for the benefit of [petitioners]”).
Apart from an unexplained assertion that respondent’s claims did not require a determination of
“whether the borrowers’ bankruptcy petitions were

16
filed in bad faith,” App. 17a, the majority’s opinion is
silent as to how a court could evaluate the improperinducement element of the tort claims without assessing the legitimacy of the bankruptcy filings.
In addition, a tortious-interference claim requires
a showing of causation and damages. See Lama Holding Co. v. Smith Barney Inc., 668 N.E.2d 1370, 1375
(N.Y. 1996). Here, respondent alleged that the bankruptcy “delayed its ability to exercise its contractual
remedies,” which “in turn resulted in a significant loss
in value of the development site.” App. 5a. Respondent’s tort claims thus could not exist without the bankruptcy—or, as the dissent below put it, “[i]f there’s no
bankruptcy filing, there’s no delay, and no damages.
Without damages, there is no viable state claim.” App.
58a. Respondent’s claims thus were unquestionably
“premised upon [the] bankruptcy filing” in multiple respects. App. 14a.
In deciding that state-law claims premised on a
bankruptcy filing in those ways are not preempted, the
decision below reached a conclusion contrary to that of
numerous other courts. 4 That creates an intolerable
forum-based disparity under which the resolution of
the preemption question varies depending on where a
suit happens to be filed. This Court should bring nationwide uniformity to this important area of the law.

Other decisions are consistent with the decision below—which
merely illustrates the seriousness of the disagreement. Rosenberg v. DVI Receivables XVII, LLC, 835 F.3d 414, 416 (3d Cir.
2016) (expressly rejecting the analysis in Miles and holding that
federal law did not preempt a state-law tortious-interference
claim “for damages allegedly caused by the filing of * * * involuntary petitions”); U.S. Express Lines Ltd. v. Higgins, 281 F.3d
383, 393 (3d Cir. 2002).
4

17
2. The decision of the New York Court of Appeals
in this case also implicates a closely related and
equally entrenched split in authority over whether
state-law claims alleging wrongdoing solely within the
four corners of a bankruptcy are necessarily
preempted by federal bankruptcy law. The facts of the
decisions in question are not exactly the same as the
facts at issue here—although many of those decisions,
like this case, do involve state-law claims against nondebtors. As the dissent below recognized, however, the
reasoning of those decisions is equally applicable in
this case, and the decision of the majority below is irreconcilable with that reasoning.
a. As the majority below acknowledged (App. 14a),
numerous federal courts of appeals and state courts of
last resort have found preemption in cases in which
plaintiffs have attempted to bring state-law claims alleging that actions taken in commencing a bankruptcy
or in the course of the bankruptcy are tortious in some
way. For example, in Gonzales v. Parks, 830 F.2d 1033
(9th Cir. 1987), a creditor alleged—much as respondent does here—that a bankruptcy petition was filed
“solely to delay [a] creditor foreclosure sale” and that
the debtors “were ineligible to file” their petition. Id.
at 1034 & n.1. The creditor in Gonzales brought a tort
claim in state court directly against the debtors, alleging that they had abused the bankruptcy process. Id.
at 1033-1034. The creditor also brought a similar tort
claim against the debtors’ attorney (a non-debtor) for
his action in filing the petition in bankruptcy court.
See ibid.
The Ninth Circuit concluded that the tort claims
were preempted by federal bankruptcy law. That conclusion did not turn on the specific identity of the parties that were the object of the claim. Instead, the

18
court of appeals explained that “[s]tate courts are not
authorized to determine” whether a bankruptcy petition is “appropriate” and that “[t]he ability collaterally
to attack bankruptcy petitions in the state courts”
would “threaten the uniformity of federal bankruptcy
law, a uniformity required by the Constitution.” 830
F.2d at 1035. The court of appeals also found support
in “the fact that remedies have been made available in
the federal courts to creditors who believe that a filing
is frivolous,” including remedies for a bad-faith filing
and sanctions under Bankruptcy Rule 9011. Id. at
1035-1036. The court reasoned that those remedies
“should be read as an implicit rejection of other penalties, including the kind of substantial damage awards
that might be available in state court tort suits.” Id.
at 1036.
In particular, the Ninth Circuit was concerned that
“[e]ven the mere possibility of being sued in tort in
state court could in some instances deter persons from
exercising their rights in bankruptcy,” and it viewed
“Congress and the federal courts, not the state courts,”
as the appropriate bodies “to decide what incentives
and penalties are appropriate for use in connection
with the bankruptcy process and when those incentives or penalties shall be utilized.” 830 F.2d at 1036.
And as to the claim against the debtors’ attorney, the
court of appeals explained that “[p]ermitting state
courts to award damages against bankrupts’ attorneys
based on the filing of a bankruptcy petition would subvert exclusive federal jurisdiction in much the same
manner as allowing similar awards against the bankrupt parties.” Id. at 1036-1037.
The Ninth Circuit has applied Gonzales to other
factual contexts as well. Relying on Gonzales, the

19
Ninth Circuit held in MSR Exploration, Ltd. v. Meridian Oil, Inc., 74 F.3d 910 (9th Cir. 1996), that federal
law preempted a debtor’s state-law malicious-prosecution claim brought against creditors who had filed allegedly improper claims in the debtor’s bankruptcy.
See id. at 911-912, 915-916. The debtor plaintiff did
not bring its claim until “its reorganization plan was
confirmed and substantially consummated,” id. at
912—so (as here) the suit “d[id] not risk interference
with the Bankruptcy Court’s control over, or disposition of, the bankruptcy estate,” App. 16a. But the
Ninth Circuit was unwilling to permit “a world where
the specter of additional litigation must haunt virtually every actor in a bankruptcy proceeding.” MSR
Expl., 74 F.3d at 916. The court concluded that “even
slight incursions and disruptions” of the bankruptcy
process are impermissible under a conflict-preemption
analysis. Id. at 914. 5
Decisions of the Connecticut and Pennsylvania Supreme Courts and the Sixth Circuit rest on similar
reasoning. Aligning with “the majority of federal as
well as state courts,” the Connecticut Supreme Court
held in Metcalf v. Fitzgerald, 214 A.3d 361 (Conn.
2019), that federal law preempted vexatious litigation
and unfair trade-practices claims that challenged an
adversary proceeding that certain creditors were alleged to have maliciously filed and maintained. Id. at
365, 370. The court reasoned that Congress had “le[ft]
no room for state law to supplement” federal “penalties
and sanctions for abuse of the bankruptcy process” and
that “the federal interest in uniformity is so dominant”
that it “precludes enforcement of state laws that
The decision in Davis, discussed above (see n.3, supra), is not
relevant to the holdings in Gonzales and MSR Exploration for the
same reason that it is not relevant to the holding in Miles.

5

20
threaten the uniformity and finality of the bankruptcy
process.” Id. at 370. In Stone Crushed Partnership v.
Kassab Archbold Jackson & O’Brien, 908 A.2d 875
(Pa. 2006), the Pennsylvania Supreme Court similarly
held that “the Bankruptcy Code preempts a state law
claim of abuse of process based upon a frivolous claim
filed in Bankruptcy Court proceedings.” Id. at 880.
The court observed that Congress had provided various remedies that, although “not directly applicable to
the case” before the court, “implie[d] an intent to govern sanctions as they relate to Bankruptcy Court proceedings,” thus “preempt[ing] state law remedies for
frivolous claims in the field of bankruptcy.” Id. at 886.
And in Pertuso v. Ford Motor Credit Co., 233 F.3d 417
(6th Cir. 2000), the Sixth Circuit held state-law unjust
enrichment and accounting claims to be preempted on
the ground that allowing “state law causes of action to
redress wrongs under the Bankruptcy Code would undermine the uniformity the Code endeavors to preserve.” Id. at 426.
b. The majority decision below flies in the face of
those courts’ reasoning. If faced with the facts of this
case, those courts could not possibly reach the same
conclusion about preemption that the majority did.
The courts that have found preemption of state-law
claims based on actions taken solely within the confines of a bankruptcy case have focused on the Bankruptcy Code’s mechanisms to address abuse of process
and on concern with disruption of Congress’s uniform
scheme. Those concerns are equally applicable here.
In order to obtain relief for the debtors’ alleged contractual violation in filing for bankruptcy, respondent
here could have made use of Bankruptcy Code provisions “authorizing dismissal of bad-faith filings and
empowering the Bankruptcy Court to take measures

21
to prevent any abuse of process.” App. 15a. Indeed,
respondent made a filing along those lines in the bankruptcy court, and withdrew it only after the court expressed skepticism about respondent’s prospects of
success. See App. 38a-39a, 52a (Rivera, J., dissenting). Moreover, respondent’s state-law tort claims do
threaten the uniformity of federal bankruptcy law, because they require a state court to assess whether the
very existence of the bankruptcy was wrongful and
whether its continued pendency over a period of time
should give rise to damages. See App. 43a (Rivera, J.,
dissenting).
The majority here did not view the existence of
Bankruptcy Code remedies as relevant to the preemption analysis, noting that respondent could not have
used those remedies to obtain relief directly against
petitioners. App. 11a; see App. 20a. But Gonzales and
similar decisions do not rest on a determination of
whether the Bankruptcy Code provides a remedy that
directly overlaps with the state-law claim in question.
Rather, those decisions treat “the existence of federal
remedies” aimed at abuse of the bankruptcy process as
“demonstrat[ing] that Congress recognized the need to
deter [such] abuse * * * and therefore did not * * *
intend for states to supplement the federal remedies it
provided.” PNH, 958 N.E.2d at 126; see MSR Expl.,
74 F.3d at 916 (“Whether creditors should be deterred,
and when, is a matter unique to the flow of the bankruptcy process itself—a matter solely within the hands
of the federal courts.”); Metcalf, 333 Conn. at 12. That
remains true even if a plaintiff cannot avail itself of
some or all of the Code’s remedies for abuse of process.
See, e.g., Miles, 430 F.3d at 1091 (treating 11 U.S.C.
303(i) as exclusive even though it did not provide a

22
“remedy for [non-debtor] third parties” like the plaintiffs in that case); see also Gonzales, 830 F.2d at 10341036.
The New York court’s contrary conclusion therefore
cannot be squared with the approach taken by most
courts to have addressed the issue, including the
Ninth Circuit, the Sixth Circuit, and the highest
courts of several states.
Rather, the reasoning
adopted by the majority below closely echoes the reasoning of courts that have adopted the minority position as to preemption of state-law claims premised on
actions taken within the confines of a bankruptcy. For
instance, in Graber v. Fuqua, 279 S.W.3d 608 (Tex.
2009), the Texas Supreme Court held that federal law
did not preempt a claim for malicious prosecution arising from the filing of an adversary proceeding in a
bankruptcy case. Id. at 610. Just as the decision below relied on the proposition that respondent’s claims
here would not disturb the debtors’ estate, the Texas
Supreme Court stated that “Texas claims for malicious
prosecution arise only after the underlying case
reaches a final judgment and all appeals are exhausted,” such that “nothing occurring in the malicious prosecution claim could disturb the matters already decided in [the] adversary proceeding.” Id. at
617. And, echoing the New York majority’s lack of concern with “tension between the state court action and
the bankruptcy proceeding,” App. 22a, the Texas court
concluded that “preemption is not triggered by the
mere fact that a claim requires state courts to interpret federal bankruptcy law,” Graber, 278 S.W.3d at
619.
Thus, the decision below deepened an intractable
division among the lower courts that reflects
widespread confusion about and disparate approaches

23
to a centrally important bankruptcy-preemption
question. That untenable state of affairs calls out for
this Court’s resolution.
B.

The Decision Below Is Wrong.

Pursuant to its power to establish “uniform Laws
on the subject of Bankruptcies throughout the United
States,” U.S. Const. art. I, § 8, cl. 4, Congress created
the Bankruptcy Code, which is “a comprehensive federal system of penalties and protections,” E. Equip. &
Servs. Corp. v. Factory Point Nat’l Bank, Bennington,
236 F.3d 117, 120 (2d Cir. 2001). To the extent a conflict exists between the Bankruptcy Code and state
law, such as when state law “stands as an obstacle to
the accomplishment and execution of the full purposes
and objectives of Congress,” Crosby v. Nat’l Foreign
Trade Council, 530 U.S. 363, 373 (2000), then “federal
law prevails and state law is preempted,” Murphy v.
NCAA, 138 S. Ct. 1461, 1476 (2018). As the dissent
below correctly recognized, respondent’s state-law
claims conflict with the Bankruptcy Code in just that
way, because they are premised on alleged impropriety in the bankruptcy proceedings and seek to impose
penalties based on the very fact of bankruptcy.
1. As a general matter, the Bankruptcy Code seeks
to ensure that bankruptcy proceedings are legally permissible and cannot be encroached on by other sources
of law. Thus, for instance, the exclusive jurisdiction of
the federal bankruptcy courts and district courts over
matters relating to bankruptcy is broad, and provisions exist to bar penalties associated with bankruptcy
filings. See, e.g., Celotex Corp. v. Edwards, 514 U.S.
300, 308 (1995); 11 U.S.C. 525.
Congress also provided various specific mechanisms “to preclude the misuse of the bankruptcy process.” MSR Expl., 74 F.3d at 915 (citing as examples

24
Fed. Bankr. R. 9011, 11 U.S.C. 105(a), 11 U.S.C.
303(i)(2), 11 U.S.C. 362(h), 11 U.S.C. 707(b), 11 U.S.C.
930, and 11 U.S.C. 1112); see App. 11a; see also Marrama v. Citizens Bank of Massachusetts, 549 U.S. 365,
383 (2007) (Alito, J., dissenting) (noting that
“[b]ankruptcy courts have used their statutory and equitable authority to craft various remedies for a range
of bad faith conduct”). Most pertinent here, a debtor’s
bad faith in filing a petition is a ground for dismissal
under 11 U.S.C. 1112(b) and for relief from the automatic stay under 11 U.S.C. 362(d). See In re SGL Carbon Corp., 200 F.3d 154, 160-162 (3d Cir. 1999) (dismissal, citing cases); In re Laguna Assocs. Ltd. P’ship,
30 F.3d 734, 737 (6th Cir. 1994) (relief from the automatic stay, citing cases); see also, e.g., In re Phoenix
Piccadilly, Ltd., 849 F.2d 1393, 1394-1395 (11th Cir.
1988) (identifying standards for determining whether
bad faith exists).
State law that purports to provide an additional
mechanism to address misuse of the bankruptcy process or to impose penalties associated with the mere
existence of a bankruptcy is preempted because it conflicts with that detailed federal scheme and threatens
to disrupt the uniformity of relevant federal remedies.
See App. 37a (Rivera, J., dissenting). For instance,
state tort claims for “wrongful” conduct related to a
bankruptcy need not adopt the same standards that
the bankruptcy courts have adopted for deciding what
constitutes bad faith. That creates a risk that individuals who are fully compliant with federal bankruptcy
law will nonetheless be subject to liability for conduct
that individual States deem problematic. See PNH,
958 N.E.2d at 126 (identifying concern that “state law
would define the standard of conduct for litigants in
federal bankruptcy court proceedings, establishing
standards that vary from state to state and disrupt the

25
uniformity of bankruptcy law that Congress had intended to promote”); Gonzales, 830 F.2d at 1035 (refusing to “allow[] state courts to create their own
standards as to when persons may properly seek relief
in cases Congress has specifically precluded those
courts from adjudicating”); see also Metcalf, 333 Conn.
at 12.
Interference with bankruptcy law by state courts is
especially problematic in that regard. Although “in
many circumstances state courts can, and do, resolve
questions of federal law,” because of “the unique, historical, and even constitutional need for uniformity in
the administration of the bankruptcy laws,” Congress
“wished to leave the regulation of parties before the
bankruptcy court in the hands of the federal courts
alone.” MSR Expl., 74 F.3d at 915. In other words,
the need for uniformity is so great in bankruptcy that
Congress intended to entirely disable state courts from
adjudicating questions about the propriety of a bankruptcy proceeding. See id. at 916. Allowing States to
both regulate and adjudicate what constitutes proper
use of the bankruptcy process is inconsistent with that
federal scheme.
2. The tortious interference claims here are
preempted because the crux of those claims is that petitioners abused the bankruptcy process and that
there was something wrongful about the process itself.
For instance, as the dissent below explained, a necessary element of the tortious interference claims is that
petitioners “improperly induced debtors to breach
their contractual obligations, which would require the
[state] court to opine on the legitimacy of the debtors’
bankruptcy proceedings and [petitioners’] interest and
role in facilitating debtors’ filings.” App. 43a. The majority disagreed, asserting that the state court would

26
not need to inquire into whether bad faith existed under the Bankruptcy Code because petitioners’ conduct
could be tortious even if “lawful” under the Code. App.
17a. But that only highlights the need for preemption:
respondent’s state-law claims conflict with the Code
precisely because respondent seeks to hold petitioners
liable for bankruptcy-related conduct that a federal
court might deem fully appropriate as a matter of federal law.
Indeed, this case presents a particularly stark example of the concerns that have motivated courts to
deem state-law abuse-of-process claims preempted.
As noted above, respondent initially moved to dismiss
one of the bankruptcy petitions on the ground that the
petition was filed in bad faith, but withdrew that motion after the bankruptcy court expressed skepticism
about the motion’s likelihood of success. See App. 3a.
Rather than pressing that argument further in the
bankruptcy court, respondent instead sought “to avoid
the remedies of the Bankruptcy Code,” App. 54a (Rivera, J., dissenting), opting to present essentially the
same allegations repackaged in the form of state-law
tort claims brought against petitioners. 6 In bringing
Indeed, the bankruptcy-court motion to dismiss and the statecourt tort complaint are, in many places, phrased in essentially
the same way. Compare, e.g., App. 125a (bankruptcy-court motion: “[Mezz Borrower] Files for Bankruptcy to Avoid Foreclosure”), with App. 86a (Complaint: “Mezz Borrower filed for bankruptcy in order to avoid that foreclosure”); compare, e.g., App.
134a (bankruptcy-court motion: arguing that bankruptcy petition “reflects an attempt to frustrate [respondent’s] bargained for
rights”), with App. 102a (Complaint: arguing that petitioners’
conduct “was intended to frustrate [respondent’s] maturity default remedies”); compare, e.g., App. 127a-128a (bankruptcycourt motion: arguing that bankruptcy petition was filed “to
6

27
that subsequent state action, respondent essentially
mounted a “collateral[] * * * attack” on the “bankruptcy petitions in * * * state court[].” Gonzales, 830
F.2d at 1035. Such a collateral attack “threaten[s] the
uniformity of federal bankruptcy law.” Ibid.; see
Metcalf, 214 A.3d at 375 (“Congress’ interest in uniformity in the bankruptcy process is so dominant as to
preempt collateral attacks through state law vexatious litigation and [unfair competition] claims.”).
Moreover, the majority below was wrong to rely on
the assertion that “the state action has no impact on
the borrowers’ ability to obtain a ‘fresh start’” on the
ground that “resolution of [respondent’s] claims”
would not affect “the debtors’ estates.” App. 16a (citation omitted). Preemption of state law based on conflict with federal bankruptcy law may exist even if a
reorganization plan in the underlying bankruptcy action has already been approved. Respondent itself alleged that the borrowers were able to file for bankruptcy—that is, to get their “fresh start”—only because petitioners facilitated their filings. And the only
reason that respondent can claim tortious interference
in the first place is the borrowers’ pursuit of bankruptcy. See App. 58a (Rivera, J., dissenting) (“If
there’s no bankruptcy filing * * * there is no viable
state claim.”).

thwart creditors and escape the effects of non-bankruptcy litigation”), with App. 85a (Complaint: contending that petitioners
acted “to evade a fundamental protection in favor of [respondent]
under bankruptcy law”).

28
C.

The Question Presented Here Is
Important And Recurring, And The
Legal Rule Adopted By The Court
Below Will Give Rise To Serious
Negative Consequences.

The question presented here is an important one,
with the potential to have significant effects on federal
bankruptcy law. Moreover, as illustrated by the decision below (and the discussion above), the question is
frequently litigated in federal and state courts across
the country, with widely varying results. See pp. 9-23,
supra. As things stand, federal and state courts confronting bankruptcy-preemption issues have little
guidance from this Court on how to approach the analysis. And litigants seeking to pursue state-law tort
claims like the ones at issue in this case have a significant incentive to forum shop, in search of a jurisdiction with some connection to the defendant or to the
alleged tort in which a state-law claim will not be
preempted even if it hinges on an allegation that something has gone awry with the bankruptcy process.
In addition, the no-preemption rule adopted by the
majority below, and applied by courts in several other
jurisdictions, has deeply pernicious effects. Most notably, as the dissent recognized (App. 56a), if state tort
liability may be the consequence for assisting debtors
who are facing bankruptcy, individuals and entities
are far less likely to provide that assistance. In some
circumstances, that may mean that a party who desperately needs to file for bankruptcy simply lacks the
resources to do so, thus “potentially chill[ing] the exercise of federal rights created by the Bankruptcy
Code.” PNH, 958 N.E.2d at 126; see Gonzales, 830
F.2d at 1036; see also MSR, 74 F.3d at 916 (discussing
chilling effect of “[t]he threat of later state litigation”);

29
Gene R. Smith Corp. v. Terry’s Tractor, Inc., 257 Cal.
Rptr. 598, 600 (Cal. App. 1989) (similar). In others, it
may mean that a party that could otherwise have
avoided insolvency—for instance, by obtaining a loan
from an entity that works with distressed individuals
and entities—will lose that opportunity entirely, with
cascading consequences for the party’s employees (if
any) and creditors.
Those chilling effects are especially pronounced as
to “those with * * * little to no resources and a low
credit rating,” App. 56a, who often depend on some
outside assistance in order to file for bankruptcy and
successfully navigate bankruptcy-court proceedings.
With respect to tort claims premised (like the claims
here) on the notion that facilitating a bankruptcy was
a wrongful act, potential targets for state-law tort
suits include not only lenders who service those in distress but also debt-counseling entities, organizations
that assist potential debtors in finding subsidized or
other low-cost legal assistance, friends or family members who provide a potential debtor with funds to hire
a bankruptcy lawyer, and anyone who simply advises
the potential debtor that filing for bankruptcy would
be a good idea. And the risk that those targets will
face a tortious interference suit is hardly theoretical,
since under nearly every loan agreement in existence
the filing of a bankruptcy case is an event of default
and therefore a breach of contract.
The mere risk of facing such a suit, without the
ability to rely on a preemption argument that will immediately stop the suit in its tracks as a matter of law,
may well be enough to ensure that those who would
otherwise smooth a debtor’s entry into bankruptcy will
refrain from offering any assistance or advice. See
App. 56a-57a (Rivera, J., dissenting) (explaining how

30
“[t]he fear of state litigation may disincentivize lawyers and potential secondary lenders from assisting
debtors who wish to file for bankruptcy but need legal
counsel and financial assistance to do so”); see also,
e.g., Gonzales, 830 F.2d at 1036 (noting the “kind of
substantial damage awards that might be available in
state court tort suits” and explaining that “[e]ven the
mere possibility of being sued in tort in state court
could in some instances deter persons from exercising
their rights in bankruptcy”); MSR Expl., 74 F.3d at
916 (discussing “specter of additional litigation”). The
assurances of the majority below (App. 23a) that some
such suits will fail on the merits in the end are thus
cold comfort.
Finally, permitting tort claims like the ones asserted here to proceed inevitably creates inconsistent
state and federal standards as to what constitutes
abuse of the bankruptcy system. See pp. 24-25, supra.
As noted, the core of respondent’s claim is that petitioners helped debtors misuse the bankruptcy process
to prevent respondent from recovering its collateral. When state courts are allowed to assess the legitimacy of bankruptcy filings through state-law tort
claims, they are likely to develop different legal standards than those applied by bankruptcy courts, or even
reach different results on the same facts. Borrowers
and lenders alike are ill served by such unpredictable
and varying liability, which destroys the uniformity
that the Bankruptcy Code is intended to secure.
D.

This Case Is An Excellent Vehicle To
Address The Question Presented.

This case is an excellent vehicle for resolving the
question presented. The preemption issue is outcome
determinative here and was thoroughly addressed by
both the majority and dissent below.

31
The fact that the case was remanded for further
proceedings is no barrier to this Court’s review, as the
issue presented is final under Cox Broadcasting Corp.
v. Cohn, 420 U.S. 469 (1975). Cox provides that a
state-court judgment is final “where [1] the federal issue has been finally decided in the state courts [2] with
further proceedings pending in which the party seeking review here might prevail on the merits on nonfederal grounds, thus rendering unnecessary review of
the federal issue by this Court, * * * [3] reversal of
the state court on the federal issue would be preclusive
of any further litigation,” and “[4] a refusal immediately to review the state court decision might seriously
erode federal policy.” Id. at 482-483.
This case readily satisfies those four criteria. The
New York Court of Appeals finally decided whether
the Bankruptcy Code preempts respondent’s state-law
claims. Petitioners may prevail on remand on nonfederal grounds—among others, the lack of any basis for
holding the individual petitioners liable for the acts of
the corporate petitioners, and respondent’s inability to
prove that it would not have suffered its claimed damages absent the alleged tortious conduct. 7 And were
Indeed, subsequent to the decision of which petitioners seek review, the intermediate New York appellate court ruled that individual petitioners should be dismissed from this case on state-law
grounds. See 137 N.Y.S.3d 359, 362-363 (N.Y. App. Div. Dec. 29,
2020) (ruling that corporate veil could not be pierced to reach individuals). The individuals remain proper petitioners in this
Court because further state-court proceedings could vitiate that
ruling—and, indeed, respondent has already sought to circumvent it through amended pleadings. See Plaintiff’s Memorandum
of Law in Support of Its Motion for Leave to File a Supplemental
Summons and an Amended Complaint, Sutton 58 Associates LLC
v. Pilevsky et al., No. 654917/2016, at 1 (N.Y. Sup. Ct. Jan. 8,
2021).
7

32
this Court to conclude that respondent’s claims are
preempted, the case would be entirely over.
Finally, and critically, allowing the New York
court’s decision to stand would “seriously erode” the
important “federal policy” of ensuring uniform bankruptcy law that is interpreted by federal bankruptcy
courts. Cox, 420 U.S. at 483; see U.S. Const. art. I, § 8,
cl. 4. When state regulation encroaches on an area
otherwise subject to federal control, destruction of the
uniformity of federally mandated standards is virtually inevitable. Not surprisingly, then, this Court has
regularly treated state-court decisions rejecting
preemption defenses as within its jurisdiction, even if
that rejection allows proceedings to continue on in
state court. See, e.g., Hawaiian Airlines, Inc. v. Norris, 512 U.S. 246, 252 (1994); Ingersoll-Rand Co. v.
McClendon, 498 U.S. 133, 136 (1990); Goodyear
Atomic Corp. v. Miller, 486 U.S. 174, 179-180 (1988);
Southland Corp. v. Keating, 465 U.S. 1, 6-7 (1984);
Belknap, Inc. v. Hale, 463 U.S. 491, 497 n.5 (1983).
And the Court has noted that the risk of eroding federal policy is particularly great where, as here, federal
law not only preempts state-law claims but also prevents state courts from addressing a particular subject. See Belknap, 463 U.S. at 497 n.5 (relying on Cox,
420 U.S. at 483); Local No. 438 Const. & Gen. Laborers’ Union, AFL-CIO v. Curry, 371 U.S. 542, 550
(1963), cited in Cox, 420 U.S. at 483.

33
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ERIC S. SEILER
ROBERT S. SMITH
LANCE J. GOTKO
ANIL VASSANJI
FRIEDMAN KAPLAN SEILER &
ADELMAN LLP
7 Times Square
New York, NY 10036
(212) 833-1100

April 2021

DONALD B. VERRILLI, JR.
ELAINE J. GOLDENBERG
Counsel of Record
RACHEL G. MILLER-ZIEGLER
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, DC 20001
(202) 220-1100
Elaine.Goldenberg@mto.com

APPENDIX

1a
APPENDIX A
No. 80
COURT OF APPEALS OF NEW YORK.
SUTTON 58 ASSOCIATES LLC, Appellant,
v.
PHILIP PILEVSKY, et al., Respondents.
[Filed] November 24, 2020
OPINION
STEIN, J.:
On this appeal, we are asked to determine whether
federal bankruptcy law preempts plaintiff’s state law
claims asserted against non-debtor third parties for
tortious interference with a contract. Giving due consideration to the presumption against preemption, we
hold that plaintiff’s state law claims are not preempted under the circumstances presented here.
I.
Plaintiff Sutton 58 Associates, LLC loaned
$147,250,000 to nonparties BH Sutton Mezz LLC
(Mezz Borrower) and Sutton 58 Owner LLC (Mortgage Borrower) (collectively, the borrowers) in order
to finance the development and construction of an
apartment complex on a Manhattan property owned
by Mortgage Borrower. Mezz Borrower owned 100%
of the membership interest in Mortgage Borrower.
The loan contracts consisted of a mezzanine loan
agreement between plaintiff and Mezz Borrower, as
well as acquisition and building loan agreements between plaintiff and Mortgage Borrower. These
agreements forbade the borrowers from incurring any
debt other than short-term trade debt, from acquiring
any unrelated assets and from engaging in other

2a
business, and compelled them to remain “Special
Purpose Bankruptcy Remote” entities. 1 The agreements also prohibited the sale or transfer of any direct or indirect interest in either the property or the
borrowers without plaintiff’s consent. It is undisputed
that these provisions were intended to ensure that, if
the borrowers filed for bankruptcy, they would be
single-asset real estate entities and the bankruptcy
process would, at the very least, be expedited. 2 Plaintiff and Mezz Borrower also entered into a pledge and
security agreement, in which Mezz Borrower pledged
its 100% membership interest in Mortgage Borrower
as collateral for the mezzanine loan. This agreement
gave plaintiff the right to foreclose upon and sell that
membership interest—and, by extension, the development site—in the event of a default.
When the loans matured in January 2016, the borrowers defaulted. Plaintiff issued notices of default
and sought to conduct a UCC foreclosure sale of Mezz
Borrower’s membership interest in Mortgage BorAs defined in the agreements, a special purpose bankruptcy
remote entity is one which, among other limitations, is organized for the sole purpose of owning property, engages in no unrelated business, and holds no unrelated assets.

1

The Bankruptcy Code defines single asset real estate as “real
property constituting a single property or project, other than
residential real property with fewer than [four] residential
units, which generates substantially all of the gross income of a
debtor who is not a family farmer and on which no substantial
business is being conducted by a debtor other than the business
of operating the real property and activities incidental thereto”
(11 USC § 101[51B] ). When a debtor is a single asset real estate
entity, the Bankruptcy Code provides for expedited filing of a
reorganization plan or the commencement of payments to a
creditor in order to avoid lifting of the automatic stay and foreclosure on the property (see 11 USC § 362[d][3] ).

2

3a
rower pursuant to the pledge and security agreement.
Shortly before the scheduled sale, the borrowers unsuccessfully moved in Supreme Court for a preliminary injunction to block the sale. A few days after
Supreme Court ordered that the sale proceed at the
end of February 2016, Mezz Borrower filed a voluntary petition for chapter 11 bankruptcy in federal
court.
Plaintiff initially moved to dismiss Mezz Borrower’s bankruptcy petition on the ground that it was
filed in bad faith or, alternatively, sought to lift the
automatic stay imposed under bankruptcy law in order to permit plaintiff to pursue the sale. 3 Thereafter,
in April 2016, Mortgage Borrower separately filed a
voluntary petition for chapter 11 bankruptcy in federal court. After the Bankruptcy Court commented
that plaintiff’s motion to dismiss Mezz Borrower’s
bankruptcy petition was “premature,” plaintiff withdrew that motion without prejudice. Plaintiff did not
seek to renew the motion during the bankruptcy proceedings or otherwise move to dismiss Mortgage Borrower’s bankruptcy petition.
The bankruptcy cases were consolidated for joint
administration. Plaintiff cooperated with a creditors’
committee to develop and file a joint plan of liquidation. As part of the plan of liquidation, an auction
The filing of a bankruptcy petition “operates as a stay” of,
among other things, any actions or proceedings against the
debtor that were or could have been commenced before the
bankruptcy proceeding, the enforcement of judgments already
obtained against the debtor, and any acts to obtain or exercise
control over the property of the bankruptcy estate, create or enforce a lien against the property of the estate or debtor, or to
collect or recover a claim against the debtor that arose before
the bankruptcy proceeding (11 USC § 362[a] ).

3

4a
sale was held in December 2016, during which plaintiff placed the winning credit bid—in the amount of
$86 million—for the project site. 4 In early 2017,
plaintiff and the borrowers’ other creditors voted to
accept the plan of liquidation, which Bankruptcy
Court confirmed.
Meanwhile, in September 2016, plaintiff commenced this action in state court against defendants
Philip Pilevsky, Michael Pilevsky, Seth Pilevsky,
Prime Alliance Group Ltd., and Sutton Opportunity
LLC—various affiliated persons and entities—
alleging that defendants had tortiously interfered
with the loan agreements between plaintiff and the
nonparty borrowers. According to plaintiff, defendants had engaged in a scheme to obtain an ownership
interest in the development project in violation of the
loan agreements. Plaintiff averred that, as part of
this alleged scheme, defendants loaned $50,000 to
Mezz Borrower to retain counsel, transferred three
rental apartments to Mortgage Borrower so that it
would no longer be a single asset real estate entity,
and sold a 49% interest in BH Sutton Owner LLC—
the parent company of Mezz Borrower—to a Pilevsky
entity, thereby transferring to defendants an indirect
interest in the borrowers and the development project. 5 Plaintiff asserted that these actions violated the
covenants in the loan agreements prohibiting the
borrowers from incurring non-permitted indebtedPlaintiff submitted documents indicating that, by comparison,
the appraisal value of the property at the time of the planned
foreclosure sale was approximately $180 million.
4

The only defendant that participated in the underlying bankruptcy proceeding was Prime Alliance with respect to its loan to
Mezz Borrower.

5

5a
ness, owning other assets, and transferring any interest in the borrowers, as well as those provisions
requiring the borrowers to remain special purpose
bankruptcy remote entities. With respect to damages
sustained, plaintiff asserted that the conduct of defendants delayed its ability to exercise its contractual
remedies—because the bankruptcy proceeding was
more protracted due to the borrowers no longer qualifying as single asset real estate entities and having
taken on another creditor 6—which, in turn, resulted
in a significant loss in value of the development site.
Defendants moved for summary judgment dismissing the complaint, as relevant here, on the ground
that the action was preempted by the Bankruptcy
Code. Supreme Court denied the motion, holding that
the action was not preempted because it “d[id] not involve the bankruptcy” and, instead, defendants were
alleged to have interfered with “separate contractual
agreements.” On defendants’ appeal, the Appellate
Division reversed and granted defendants’ motion
based upon its conclusion that plaintiff’s claims were
preempted by federal law because “plaintiff’s damages [arose] only because of the bankruptcy filings” (168
A.D.3d 477, 89 N.Y.S.3d 630 [1st Dept. 2019]).
Plaintiff appealed to this Court as of right (see
CPLR 5601[b][1]).
II.
Plaintiff argues that the Appellate Division erro6
The loan was not alleged to be tortious on the basis that it facilitated the bankruptcy. Rather, the loan allegedly violated the
borrowers’ covenants not to accept any liabilities other than
“Permitted Indebtedness,” which provisions in the loan agreements were intended to minimize the number of the borrowers’
creditors.

6a
neously held that its tortious interference claims are
preempted by federal bankruptcy law. Plaintiff contends that neither field nor conflict preemption precludes a New York court from adjudicating its tort
claims, observing that the borrowers’ bankruptcy proceedings were successfully concluded and that plaintiff’s action against defendants—who were not the
debtors in the bankruptcy proceeding—did not pose
any obstacle to resolution of those proceedings. Plaintiff does not dispute that so-called bad-faith filing
claims, or other tort claims premised upon conduct
within a bankruptcy proceeding, may be preempted.
However, plaintiff asserts that a distinction has been,
and should be, drawn between such claims and those
that, as here, allege wrongful conduct by non-debtor
defendants that occurred prior to the bankruptcy proceeding and that are grounded in independent contractual obligations. According to plaintiff, preemption would unfairly deprive it of any judicial forum or
remedy for defendants’ alleged wrongdoing and would
upset the expectations of numerous lenders for largescale real estate projects governed by similar loan
agreements.
In response, defendants urge us to uphold the dismissal of plaintiff’s claims on preemption grounds.
Defendants contend that federal law has occupied the
field of bankruptcy, to the exclusion of state law remedies. Defendants also assert that allowing plaintiff’s
tort claims to proceed in state court would conflict
with federal bankruptcy law because the potential
liability against third parties would discourage lending to, and counseling for, debtors—thereby indirectly
chilling bankruptcy filings. As for plaintiff’s remedies,
defendants argue that they are limited to those available against the debtors in the bankruptcy proceeding—namely, a motion to dismiss the proceeding or

7a
for relief from the automatic stay imposed under
bankruptcy law.
Although the parties cite varied case law from
across the country relating to preemption in the
bankruptcy context, no controlling precedent answers
the question before us. Defendants’ preemption arguments are not wholly implausible. Nevertheless,
defendants ultimately “bear[ ] the ‘considerable burden’ of overcoming the presumption that Congress
did not intend to preempt” plaintiff’s tortious interference claims (Nealy v. U.S. Healthcare HMO, 93
N.Y.2d 209, 218, 689 N.Y.S.2d 406, 711 N.E.2d 621
[1999], quoting De Buono v. NYSA–ILA Medical and
Clinical Services Fund, 520 U.S. 806, 814, 117 S.Ct.
1747, 138 L.Ed.2d 21 [1997]). For the reasons discussed herein, we conclude that defendants have not
met that burden.
III.
The United States Constitution empowers Congress to establish uniform laws7 on the subject of
bankruptcy (see U.S. Const art I, § 8, cl 4), and Congress has effectuated this power by enacting the
Bankruptcy Code (see 11 USC 101 et seq.). The Supremacy Clause, in turn, provides that federal law
“shall be the supreme Law of the Land and the Judges in every State shall be bound thereby, any Thing
“The uniformity requirement is not a straightjacket that forbids Congress [from] distinguish[ing] among classes of debtors,
nor does it prohibit Congress from recognizing that state laws do
not treat commercial transactions in a uniform manner”
(Railway Labor Executives’ Assn. v. Gibbons, 455 U.S. 457, 469,
102 S.Ct. 1169, 71 L.Ed.2d 335 [1982]). Furthermore, “uniformity does not require the elimination of any differences among the
States in their laws governing commercial transactions” (id.).
7

8a
in the Constitution or Laws of any State to the Contrary notwithstanding” (U.S. Const art VI, cl 2).
Therefore, “when federal and state law conflict, federal law prevails and state law is preempted”
(Murphy v. National Collegiate Athletic Assn., 584
U.S. ––––, ––––, 138 S.Ct. 1461, 1476, 200 L.Ed.2d
854 [2018]).
Preemption of state law may occur by express
statutory provision or through implication, the latter
of which may be accomplished through either federal
preemption of the field of a particular subject matter
or the existence of an irreconcilable conflict between
federal and state law (see Doomes v. Best Tr. Corp.,
17 N.Y.3d 594, 601, 935 N.Y.S.2d 268, 958 N.E.2d
1183 [2011]; Balbuena v. IDR Realty LLC, 6 N.Y.3d
338, 356, 812 N.Y.S.2d 416, 845 N.E.2d 1246 [2006];
Murphy, 584 U.S. at ––––, 138 S.Ct. at 1480). “Field
preemption occurs when federal law occupies a ‘field’
of regulation ‘so comprehensively that it has left no
room for supplementary state legislation’ ” (Murphy,
584 U.S. at ––––, 138 S.Ct. at 1480, quoting R.J.
Reynolds Tobacco Co. v. Durham County, 479 U.S.
130, 140, 107 S.Ct. 499, 93 L.Ed.2d 449 [1986]; see
People v. First Am. Corp., 18 N.Y.3d 173, 179, 937
N.Y.S.2d 136, 960 N.E.2d 927 [2011]) or where there
is a “ ‘federal interest ... so dominant that the federal
system will be assumed to preclude enforcement of
state laws on the same subject’ ” (Arizona v. United
States, 567 U.S. 387, 399, 132 S.Ct. 2492, 183 L.Ed.2d
351 [2012], quoting Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230, 67 S.Ct. 1146, 91 L.Ed. 1447
[1947]). Conflict preemption, on the other hand, has
been found “where it is impossible for a private party
to comply with both state and federal requirements,
or where state law stands as an obstacle to the accomplishment and execution of the full purposes and

9a
objectives of Congress,” the latter of which is often
referred to as obstacle preemption (Freightliner Corp.
v. Myrick, 514 U.S. 280, 287, 115 S.Ct. 1483, 131
L.Ed.2d 385 [1995] [internal quotation marks and citations omitted]; see Balbuena, 6 N.Y.3d at 356, 812
N.Y.S.2d 416, 845 N.E.2d 1246). These categories
“are not rigidly distinct” and, regardless of the type of
preemption urged, “a litigant must point specifically
to a constitutional text or a federal statute that does
the displacing or conflicts with state law” (Virginia
Uranium, Inc. v. Warren, ––– U.S. ––––, 139 S.Ct.
1894, 1901, 204 L.Ed.2d 377 [2019] [internal quotation marks and citations omitted] ).
Ultimately, any preemption analysis requires that
we “ascertain the intent of Congress” (Doomes, 17
N.Y.3d at 601, 935 N.Y.S.2d 268, 958 N.E.2d 1183
[internal quotation marks and citation omitted]; see
Wyeth v. Levine, 555 U.S. 555, 565, 129 S.Ct. 1187,
173 L.Ed.2d 51 [2009]). “[B]ecause the States are independent sovereigns in our federal system,” the
United States Supreme Court has “long presumed
that Congress does not cavalierly pre-empt state-law
causes of action” (Medtronic, Inc. v. Lohr, 518 U.S.
470, 485, 116 S.Ct. 2240, 135 L.Ed.2d 700 [1996]).
Furthermore, “[i]n all pre-emption cases, and particularly in those in which Congress has ‘legislated ... in a
field which the States have traditionally occupied,’
[courts must] ‘start with the assumption that the historic police powers of the States were not to be superseded by the Federal Act unless that was the clear
and manifest purpose of Congress’ ” (id., quoting Rice,
331 U.S. at 230, 67 S.Ct. 1146; see Hillsborough
County v. Automated Medical Laboratories, Inc., 471
U.S. 707, 716, 105 S.Ct. 2371, 85 L.Ed.2d 714 [1985]).
As the Supreme Court has acknowledged, “there is no
question that States possess the ‘traditional authority

10a
to provide tort remedies to their citizens’ as they see
fit” (Wos v. E.M.A., 568 U.S. 627, 639–640, 133 S.Ct.
1391, 185 L.Ed.2d 471 [2013], quoting Silkwood v.
Kerr–McGee Corp., 464 U.S. 238, 248, 104 S.Ct. 615,
78 L.Ed.2d 443 [1984]; see CTS Corp. v. Waldburger,
573 U.S. 1, 19, 134 S.Ct. 2175, 189 L.Ed.2d 62
[2014]). The presumption against preemption applies
to preemption in the bankruptcy context (see BFP v.
Resolution Trust Corporation, 511 U.S. 531, 546, 114
S.Ct. 1757, 128 L.Ed.2d 556 [1994]), and defendants
here must overcome “ ‘the starting presumption that
Congress does not intend to supplant state law’ ” (De
Buono, 520 U.S. at 814, 117 S.Ct. 1747, quoting New
York State Conference of Blue Cross & Blue Shield
Plans v. Travelers Ins. Co., 514 U.S. 645, 654, 115
S.Ct. 1671, 131 L.Ed.2d 695 [1995]).
Looking to congressional intent in regulating
bankruptcy, the principal purposes of the Bankruptcy
Code are to give a “ ‘fresh start’ to the ‘honest but unfortunate debtor’ ” (Marrama v. Citizens Bank of
Mass., 549 U.S. 365, 367, 127 S.Ct. 1105, 166 L.Ed.2d
956 [2007], quoting Grogan v. Garner, 498 U.S. 279,
286, 287, 111 S.Ct. 654, 112 L.Ed.2d 755 [1991]) by
“provid[ing] a procedure by which ... insolvent debtors
can reorder their affairs, make peace with their creditors, and enjoy ‘a new opportunity in life and a clear
field for future effort, unhampered by the pressure
and discouragement of preexisting debt’ ” (Grogan,
498 U.S. at 286, 111 S.Ct. 654, quoting Local Loan
Co. v. Hunt, 292 U.S. 234, 244, 54 S.Ct. 695, 78 L.Ed.
1230 [1934]). The Bankruptcy Code also aims to allow
corporations to restructure so as to avoid liquidation
(see generally NLRB v. Bildisco & Bildisco, 465 U.S.
513, 528, 104 S.Ct. 1188, 79 L.Ed.2d 482 [1984];
United States v. Whiting Pools Inc., 462 U.S. 198,
203, 103 S.Ct. 2309, 76 L.Ed.2d 515 [1983]), and to

11a
ensure fair distribution of the bankrupt estate to
creditors (see Union Bank v. Wolas, 502 U.S. 151,
161, 112 S.Ct. 527, 116 L.Ed.2d 514 [1991]; Katchen
v. Landy, 382 U.S. 323, 328–329, 86 S.Ct. 467, 15
L.Ed.2d 391 [1966]).
To advance these congressional purposes, the
Bankruptcy Code contains an intricate and comprehensive framework governing voluntary and involuntary bankruptcy filings for various persons and entities. The statutory scheme governs the filing and adjudication of bankruptcy petitions, creditor claims,
adversary proceedings and counterclaims. Although
the Bankruptcy Code incorporates state law in various respects, the Code generally prescribes which
debts are dischargeable and which claims are allowable, as well as administration of the entire bankruptcy process. Further, the Code empowers the Bankruptcy Court to prevent litigants from misusing the
bankruptcy process by authorizing the court, among
other things, to address abuses of process (see 11 USC
§ 105[a] ), dismiss certain petitions for abuse (see e.g.
11 USC §§ 303[i][2]; 707[b]; 1112), grant relief from
the automatic stay (see 11 USC § 362[d][1] ), or issue
sanctions for willful violations of the stay (see 11 USC
§ 362[k][1] ).
IV.
With the foregoing background in mind, we turn to
application of the preemption doctrine to the facts of
this case. Defendants make no claim of express
preemption. Further, while defendants argue that
field preemption precludes assertion of plaintiff’s tort
claims in state court due to the comprehensive federal regulation of bankruptcy proceedings, in our view,
this contention does not merit extended discussion.
Certainly, the Bankruptcy Code thoroughly governs
the litigation and settlement of controversies between

12a
debtors and creditors in connection with the bankruptcy estate; after all, Congress granted to federal
District Courts “exclusive jurisdiction of all cases under title 11” and “original but not exclusive jurisdiction of all civil proceedings arising under title 11, or
arising in or related to cases under title 11” (28 USC
§ 1334[a], [b] ), which they typically refer to Bankruptcy Courts (see 28 USC § 157[a] ). Indeed, the
Bankruptcy Code generally sets out the law that applies to bankruptcy petitions and claims filed in each
bankruptcy case. However, defendants cite no provision of the Code that suggests a congressional intent
to interfere with the authority of state courts to provide traditional tort remedies for claims brought by a
non-debtor against alleged non-debtor tortfeasors for
interference with contractual agreements that exist
independently of a bankruptcy proceeding (cf. Balbuena, 6 N.Y.3d at 357, 812 N.Y.S.2d 416, 845 N.E.2d
1246). In fact, defendants concede that the Bankruptcy Code would provide no remedy for plaintiff’s claims
as asserted against defendants. To be sure, congressional silence as to remedies against third parties
may not be dispositive. However, defendants point to
nothing in the language, structure, or history of the
Bankruptcy Code to support their contention that—in
addition to occupying the field of bankruptcy adjudication as between debtors and creditors—Congress
clearly and manifestly expressed an intent to encroach upon the state’s dominion by foreclosing tort
remedies for claims that are not asserted by or
against a debtor and do not affect the bankruptcy estate, thereby removing all available judicial recourse
for plaintiffs injured by tortious conduct of nondebtors if there is any tangential connection to a
bankruptcy proceeding (see Rosenberg v. DVI Receivables XVII, LLC, 835 F.3d 414, 419 [3d Cir.2016]). To
the extent that federal law occupies the field of bank-

13a
ruptcy, the state law claims presented here do not
trigger such preemption because they do not implicate debtor-creditor disputes relating to the bankruptcy estate.
The more complex question is whether plaintiff’s
tortious interference claims are impliedly preempted
in accordance with principles of conflict preemption
insofar as defendants suggest that permitting such
claims to proceed in state court will undermine the
accomplishment and execution of the full purposes
and objectives of the Bankruptcy Code. “What is a
sufficient obstacle [for purposes of preemption] is a
matter of judgment, to be informed by examining the
federal [law] as a whole and identifying its purpose
and intended effects” (Crosby v. National Foreign
Trade Council, 530 U.S. 363, 373, 120 S.Ct. 2288, 147
L.Ed.2d 352 [2000]). Significantly, “the conflict between state law and federal policy must be a sharp
one” and “federal law does not preempt state law under obstacle preemption analysis unless the repugnance or conflict is so direct and positive that the two
acts cannot be reconciled or consistently stand together” (Figueroa v. Foster, 864 F.3d 222, 235 [2d
Cir.2017] [internal quotation marks and citations
omitted]; Witco Corp. v. Beekhuis, 38 F.3d 682, 687
[3d Cir.1994]; see also Boyle v. United Technologies
Corp., 487 U.S. 500, 507, 108 S.Ct. 2510, 101 L.Ed.2d
442 [1988]).
In their bid for dismissal of plaintiff’s claims, defendants do not identify any specific Bankruptcy
Code provisions that have preemptive effect. Instead,
defendants cite to various court cases addressing badfaith filing or abuse of process claims, and analogize
plaintiff’s tortious interference causes of action to
such claims. In that regard, courts have most often
confronted preemption in the bankruptcy context in

14a
relation to attempts by creditors and debtors to lodge
state tort claims against each other for malicious
prosecution or abuse of process, alleging bad-faith filings in a bankruptcy proceeding or wrongful conduct
within that proceeding. Judicial authorities are divided on whether such claims are preempted. However, it is fair to say that the majority of courts have
held that such tort claims—those premised upon a
bankruptcy filing, itself, or other alleged wrongful
conduct within a bankruptcy proceeding—are
preempted (see e.g. Metcalf v. Fitzgerald, 333 Conn. 1,
3, 214 A.3d 361, 365 [2019], cert denied ––– U.S. ––––
, 140 S.Ct. 854, 205 L.Ed.2d 460 [2020]; Longnecker v.
Deutsche Bank Nat. Tr. Co., 842 N.W.2d 680 [Iowa
Ct. App. 2013]; PNH, Inc. v. Alfa Laval Flow, Inc.,
2011-Ohio-4398, ¶ 31, 130 Ohio St. 3d 278, 285, 958
N.E.2d 120, 127 [2011]; Stone Crushed Partnership v
Kassab Archbold Jackson & O’Brien, 589 Pa. 296,
303, 908 A.2d 875, 880 [2006]; Pertuso v. Ford Motor
Credit Co., 233 F.3d 417, 426 [6th Cir.2000]; Smith v.
Mitchell Const. Co., Inc., 225 Ga. App. 383, 386, 481
S.E.2d 558, 561 [Ga. Ct. App 1997]; MSR Expl., Ltd.
v. Meridian Oil, Inc., 74 F.3d 910, 911 [9th Cir.1996];
Gonzales v. Parks, 830 F.2d 1033, 1035 [9th
Cir.1987]; but see Graber v. Fuqua, 279 S.W.3d 608,
613–614 [Tex. 2009]; U.S. Express Lines Ltd. v. Higgins, 281 F.3d 383, 393 [3d Cir.2002]).
We need neither adopt nor reject the reasoning of
these courts to resolve the instant appeal. It suffices
to say that, where a tort claim is premised upon a
bankruptcy filing, itself, or on conduct that occurs
within a bankruptcy proceeding and under the purview of the Bankruptcy Court, the obstacle presented
by state tort remedies is more readily discerned. Parallel tort actions in state court against a debtor or
creditor based on that party’s alleged wrongful con-

15a
duct in a bankruptcy proceeding risks subverting the
Bankruptcy Court’s authority to adjudicate the validity of bankruptcy filings, or otherwise producing inconsistent standards or outcomes between state and
federal law. Indeed, the Bankruptcy Code provides
remedies for such claims as asserted between debtors
and creditors by, for example, authorizing dismissal
of bad-faith filings and empowering the Bankruptcy
Court to take measures to prevent any abuse of process. While some courts have reasoned that “[s]tate
courts are not authorized to determine whether a
person’s claim for relief under a federal law, in a federal court, and within that court’s exclusive jurisdiction, is an appropriate one” (Gonzales, 830 F.2d at
1035; see e.g. Metcalf, 333 Conn. at 13, 214 A.3d at
370), in our view, this same obstacle is not presented
under the circumstances here because no question is
raised as to the propriety of the bankruptcy proceedings. Plaintiff’s tortious interference claims—asserted
against defendants who were not debtors in the
bankruptcy proceedings and which are premised upon conduct that occurred prior to those proceedings—
are peripheral to, and do not impugn, the bankruptcy
process.
Significantly, plaintiff seeks to sue non-debtor
third parties for alleged wrongful conduct that occurred prior to, and separate from, the bankruptcy
proceedings. The Bankruptcy Code, however, is overwhelmingly concerned with the debtor’s estate. Bankruptcy law and, in particular, chapter 11 bankruptcy,
aims to “permit[ ] business debtors to reorganize and
restructure their debts in order to revive the debtors’
businesses” and “maximiz[e] the value of the bankruptcy estate” (Toibb v. Radloff, 501 U.S. 157, 163,
111 S.Ct. 2197, 115 L.Ed.2d 145 [1991]). The accomplishment of these purposes relies upon the proper

16a
composition and allocation of the debtor’s estate.
Consequently, federal courts have “exclusive jurisdiction ... of all the property, wherever located, of the
debtor as of the commencement of such case, and of
property of the estate” (28 USC § 1334[e][1] ).
In light of these purposes of the Bankruptcy Code,
a significant component of a preemption analysis in
the bankruptcy context must be the degree to which
the state claims interfere with the administration of
the debtor’s estate. Here, resolution of plaintiff’s
claims in state court does not risk interference with
the Bankruptcy Court’s control over, or disposition of,
the bankruptcy estate insofar as the present suit does
not impair the debtors’ estates. The debtors in the
bankruptcy proceedings—i.e., the borrowers—are unaffected by whether plaintiff prevails on its tort
claims against defendants, and the state action has
no impact on the borrowers’ ability to obtain a “fresh
start” (Marrama, 549 U.S. at 367, 127 S.Ct. 1105 [internal quotation marks and citations omitted] ).
It is not disputed that valid contracts existed between plaintiff and the borrowers. Plaintiff’s claims
arising out of the borrowers’ breach of those contracts
as asserted against the borrowers were resolved by
the bankruptcy proceeding. Here, plaintiff alleges
that defendants knew of the relevant contractual
terms and deliberately induced the borrowers’ violations of those terms prior to the bankruptcy proceedings. In other words, plaintiff’s allegations state a
claim for tortious interference with contract, and the
remedy for that tort will not affect the debtor’s estate.
As such, these claims will not encroach upon the
province of the bankruptcy court. Stated simply,
plaintiff’s claims “do[ ] not require the adjudication of
rights and duties of creditors and debtors under the
Bankruptcy Code” (Davis v. Yageo Corp., 481 F.3d

17a
661, 679 [9th Cir.2007]; cf. In re Extended Stay Inc.,
435 B.R. 139, 151–152 [S.D. N.Y.2010]).
Rather, plaintiff alleges that certain conduct engaged in by defendants—before the bankruptcy proceedings were even commenced—tortiously interfered
with its contractual rights under various loan agreements. Litigation of those claims will require resolution of whether: plaintiff had a valid contract with
the borrowers; defendants had knowledge of that contract and its relevant terms; defendants intentionally
and improperly induced a breach of that contract; and
plaintiff sustained damages caused by that conduct
(see Oddo Asset Mgt. v. Barclays Bank PLC, 19
N.Y.3d 584, 594, 950 N.Y.S.2d 325, 973 N.E.2d 735
[2012]; White Plains Coat & Apron Co., Inc. v. Cintas
Corp., 8 N.Y.3d 422, 426, 835 N.Y.S.2d 530, 867
N.E.2d 381 [2007]). Contrary to the dissent’s assertion, our state courts will not be asked to determine
whether the borrowers’ bankruptcy petitions were
filed in bad faith or whether defendants engaged in
some wrongful conduct during the bankruptcy proceedings themselves. Regardless of whether the borrowers filed for bankruptcy in good or bad faith (see
generally 11 USC § 362[d][1] ), “plaintiff may recover
damages for tortious interference with contractual
relations even if defendant[s]... w[ere] engaged in
lawful behavior” to the extent that their conduct, as
non-debtors, is not alleged to have been in violation of
the Bankruptcy Code (NBT Bancorp v. Fleet/Norstar
Fin. Group, 87 N.Y.2d 614, 621, 641 N.Y.S.2d 581,
664 N.E.2d 492 [1996]). As defendants may be found
to have tortiously interfered with plaintiff’s contractual rights prior to the bankruptcy proceedings without any inquiry by the state court into whether any
provision of the Bankruptcy Code was violated, those
cases relied on by defendants and the dissent ad-

18a
dressing preemption of bad-faith filing or abuse of
process claims as between debtors and creditors are
inapposite.
Defendants and the dissent point to Choy v. Redland Ins. Co., 103 Cal. App. 4th 789, 796, 127 Cal.
Rptr. 2d 94 [Cal. Ct. App. 2002] and Astor Holdings,
Inc. v. Roski, 325 F. Supp. 2d 251, 263 [S.D.
N.Y.2003] as compelling support for the conclusion
that preemption is applicable here. Reliance on these
cases is unpersuasive. In Choy, a California court
concluded that the plaintiff’s claim was preempted
where plaintiff alleged that the defendants “induced”
a debtor to “file a bankruptcy petition” in “order to
benefit themselves” (103 Cal. App. 4th at 801, 127
Cal. Rptr. 2d at 102). Likewise, Astor “involved allegations that the defendant induced a third party to
file for bankruptcy, harming the plaintiff” (325
F.Supp.2d at 262). Unlike in Choy and Astor, where
the filing of the bankruptcy petitions themselves was
“the basis” of the plaintiffs’ claims (id.), plaintiff here
does not allege that defendants induced the borrowers’ bankruptcy petition but, rather, that they induced breaches of independent contractual provisions
prohibiting asset and interest transfers and certain
types of indebtedness. 8
Federal caselaw addressing bankruptcy preemption of state-law tort claims against third parties differentiates between those claims that are based on
conduct that occurs during bankruptcy, and conduct
Indeed, the District Court permitted certain of the plaintiff’s
claims in Astor to proceed, including a claim that the defendant
had tortiously interfered with a bankruptcy settlement agreement between the plaintiff and a debtor (see Astor Holdings, Inc.
v. Roski, 325 F. Supp. 2d 251, 270 [S.D.N.Y.2003]).
8

19a
undertaken by a third party before commencement of
a bankruptcy proceeding. Contrary to the dissent’s
view, those cases neither find preemption merely because some fact questions might overlap with bankruptcy proceedings, nor base preemption on whether
the damages resulting from a state-law tort or contract action would be calculated by the delay caused
by the bankruptcy proceedings.
As the dissent observes, the Ninth Circuit Court of
Appeals has held that federal law preempts state
courts from determining a creditor’s claim against a
debtor asserting that the filing of a bankruptcy petition was an abuse of process (see Gonzales v. Parks,
830 F.2d 1033, 1035 [9th Cir.1987] ) and a debtor’s
allegation that a creditor’s assertion of a claim in a
bankruptcy proceeding constituted malicious prosecution (see MSR Expl., Ltd. v. Meridian Oil, Inc., 74
F.3d 910, 911 [9th Cir.1996]; see also In re Miles, 430
F.3d 1083, 1086 [9th Cir.2005] [holding that federal
law preempted state claims alleging that “various
(involuntary) bankruptcy filings and/or prosecution of
them caused great emotional, physical, mental and
psychological suffering and distress”] ). However, the
Ninth Circuit’s holding in Davis v. Yageo Corp., 481
F.3d 661, 679 [9th Cir.2007] undercuts the dissent’s
view that these cases support the proposition that
any tort claims alleging that the damages incurred
are causally connected to a bankruptcy proceeding
are preempted.
In Davis, the complaint of minority shareholders
alleged “that the directors and majority shareholder
engaged in self-dealing to the detriment of the corporation through their decision to pursue bankruptcy
and sought damages for breach of fiduciary duty under California state law” (id. at 679). The defendants
argued that the plaintiffs’ state law causes of action

20a
were preempted because they essentially constituted
claims that defendants had “improperly used the
bankruptcy process” (id. at 678). The Ninth Circuit
clarified that its prior cases, including Gonzales v.
Parks, 830 F.2d 1033, MSR Expl., Ltd. v. Meridian
Oil, Inc., 74 F.3d 910 and In re Miles, 430 F.3d 1083,
“hold only that state law causes of action for abuse of
process and malicious prosecution involving conduct
that occurred during bankruptcy are preempted”
(Davis, 481 F.3d at 678). The Court explained that,
by contrast, the plaintiffs’ claims in Davis were not
preempted because they “concern[ed] conduct that
occurred prior to bankruptcy” and did “not require
the adjudication of rights and duties of creditors and
debtors under the Bankruptcy Code” (id. at 678, 679).
The same is true here. Furthermore, the Ninth Circuit declined to hold the claims preempted despite the
fact that the plaintiffs’ damages could be traced to the
bankruptcy proceeding, as the measure of the damages alleged was the difference in the value of the
company’s shares before and after the defendants’ decision to file for bankruptcy (see id. at 674). Thus, the
Davis court recognized that it is the nature of the legal claim, not the measure of damages, that is relevant to determining whether a state law claim is
preempted.
As the dissent observes, plaintiff could have pursued a request for dismissal of the bankruptcy proceedings or relief from the automatic stay. However,
the Bankruptcy Court’s determination of any such
request, while potentially reducing the amount of
plaintiff’s ultimate damages, would not have resolved
the question of whether defendants’ conduct was tortious and, as already noted, defendants do not claim
that any remedy was available to plaintiff in the
bankruptcy proceedings to compensate plaintiff for

21a
defendants’ alleged wrongdoing. Thus, this is not a
situation where state and federal law provide “two
separate remedies” for identical grievances, thereby
leading to an inevitable conflict (compare Garner v.
Teamsters, 346 U.S. 485, 499, 74 S.Ct. 161, 98 L.Ed.
228 [1953] [state remedy of granting injunction
against picketing conflicted with federal law where
federal law authorized National Labor Relations
Board to issue cease and desist order or injunction if
picketing violated federal labor law] ).
In addition, viewing the Bankruptcy Code as a
whole to discern the relevant congressional intent, it
is noteworthy that the Code expressly authorizes the
court to award judgment for monetary damages
“proximately caused by” a bad-faith petition or punitive damages for a bad-faith petition only in the context of involuntary bankruptcy petitions (11 USC §
303[i][2] ). No comparable statutory authorization for
compensatory monetary damages exists in voluntary
proceedings, weakening defendants’ argument in
support of federal preemption here (see In re Repository Tech., Inc., 601 F.3d 710, 724 [7th Cir.2010]). In
lieu of an express federal remedy authorizing monetary damages for bad-faith voluntary bankruptcy petitions—such as the one that exists for involuntary
petitions filed in bad faith—the dissent offers several
alternatives, none of which would permit recovery of
the tort damages sought here and none of which address wrongs committed by a non-debtor third party.
Dismissal of the bankruptcy petition (see generally 11
USC § 1112[b] ) or lifting of the automatic stay (see
11 USC § 362[d][1] )—the remedies relied on by defendants and the dissent to support preemption—
merely operate to prevent future damages from accumulating; such remedies do not compensate for
past injuries. Similarly, the sanctions available under

22a
the Federal Rules of Bankruptcy Procedure do not,
and are not intended to, compensate an injured third
party (see Federal Rules of Bankruptcy Procedure,
Rule 9011[c] ). The existence of these remedies, then,
is insufficient evidence of Congress’s preemptive intent with respect to actions such as the instant one,
inasmuch as none of the remedies extend to the prefiling conduct of third-party tortfeasors (cf. In re Repository Tech., Inc., 601 F.3d at 724 [drawing distinction between voluntary and involuntary bad-faith filings in complete preemption analysis based on the
lack of a damages remedy in voluntary petition cases]
). Under these circumstances, any obstacle presented
by plaintiff’s tort claims, to the extent it exists, is
simply too tenuous to trigger preemption.
A different conclusion is not necessitated by defendants’ argument that, when the alleged tortious
conduct consists of a scheme to hinder a creditor’s
ability to obtain expeditious resolution of a bankruptcy proceeding, permitting plaintiffs to assert tortious
interference claims in state court against non-debtors
may generate some tension between the state court
action and the bankruptcy proceeding insofar as the
alleged damages may flow from the delay occasioned
by the latter. “The mere fact of ‘tension’ between federal and state law is generally not enough to establish an obstacle supporting preemption, particularly
when the state law involves the exercise of traditional
police power” (Madeira v. Affordable Hous. Found.,
Inc., 469 F.3d 219, 241 [2d Cir.2006]; see Silkwood,
464 U.S. at 256, 104 S.Ct. 615; see also Davis, 481
F.3d at 679).
Defendants and various amici speculate that permitting plaintiff’s state law claims to proceed will
open the floodgates of litigation against attorneys
who facilitate bankruptcy filings or provide other le-

23a
gal advice to debtors, debt counseling agencies, restructuring firms, and lenders to distressed borrowers. We are confident that these concerns are overstated and, in any event, more appropriately addressed through the proper application of our tort
law. In that regard, while we do not opine on the merits of plaintiff’s tortious interference claims here, we
note that New York courts have been skeptical of the
viability of claims that attorneys, acting as agents of
their clients, may be liable for tortious interference
based on the provision of legal advice (see e.g. Little
Rest Twelve, Inc. v. Zajic, 137 A.D.3d 540, 541, 27
N.Y.S.3d 142 [1st Dept. 2016]; Burger v. Brookhaven
Med. Arts Bldg., 131 A.D.2d 622, 623, 516 N.Y.S.2d
705 [2d Dept. 1987]; Kartiganer Assoc. v. Town of
New Windsor, 108 A.D.2d 898, 899, 485 N.Y.S.2d 782
[2d Dept. 1985], lv dismissed 65 N.Y.2d 925 [1985];
Goldner v. Sullivan, Gough, Skipworth, Summers &
Smith, 105 A.D.2d 1149, 1150, 482 N.Y.S.2d 606 [4th
Dept. 1984]). Liability against debt counseling organizations on such a theory likewise seems speculative;
many potential bankruptcy petitioners are financially
bereft and close to breaching contracts with creditors,
if not already in breach, due to their inability to satisfy their financial obligations. Plaintiffs alleging tortious interference may have difficulty establishing
the elements of the claim, such as causation or improper inducement on the part of such agencies. Finally, we are not persuaded that any remaining risk
of liability assumed by lenders who intentionally and
improperly induce breaches of known contractual obligations by an entity that subsequently files for
bankruptcy sufficiently “frustrate[s] ‘a significant objective’ ” of the Bankruptcy Code so as to compel
preemption (Doomes, 17 N.Y.3d at 603, 935 N.Y.S.2d
268, 958 N.E.2d 1183, quoting Williamson v. Mazda
Motor of America, Inc., 562 U.S. 323, 330, 131 S.Ct.

24a
1131, 179 L.Ed.2d 75 [2011]). 9
In sum, defendants have failed to meet their heavy
burden of establishing that federal bankruptcy law
preempts plaintiff’s tortious interference claims that
are based on pre-petition conduct and asserted
against non-debtor defendants. Accordingly, the order
of the Appellate Division should be reversed, with
costs, and the case remitted to the Appellate Division
for consideration of issues raised but not determined
on the appeal to that Court.
Order reversed, with costs, and case remitted to
the Appellate Division, First Department, for consideration of issues raised but not determined on the
appeal to that Court.
Chief Judge DiFiore and Judges Wilson and Feinman concur.
Judge Rivera dissents and votes to affirm in an
opinion in which Judges Fahey and Garcia concur.
RIVERA, J. (dissenting):
Plaintiff seeks to recover for damages allegedly
caused by bankruptcies that it accuses defendants of
facilitating solely to prevent recovery of collateral
owed to plaintiff by one of the bankruptcy debtors.
Plaintiff chose to forgo the array of federal remedies
The dissent notes that plaintiff has repurchased the property
and received a judgment against the loan guarantors for at least
part of the funds loaned to borrowers (dissenting op. at ––––).
Needless to say, the fact that this plaintiff may have secured
legal entitlement to recover from other parties a portion of its
alleged damages resulting from defendants’ conduct is irrelevant
to the preemption question before us.

9

25a
available to a creditor, like plaintiff, for such alleged
misuse of the bankruptcy system. Plaintiff could have
sought dismissal of the bankruptcy proceedings, relief
from the automatic stay preventing plaintiff’s recovery of the collateral, foreclosure on the property, or
sanctions against the debtors for their improper conduct. Instead, plaintiff took a different course and allowed the bankruptcy claims to proceed, causing the
alleged damages to accrue, only to file this separate
action in state court against defendants for tortious
interference with contract to recover the same damages. But “no authorized proceeding in bankruptcy
can be questioned in a state court or used as the basis
for the assertion of a tort claim in state court against
any defendant” (Astor Holdings, Inc. v. Roski, 325 F.
Supp. 2d 251, 262 [S.D. N.Y.2003] [emphasis in original] [citation omitted] ). Therefore, the Appellate Division properly dismissed the state tort action. To put
it bluntly, federal law preempts plaintiff’s workaround of the bankruptcy system.
I.
A. The Loans and the Bankruptcy Action
Joseph Beninati aspired to develop a towering, waterfront apartment building in midtown Manhattan
in the historic enclave of Sutton Place on the East
River (the project). The project involved several entwined business entities. Beninati owned a membership interest in BH Sutton Owner LLC (Sutton Owner), which owned a 100% membership interest in BH
Sutton Mezz LLC (Mezz Borrower). Sutton 58 Owner
LLC (Mortgage Borrower) was a wholly owned subsidiary of Mezz Borrower and owner of the real property where the project was to be constructed.
Plaintiff, Sutton 58 Associates LLC, loaned to
Mezz Borrower and Mortgage Borrower (collectively,

26a
borrowers) an aggregate principal loan of
$147,250,000 to finance construction of the building.
The loans were documented in a mezzanine loan
structure consisting of various loan agreements with
provisions commonly used in the real estate development industry. As relevant to this appeal, borrowers
covenanted to at all times remain “Special Purpose
Bankruptcy Remote Entities” unencumbered by additional indebtedness and to refrain from owning any
assets other than the project. 1 Together, these covenants limited borrowers to developing the project.
The loans matured, and borrowers defaulted.
Plaintiff issued notices of default and sought to recover its agreed upon collateral by notice of a UCC
auction sale of Mezz Borrower’s membership interest
in Mortgage Borrower. Borrowers sought to enjoin
the sale in state court, alleging, among other things,
that plaintiff’s attempt to foreclose on the collateral
without complying with the statutory procedures for
foreclosing on a mortgage loan resulted in an “improper clogging of [Mortgage Borrower]’s [unwaivable] equity of redemption in real property.” Finding
that borrowers failed to establish irreparable harm,
A Special Purpose Bankruptcy Remote Entity, in accordance
with the loan documents, is a corporation, limited partnership or
limited liability company that, among other characteristics, is
organized solely for the purpose of owning the project asset, and
refrains from engaging in any business unrelated to ownership
of the project or holding any additional assets other than the
project. In comparison, the Bankruptcy Code defines “single asset real estate” as real property “constituting a single property
or project, ... which generates substantially all of the gross income of a debtor ... and on which no substantial business is being conducted by a debtor other than the business of operating
the real property and activities incidental thereto” (11 USC §
101[51B]).

1

27a
likeliness to succeed on the merits, or that the equities tipped in their favor, Supreme Court denied borrower’s motion to enjoin the UCC sale and ordered
that the sale go forward.
Three days before the scheduled UCC sale, Mezz
Borrower filed a voluntary petition for reorganization
under Chapter 11 of the Bankruptcy Code. Mezz Borrower attached an affidavit affirming that its filing
was precipitated by plaintiff’s attempt to foreclose on
Mezz Borrower’s membership interest in Mortgage
Borrower, in which Mezz Borrower held “substantial
equity.”
Two weeks later, plaintiff moved the Bankruptcy
Court to dismiss Mezz Borrower’s petition under 11
USC § 1112(b), or, in the alternative, to modify the
automatic stay under 11 USC § 362(d)(1). Plaintiff
argued that Mezz Borrower was a “special purpose,
bankruptcy remote, holding company” and the petition was “a classic bad-faith filing” only pursued by
Mezz Borrower after Supreme Court “rejected [Mezz
Borrower’s] last ditch attempt to stave off a fully noticed UCC foreclosure.” Plaintiff further characterized the petition as a “litigation tactic without the intention or serious hope of reorganizing” through
bankruptcy.
In Mezz Borrower’s opposition to plaintiff’s motion
to dismiss, Mezz Borrower painted a different picture. “Contrary to the position advanced by [plaintiff],
this case is not a simple two[-]party dispute with
creditors. Rather, it is a complex commercial transaction involving insatiable greed and disturbing facts.”
Mezz Borrower explained that it was not a “shell entity” but owned 100% of the membership interest in
Mortgage Borrower as well as contracts to purchase
air rights and assets that constituted the project,
which had been appraised at a value of $181,000,000,

28a
“an amount well in excess of any purported amounts
claimed by [plaintiff] and all unsecured debt.” In
short, Mezz Borrower alleged that “review of the loan
documents, exorbitant fees, transaction costs and reserves illustrate[d] a strange and unconscionable
transaction,” brokered by a lender who “sat at both
sides of the negotiating table.”
Prior to the hearing on the motion, Mortgage Borrower filed for reorganization under Chapter 11, and
Mezz Borrower subsequently filed for joint administration of borrowers’ bankruptcy petitions. Borrowers represented to the Bankruptcy Court that their
bankruptcy filings “prevented their unscrupulous
lenders from engaging in illegal activity through a
‘back door play’ against [borrowers].” 2 Following
Borrowers, seeking to subordinate and reduce the amount they
owed defendants on the subject loans, commenced another action, an adversarial proceeding in bankruptcy court, alleging
improper conduct by plaintiff and several nonparty entities (adversarial defendants), through their principals. Borrowers alleged breach of contract, breach of implied duty of good faith and
fair dealing, contractual unconscionability, fraud, deceit, estoppel, equitable subordination, objection to claim, criminal usury,
unjust enrichment and lender liability by the adversarial defendants. Borrowers also sought declaratory relief to determine
the nature, extent, and validity of the defendants’ liens against
the project.
2

After a bench trial, the court found that borrowers failed to establish a basis for liability on all claims except the alleged criminal usury because one of the loans at issue carried a rate in excess of New York’s criminal usury statute. The adversarial defendants agreed to waive their claim for interest on the building
loan, which reduced plaintiff’s secured claim under the loan
agreements. The court further ordered that the adversarial defendants, including plaintiff here, were entitled to a credit bid of
all or such portion of its allowed secured claims with respect to
the sale of borrowers’ assets

29a
plaintiff’s withdrawal of its motion, the court consolidated the two bankruptcies for joint administration.
Within a few months, plaintiff and a creditors’ committee jointly filed a reorganization plan that was accepted and confirmed by the Bankruptcy Court.
B.
Plaintiff’s Tortious Interference Claims
During the pendency of the bankruptcies, plaintiff
brought this action for tortious interference with contract against Prime Alliance Group, Ltd., and Sutton
Opportunity LLC, and their three individual owners
and managers, Philip Pilevsky and his sons Michael
and Seth, in state court. Plaintiff alleged that the
borrowers’ bankruptcies, which defendants facilitated
through their tortious conduct, stayed the foreclosure
proceeding, causing plaintiff to incur damages and
attorney’s fees. 3 Borrowers’ bankruptcies predominate plaintiff’s narrative of the many vicissitudes of
the underlying commercial transaction and the various litigations arising therefrom, including this appeal. Indeed, “bankruptcy” is mentioned 56 times in
41 of the 125 paragraphs of the complaint.
3
The majority is only partially correct that plaintiff sought
damages “because the bankruptcy proceeding was more protracted due to the borrowers no longer qualifying as single asset
real estate entities” (majority op. at ––––). Plaintiff also sought
damages incurred as a result of defendants’ facilitation of the
bankruptcy (by loaning funds to Mezz Borrower to commence its
bankruptcy petition), which, in turn, triggered an automatic
stay of the foreclosure sale. In other words, according to plaintiff, defendants caused an injury in tort, in the first instance,
merely by the fact of Mezz Borrower filing its bankruptcy petition.

30a
According to plaintiff, defendants were instrumental in a two-part scheme to prevent it from recovering
its collateral for the loan maturity defaults.
“Defendants, who were strangers to the Project, intentionally and improperly caused these
contractual breaches in a scheme to benefit
themselves and obtain an ownership interest
in the Project [ ]. The [ ] Scheme had two
parts.
“First, when plaintiff tried to exercise its
agreed-upon contractual remedies following
the maturity defaults, Philip Pilevsky caused
Prime Alliance to lend Mezz Borrower $50,000
(the ‘Pilevsky Loan’) to retain a law firm (in
which another Pilevsky is a partner) to file a
petition for bankruptcy and prevented plaintiff
from exercising those remedies. This caused
Mezz Borrower to breach no fewer than five
contractual obligations to plaintiff[:] ... (a) not
to file a petition for bankruptcy; (b) not to incur debt other than ‘Permitted Indebtedness’;
(c) to pay its liabilities out of its own funds and
assets; (d) to consider the interest of plaintiff
in connection with all of its corporate actions;
and (e) to remain a special purpose bankruptcy remote entity.
“Second, Michael Pilevsky and Seth Pilevsky
caused Sutton Opportunity to transfer three
rental apartments ... (the ‘Pilevsky Apartments’) to Mortgage Borrower to evade a fundamental protection in favor of plaintiff under
bankruptcy law.... The Pilevsky Apartment
transaction caused Mortgage Borrower to
breach no fewer than seven contractual obligations to plaintiff[:] ... (a) not to file a petition
for bankruptcy; (b) not to own any real proper-

31a
ty or assets other than the Project property; (c)
not to engage in any business unrelated to the
Project; (d) not to make or permit the sale or
transfer any indirect interest in Mortgage
Borrower; (e) to pay its liabilities out of its own
funds and assets; (f) to consider the interests
of plaintiff in connection with all corporate actions; and (g) to remain a special purpose
bankruptcy remote entity.”
Plaintiff further claimed that defendants knowingly
and willfully precipitated borrowers’ misuse of the
bankruptcy system.
“Philip Pilevsky has sworn under penalty of
perjury that he caused Prime Alliance to make
the Pilevsky Loan ‘so that [Mezz Borrower]
could file for reorganization under Chapter 11
of the Bankruptcy Code.’ ... The Pilevsky Loan
was made, and Mezz Borrower’s bankruptcy
petition was filed, just after this Court issued
an order allowing plaintiff to foreclose and on
the eve of that foreclosure. Mezz Borrower’s
managing member has sworn that Mezz Borrower filed for bankruptcy in order to avoid
that foreclosure, which is a breach of Mezz
Borrower’s contract with plaintiff.
“The Pilevsky Apartments transaction was
similarly willful and improper. The defendants
urgently sought to get the Pilevsky Apartments into the hands of Mortgage Borrower,
which immediately upon receipt of the
Pilevsky Apartments filed a bankruptcy petition stating that it was subject to the Bankruptcy Code’s restrictions on bankruptcy filings by ‘single Asset Real Estate’ businesses.
Mortgage Borrower’s managing member has
sworn under oath that the transaction was in-

32a
tended ‘to bring in equity’ and unrelated real
estate, which are breaches of Mortgage Borrower’s contract with plaintiff.”
According to plaintiff, the sole purpose of these machinations was to prevent plaintiff from swiftly recovering its collateral.
Plaintiff also alleged that the scheme allowed
Mortgage Borrower to end its status as a single asset
real estate entity in order to “dodge” the applicable
Bankruptcy Code provisions.
“The Bankruptcy Code, for good reason, disfavors a Single Asset Real Estate entity using
bankruptcy to defeat the ordinary contractual
remedies of its secured lender (here, plaintiff).
Michael Pilevsky and Seth Pilevsky caused
Sutton Opportunity to transfer the Pilevsky
Apartments to Mortgage Borrower in order to
allow it to seek to dodge these Bankruptcy
Code provisions and to continue to avoid the
consequences of its maturity defaults....”
To summarize the manipulative purpose of the
bankruptcy filings, plaintiff explained that,
“The Bankruptcy Code reflects a specific public policy that protects lenders to single asset
real estate projects from ‘eve of foreclosure’
bankruptcy filings that delay lenders’ rights to
exercise their remedies. The Project at issue
here is exactly the type of property covered by
these statutory protections. The Pilevsky
Apartments were transferred to Mortgage
Borrower so that it could represent that it was
not a Single Asset Real Estate business.
“If Mortgage Borrower were engaged in a Single Asset Real Estate business,

33a
362(d)(3) would allow plaintiff relief from the
automatic stay to proceed with its foreclosure
unless, within 90 days, the debtor starts servicing the mortgage debt or the debtor has
filed a plan of reorganization that has a reasonable possibility of being confirmed within a
reasonable time.
“If Mortgage Borrower were engaged in a Single Asset Real Estate business, 11 USC §
362(d)(3)(B)(ii) would allow plaintiff to be relieved from the Bankruptcy Code’s automatic
stay and to proceed with its maturity default
remedies against Mortgage Borrower if Mortgage Borrower did not pay monthly interest
payments to plaintiff within ninety days of the
petition date.”
Critically, plaintiff alleged that defendants’ prebankruptcy conduct adversely affected plaintiff’s
rights as a creditor in the bankruptcy proceedings.
“Section 362 (d)(3)(B)(ii) would apply here. On
the date it filed for bankruptcy, Mortgage Borrower had no liquid assets, no incomegenerating assets, no employees, and no ability to make such monthly interest payments to
plaintiff.
“Furthermore, if Mortgage Borrower were engaged in a Single Asset Real Estate business,
111 USC § 362(d)(3)(B)(i) would allow plaintiff
to be relieved from the Bankruptcy Code’s automatic stay and to proceed with its maturity
default remedies against Mortgage Owner if
Mortgage Borrower did not file, within ninety
days of the petition date, a plan of reorganization that has a reasonable possibility of being
confirmed within reasonable time. A Chapter

34a
11 debtor that is not engaged in a Single Asset
Real Estate business does not need to satisfy
this requirement in order to benefit from the
Bankruptcy Code’s automatic stay.
“Section 362 (d)(3)(B)(i) would apply here.
Mortgage Borrower was not able to file a plan
for reorganization within ninety days of its
April 6, 2016 petition date. The plan for reorganization Mortgage Borrower ultimately filed
outside that time period does not have a reasonable possibility of being confirmed within a
reasonable time. It calls for months of discovery and litigation before the bankruptcy court
will even rule on it. And it requests the Property to be sold at a public sale after the conclusion of that litigation, even though Mortgage
Borrower has a single secured creditor, plaintiff, and unsecured obligations that are
dwarfed in size by plaintiff’s secured claim.”
These excerpts of the complaint amply demonstrate that plaintiff’s tort claims arise from, and seek
damages caused solely by, the bankruptcy filings.
Without the bankruptcy filings there would have
been no automatic stay, which means no delay, and
no damages. Plaintiff can prevail on its state claims
only if it establishes that defendants caused these
damages from debtors’ alleged bad-faith filings and
misuse of the bankruptcy system.
Defendants moved for summary judgment on
preemption grounds. The court denied the motion,
concluding that borrowers’ breaches of the loan
agreements had nothing to do with bankruptcy, and
it would not have to rule on the question of bad-faith
filings, which was not addressed by the bankruptcy
court. The Appellate Division reversed and granted
defendants summary judgment as “plaintiff’s damag-

35a
es [arose] only because of the bankruptcy filings” and
are thus preempted (168 A.D.3d 477, 89 N.Y.S.3d 630
[1st Dept. 2019]).
Plaintiff has recast as state law causes of action
what are in fact complaints of bad-faith filings and
misuse of the bankruptcy system. Litigation of these
claims in state court frustrates the congressional
purpose of the Bankruptcy Code’s remedial provisions. It allows plaintiff to forego its federal remedies
to avoid the damages it now claims to have incurred,
even as it participates in the bankruptcies and recovers its collateral, and while it simultaneously requests that a state court declare it has been damaged
by the improper actions taken in those same proceedings. The Appellate Division got it right; these claims
are preempted.
II.
A.
Federal Bankruptcy Law Preemption of State Claims
The Supremacy Clause of the United States Constitution commands that federal law is “the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding”
(U.S. Const, art VI, cl 2). In accordance with the
Clause’s preemption mandate, courts “must not give
effect to state laws that conflict with federal laws”
(Armstrong v. Exceptional Child Ctr., Inc., 575 U.S.
320, 324, 135 S.Ct. 1378, 191 L.Ed.2d 471 [2015], citing Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1, 210, 6
L.Ed. 23 [1824]; accord Cipollone v. Liggett Grp., Inc.,
505 U.S. 504, 516, 112 S.Ct. 2608, 120 L.Ed.2d 407
[1992] [“(S)ince our decision in M’Culloch v. Maryland, 17 U.S. (4 Wheat). 316, 427, 4 L.Ed. 579 (1819),
it has been settled that state law that conflicts with

36a
federal law is ‘without effect’ ”]; Murphy v. National
Collegiate Athletic Assn., ––– U.S. ––––, 138 S.Ct.
1461, 1476, 200 L.Ed.2d 854 [2018] [“(W)hen federal
and state law conflict, federal law prevails and state
law is preempted”] ). The Supremacy Clause “is essentially a power conferring provision, one that allocates authority between the national and state governments” (Western Air Lines, Inc. v. Port Auth. of
New York & New Jersey, 817 F.2d 222, 225 [2d
Cir.1987] [citation omitted] ).
Whether state regulation of a particular subject
matter “is invalid under the Supremacy Clause depends on the intent of Congress” (Malone v. White
Motor Corp., 435 U.S. 497, 504, 98 S.Ct. 1185, 55
L.Ed.2d 443 [1978] [citation omitted]; see also City of
New York v. ExxonMobil Corp. [In re Methyl Tertiary
Butyl Ether (“MTBE”) Prods. Liab. Litig.], 739 F.
Supp. 2d 576, 602 [S.D. N.Y.2010] [“(T)he touchstone
of the doctrine of federal preemption is not fairness to
the parties; it is Congressional intent”). “State action
may be foreclosed by express language in a congressional enactment, by implication from the depth and
breadth of a congressional scheme that occupies the
legislative field, or by implication because of a conflict
with a congressional enactment” (Lorillard Tobacco
Co. v. Reilly, 533 U.S. 525, 541, 121 S.Ct. 2404, 150
L.Ed.2d 532 [2001]; see also Balbuena v. IDR Realty
LLC, 6 N.Y.3d 338, 356, 812 N.Y.S.2d 416, 845
N.E.2d 1246 [2006] [“The Supremacy Clause, in article VI of the Constitution, may entail pre-emption of
state law either by express provision, by implication,
or by a conflict between federal and state law”] [citation an internal quotation marks omitted] ).
I agree with defendants that litigation of the state

37a
claims conflicts with bankruptcy law. 4 A conflict exists “where compliance with both federal and state
regulations is a physical impossibility[,] or where the
state law stands as an obstacle to the accomplishment and execution of the full purposes and objectives of Congress” (Balbuena, 6 N.Y.3d at 356, 812
N.Y.S.2d 416, 845 N.E.2d 1246, quoting Ray v. Atlantic Richfield Co., 435 U.S. 151, 158, 98 S.Ct. 988, 55
L.Ed.2d 179 [1978]). “What is a sufficient obstacle is a
matter of judgment, to be informed by examining the
federal statute as a whole and identifying its purpose
and intended effects” (Crosby v. National Foreign
Trade Council, 530 U.S. 363, 373, 120 S.Ct. 2288, 147
L.Ed.2d 352 [2000]). Critical to the analysis in this
appeal, “when two separate remedies are brought to
bear on the same activity, a conflict is imminent”
(Garner v. Teamsters, Chauffeurs & Helpers Local
Union No. 776 [A.F.L.], 346 U.S. 485, 498–499, 74
S.Ct. 161, 98 L.Ed. 228 [1953]).
Under its federal constitutional power to establish
“uniform Laws on the subject of Bankruptcies
through the United States,” Congress enacted the
Bankruptcy Code (U.S. Const, art I, § 8, cl 4; accord
Kunzler v. Kohaus, 5 Hill 317, 324 [1842] [“The subBecause I conclude that conflict preemption applies here, I
have no occasion to opine on defendants’ field preemption argument. To the extent that the majority suggests that defendants
are subject to a heavier burden to show preemption because
state common law remedies are at issue (see majority op. at ––––
[“defendants have failed to meet their heavy burden of establishing that federal bankruptcy law preempts plaintiff’s tortious
interference claims that are based on pre-petition conduct and
asserted against non-debtor defendants”] ), I need not reach the
issue. The question is whether Congress intended for the Code’s
remedial scheme to preempt plaintiff’s claims given the nature
of the claims, not the theory of liability in which they sound.
4

38a
ject in respect to which uniform laws are authorized,
is bankruptcy throughout the United States (and) the
power conferred is without restriction, save in its uniformity”] ). The Bankruptcy Code “provides a comprehensive federal system of penalties and protections to govern the orderly conduct of debtors’ affairs
and creditors’ rights” (Eastern Equip. & Servs. Corp.
v. Factory Point Nat. Bank, Bennington, 236 F.3d
117, 120 [2d Cir.2001], citing 11 USC § 101 et seq.).
The Code provides a detailed procedure “by which
[an] ... insolvent debtor[ ] can reorder their affairs”
and “make peace with their creditors” (Grogan v.
Garner, 498 U.S. 279, 286, 111 S.Ct. 654, 112 L.Ed.2d
755 [1991] [citation omitted] ). It accomplishes this by
enabling the continued operation of the subject estate
through restructuring (N.L.R.B. v. Bildisco & Bildisco, 465 U.S. 513, 550, 104 S.Ct. 1188, 79 L.Ed.2d 482
[1984]) and the “equitable distribution of the bankrupt’s estate” (United States v. Embassy Rest., Inc.,
359 U.S. 29, 31, 79 S.Ct. 554, 3 L.Ed.2d 601 [1959]). A
good faith standard applies to bankruptcy petitions,
which “furthers the balancing process between the
interests of debtors and creditors which characterizes
so many provisions of the bankruptcy laws and is
necessary to legitimize the delay and costs imposed
upon parties to a bankruptcy” (In re C–TC 9th Ave.
Partnership, 113 F.3d 1304, 1310 [2d Cir.1997], quoting Little Creek Dev. Co. v. Commonwealth Mortgage
Corp. [In re Little Creek Dev. Co.], 779 F.2d 1068,
1071 [5th Cir.1986]).
To ensure the proper functioning of the bankruptcy
system, Congress has provided remedies to prevent
bad-faith filings and actions intended to misuse the
bankruptcy process. “[S]uch misuse is governed exclusively by [the Bankruptcy] Code” (Astor Holdings,
325 F. Supp. 2d at 262). These remedies include,

39a
among other things, granting relief from the automatic stay upon a showing that a petition is part of “a
scheme to delay, hinder, or defraud creditors that involved either [ ] transfer of all or part ownership of,
or other interest in, [single asset real estate] without
the consent of the secured creditor or court approval”
(11 USC § 362[d][1] ). A creditor may also seek to
have the bankruptcy proceeding dismissed or have
the proceeding converted to a proceeding under chapter 7 of the Bankruptcy Code (11 USC § 1112[b] ). 5
Under Rule 9011 of the Federal Rules of Bankruptcy
Procedure, the court may impose sanctions against
parties, attorneys or law firms that have filed a petition “for any improper purpose, such as to harass or
to cause unnecessary delay or needless increase in
the cost of litigation” (Fed R Bankr P 9011[b][1]; see
also Midland Funding, LLC v. Johnson, ––– U.S. –––
–, 137 S. Ct. 1407, 1419 n. 5, 197 L.Ed.2d 790 [2017,
The Second Circuit Court of Appeals has recognized the following non-exhaustive list of indicia of bad-faith conduct:
5

“(1) the debtor has only one asset; (2) the debtor has few unsecured creditors whose claims are small in relation to those
of the secured creditors; (3) the debtor’s one asset is the subject of a foreclosure action as a result of arrearages or default on the debt; (4) the debtor’s financial condition is, in
essence, a two party dispute between the debtor and secured creditors which can be resolved in the pending state
foreclosure action; (5) the timing of the debtor’s filing evidences an intent to delay or frustrate the legitimate efforts
of the debtor’s secured creditors to enforce their rights; (6)
the debtor has little or no cash flow; (7) the debtor can’t
meet current expenses including the payment of personal
property and real estate taxes; and (8) the debtor has no
employees” (In re MBM Entertainment, LLC, 531 B.R. 363,
408 [Bankr. S.D. N.Y.2015], quoting In re C–TC 9th Ave.
Partnership, 113 F.3d at 1311; see also 9A Am Jur 2d Bankruptcy § 911).

40a
Sotomayor, J., dissenting] [noting that Rule 9011 of
the Federal Rules of Bankruptcy Procedure “authorize[s] a court to impose sanctions on parties who willfully file meritless claims”). Chapter 11 bankruptcy
aims to “permit[ ] business debtors to reorganize and
restructure their debts in order to revive the debtors’
businesses” and “maximiz[e] the value of the bankruptcy estate” (Toibb v. Radloff, 501 U.S. 157, 163,
111 S.Ct. 2197, 115 L.Ed.2d 145 [1991]), but the
Bankruptcy Code’s remedial framework evinces Congress’ clear and manifest interest to protect the proper “adjudication of the rights and duties of creditors”
under the Code (Davis v. Yageo Corp., 481 F.3d 661,
679 [9th Cir.2007] [emphasis added] ).
The majority of courts to address the issue have
concluded that state regulations, including tort actions, that conflict with this carefully designed federal statutory framework or obstructs its purpose are
preempted (see e.g. Metcalf v. Fitzgerald, 333 Conn. 1,
214 A.3d 361, 379 [2019]; PNH, Inc. v. Alfa Laval
Flow, Inc., 130 Ohio St.3d 278, 958 N.E.2d 120, 126
[2011]; Stone Crushed Partnership v. Kassab Archbold Jackson & O’Brien, 589 Pa. 296, 908 A.2d 875,
886 [2006]; Glannon v. Garrett & Assocs., Inc., 261
B.R. 259, 265 [D. Kan. 2001]; Pertuso v. Ford Motor
Credit Co., 233 F.3d 417, 426 [6th Cir.2000]; Koffman
v. Osteoimplant Tech., Inc., 182 B.R. 115, 127 [D. Md.
1995]).
The Second Circuit has explained that,
“(1) Congress placed bankruptcy jurisdiction
exclusively in the district courts under 28
U.S.C. § 1334(a); (2) Congress created a
lengthy, complex and detailed Bankruptcy
Code to achieve uniformity; (3) the Constitution grants Congress exclusive power over the
bankruptcy law; (4) the Bankruptcy Code es-

41a
tablishes several remedies designed to preclude the misuse of the bankruptcy process;
and (5) the mere threat of state tort actions
could prevent individuals from exercising their
rights in bankruptcy, thereby disrupting the
bankruptcy process (Eastern Equip., 236 F.3d
at 121 [internal citation omitted], citing MSR
Expl., Ltd. v. Meridian Oil, Inc., 74 F.3d 910,
913–916 [9th Cir.1996]).
Remedies for bad-faith-filings and misuse of bankruptcy are well-covered terrain under the Code. Accordingly, the propriety of a bankruptcy filing is solely within the jurisdiction of the bankruptcy court because “no authorized proceeding in bankruptcy can be
questioned in a state court or used as the basis for
the assertion of a tort claim in state court against any
defendant” (Astor Holdings, 325 F. Supp. 2d at 262,
quoting Choy v. Redland Ins. Co., 103 Cal. App. 4th
789, 800, 127 Cal. Rptr. 2d 94, 102 [Cal. Ct. App.
2002] [emphasis in original] ).
B.
Elements of Common Law Tortious Interference with
Contract
The substantive law of tortious interference with
contract is also central to the analysis in this appeal.
The common law elements of tortious interference
with contract are “the existence of a valid contract
between the plaintiff and a third party, defendant’s
knowledge of that contract, defendant’s intentional
procurement of the third-party’s breach of the contract without justification, actual breach of the contract, and damages resulting therefrom” (Lama Holding Co. v. Smith Barney, 88 N.Y.2d 413, 424, 646
N.Y.S.2d 76, 668 N.E.2d 1370 [1996]; see also Oddo
Asset Mgt. v. Barclays Bank PLC, 19 N.Y.3d 584, 594,

42a
950 N.Y.S.2d 325, 973 N.E.2d 735 [2012]). Damages
are an essential element of the tort (Kronos, Inc. v.
AVX Corp., 81 N.Y.2d 90, 94, 595 N.Y.S.2d 931, 612
N.E.2d 289 [1993]). Another keystone is the requirement that the conduct is “without justification,”
which “draw[s] its substance from the circumstances
of the particular situation at hand” (Guard–Life Corp.
v. Parker Hardware Mfg. Corp., 50 N.Y.2d 183, 190,
428 N.Y.S.2d 628, 406 N.E.2d 445 [1980]).
Our Court has observed that,
“(t)he issue in each case is whether the interference is improper or not under the circumstances; whether, upon a consideration of the
relative significance of the factors involved,
the conduct should be permitted without liability, despite its effect of harm to another. The
decision therefore depends upon a judgment
and choice of values in each situation” (id.,
quoting Restatement [Second] of Torts § 767,
Comment b; accord NBT Bancorp v.
Fleet/Norstar Fin. Grp., 87 N.Y.2d 614, 621,
641 N.Y.S.2d 581, 664 N.E.2d 492 [1996]
[“(T)he degree of protection available to a
plaintiff for a competitor’s tortious interference with contract is defined by the nature of
the plaintiff’s enforceable legal rights”] ).
Factors to be considered by the court are (a) “the
nature of the conduct of the [party] who interferes (a
chief factor in determining whether conduct is improper)” and that party’s motive, (b) the interests
sought to be advanced by the interfering party, (c) the
broader social interests in protecting the “freedom of
action” for the interfering party and the contractual
interests of the party being interfered with, and (d)
proximity to the interference of the conduct complained of (Guard–Life Corp., 50 N.Y.2d at 190, 428

43a
N.Y.S.2d 628, 406 N.E.2d 445). The interests of the
party with whom the actor’s conduct interferes, and
the relationship between the parties are also relevant
factors (id.). 6
III.
As noted, plaintiff’s state common law claims are
for damages incurred due to the delay caused by the
bankruptcy proceeding, occasioned by the filing,
which triggered the automatic stay, as well as the
change in the Mortgage Borrower’s status from a special purpose bankruptcy remote entity to a holder of
multiple assets. Plaintiff seeks compensatory damages, which, assuming plaintiff prevails, would require
the court to calculate the loss flowing from the automatic stay and any additional delay caused by the
status change. The court must also determine whether defendants improperly induced debtors to breach
their contractual obligations, which would require the
court to opine on the legitimacy of the debtors’ bankruptcy proceedings and defendants’ interest and role
in facilitating debtors’ filings. The court must also inquire into the causal relationship between plaintiff’s
damages and defendants’ alleged tortious conduct,
which turns in large part on the propriety of borrowers’ bankruptcy proceedings.
The majority correctly expounds on the law and
explains “that, where a tort claim is premised upon
the bankruptcy filing, itself, or conduct that occurs
I need not address whether the majority’s assertion that a
claim of tortious interference with contract is a historic example
of our state’s regulation of public health and safety (majority op.
at ––––), because for purposes of preemption, the dispositive
question remains whether Congress intended to preempt the
state’s regulation of the subject matter at issue.

6

44a
within the bankruptcy proceeding and under the purview of the Bankruptcy Court, the obstacle presented
by state tort remedies is more readily discerned. Parallel tort actions in state court against a debtor or
creditor based on that party’s alleged wrongful conduct in a bankruptcy proceeding risks subverting the
Bankruptcy Court’s authority to adjudicate the validity of bankruptcy filings, or otherwise producing inconsistent standards or outcomes between state and
federal law” (majority op. at ––––). But then the majority reaches the unfounded conclusion that plaintiff’s case does “not impugn[ ] the bankruptcy process”
(id.). It is as if the majority read a different complaint
than the one filed by plaintiff in Supreme Court
wherein it alleged repeatedly that the bankruptcy
was commenced for an improper purpose, at the behest and for the benefit of defendants, and that defendants’ conduct was willful and improper. The only
way to read these allegations is that plaintiff “cast
doubt upon,” “call[ed] into question,” and roundly
“dispute[d] the truth, validity or honesty of” the
bankruptcy proceeding, which, by definition, means
plaintiff impugned the bankruptcy action (impugn,
New Oxford American Dictionary [3d ed 2010]; impugn, Black’s Law Dictionary [11th ed 2019]; impugn,
Merriam Webster’s Collegiate Dictionary 585 [10th
ed 1993] ).
Although, as the majority argues, a plaintiff may
recover damages for tortious interference with contract even if the defendant “w[as] engaged in lawful
behavior” (majority op. at ––––, quoting NBT Bancorp, 87 N.Y.2d at 621, 641 N.Y.S.2d 581, 664 N.E.2d
492), nonetheless, under our law the allegedly tortious conduct must be “improper under the circumstances” (Guard–Life Corp., 50 N.Y.2d at 190, 428
N.Y.S.2d 628, 406 N.E.2d 445 [emphasis added] ).

45a
The majority ignores our observation in Guard–Life
Corp. that whether a defendant’s conduct is tortious
is necessarily particularized (id.). Here, plaintiff alleged that borrowers and defendants acted pursuant
to a scheme to disadvantage plaintiff as creditor by
filing for bankruptcy. If true, at a minimum, this constitutes improper conduct intended to achieve defendants’ own ends by use of a surrogate with equally
bad intentions and with the common goal to injure
plaintiff.
Thus, contrary to the majority view, the state court
is caused to invade the precinct of bankruptcy law to
determine the merits of plaintiff’s claim of tortious
interference with contract. But federal courts have
exclusive jurisdiction over that determination (see
Gonzales v. Parks, 830 F.2d 1033, 1035 [9th Cir.1987]
[stating that, allowing state courts to determine
whether a claim for relief under federal law is of merit “would be inconsistent with and subvert the exclusive jurisdiction of the federal courts by allowing
state courts to create their own standards as to when
persons may properly seek relief in cases Congress
has specifically precluded those courts from adjudicating”] ).
In Choy v. Redland Insurance Co., 103 Cal. App.
4th 789, 127 Cal.Rptr.2d 94 [2002], the plaintiff
brought a state court action against an insurance
company and associated defendants. The plaintiff alleged that the defendants encouraged the insured to
petition for bankruptcy for the “real purpose” of “frustrat[ing]” the plaintiff’s “ability to seek and obtain a
judgment against [the insured]” in excess of defendant insurer’s policy limit (id. at 794, 127 Cal Rptr 2d
94). The claims were preempted because the “gist” of
the plaintiff’s complaint was the defendants’ “misuse[
][of] the bankruptcy process” and state court reme-

46a
dies cannot serve as a vehicle to “circumvent well established federal rules relating to redress” for such
misuses (id. at 802, 127 Cal Rptr 2d 94). Although
bankruptcy law references state law, “the adjustment
of rights and duties within the bankruptcy process
itself is uniquely and exclusively federal” (id. at 797,
127 Cal Rptr 2d 94, quoting MSR Expl., 74 F.3d at
914 [alteration omitted] ). The “superimposition” of
tort remedies “on the many activities that might be
undertaken in the management of the bankruptcy
process” would lend to intolerable exposure to claims
of malicious prosecution (Choy, 103 Cal. App. 4th at
798, 127 Cal.Rptr.2d 94).
As recognized in Choy,
“the highly complex laws needed to constitute
the bankruptcy courts and regulate the rights
of debtors and creditors also underscore the
need to jealously guard the bankruptcy process from even slight incursions and disruptions brought about by state malicious prosecution actions. To put it another way, the
problem here is not only one of state courts deciding issues of federal law in one manner or
another. That is not an entirely unique situation, even when uniformity is required. The
difficulty here goes much deeper. It is a question of state courts, in effect, interfering with
the whole complex, reticulated bankruptcy
process itself” (id. at 797–798, 127 Cal Rptr 2d
94 [internal citation omitted] ).
As in Choy, if plaintiff incurred damages because of
borrowers’ improper bankruptcy filings, it was for the
bankruptcy court to address those claims, not a state
court (id. at 801, 127 Cal Rptr 2d 94).
Plaintiff here has made no claim—as it could not—

47a
that its only remedy for its damages lies in state
court because “the ‘authorized proceeding’ in bankruptcy was not only exclusive, it was adequate” (id.;
see supra Part II.A). Plaintiff’s choice to forego the
remedies in the forum available to it under the Bankruptcy Code does not open the door to our courts.
The Ninth Circuit in Gonzales has explained that,
“Congress’ authorization of certain sanctions
for the filing of frivolous bankruptcy petitions
should be read as an implicit rejection of other
penalties, including the kind of substantial
damage awards that might be available in
state court tort suits. Even the mere possibility of being sued in tort in state court could in
some instances deter persons from exercising
their rights in bankruptcy. In any event, it is
for Congress and the federal courts, not the
state courts, to decide what incentives and
penalties are appropriate for use in connection
with the bankruptcy process and when those
incentives or penalties shall be utilized”
(Gonzales, 830 F.2d at 1036).
In Gonzales, the court determined that permitting
state court tort claims against a bankruptcy attorney
“based on the filing of a bankruptcy petition,” would
distort exclusive federal jurisdiction in “much the
same manner” as allowing tort damages against
debtors (id. at 1036–1037).
Similarly, in MSR Exploration, the Ninth Circuit
underscored the significance of the Bankruptcy
Code’s preemptive effect on state law remedies. The
court explained that “[d]ebtors’ petitions, creditors’
claims, disputes over reorganization plans, disputes
over discharge, and innumerable other proceedings”—
all the business of the bankruptcy courts—would

48a
“lend themselves to claims of malicious prosecution.
Those possibilities might gravely affect the already
complicated processes of the bankruptcy court” (74
F.3d at 914 [emphasis added] ). The complaint filed
by the debtors in MSR Exploration “self-consciously”
sought damages for a claim allegedly maliciously filed
and pursued during the plaintiffs’ Chapter 11 bankruptcy proceeding, and the court understood that “the
opportunities for asserting malicious prosecution
claims,” much like here, are “only limited by the fertility of the pleader’s mind and by the laws of the
state in which the proceeding took place” (id.).
Plaintiff’s case here is indistinguishable in any
meaningful way from Astor Holdings. In Astor Holdings, Second Circuit Judge Lynch, then a districtcourt judge sitting in the Southern District of New
York, dismissed as preempted several tort claims that
required the court to opine on whether the defendant
filed bankruptcy documents in bad faith or for an improper purpose (325 F. Supp. 2d at 262). The plaintiff
sponsor of robotic combat events, Astor Holdings,
sued defendant Roski, a robot builder, and his promotional company, alleging that these nondebtors had,
among other claims, tortiously interfered with contractual agreements between plaintiff and its joint
venture partner, Thorpe. The plaintiff averred that
Roski had assisted Thorpe in acquiring bankruptcy
counsel, and it was counsel that suggested that
Thorpe file for bankruptcy. Counsel advised Thorpe
that bankruptcy could serve dual purposes of “reconfigure[ing]” his debt and “freeing him of his obligations” under the contractual agreements at issue (id.
at 257). The plaintiff’s complaint alleged that filing
for bankruptcy was an effort to “divest [plaintiff] of
its interest in the [subject] business” (id. at 260).
Closer inspection of Astor Holdings’ complaint

49a
demonstrates further similarities with the state
claims asserted here. Astor Holdings also alleged that
Roski’s attorneys arranged for Thorpe to borrow
$150,000 from the defendant “for the sole and express
purpose of enabling Thorpe to file a bankruptcy petition. [Roski’s] loan, which was secured by Thorpe’s
interest in the Venture, was used to pay a retainer to
the bankruptcy counsel that [the defendant] picked
for Thorpe.” Astor Holdings contended that Roski and
his attorneys, “who had formulated the strategy
Thorpe and his bankruptcy counsel pursued” succeeded in “paralyzing Robot Wars and preventing the
Venture from making any new deals.”
Citing the Bankruptcy Code’s remedies for abuse
of process, the court held that “misuse of the [bankruptcy] process” is governed exclusively by the Bankruptcy Code (id. at 262). Notably, relying on Choy,
the court rejected an argument advanced by plaintiff
here, and adopted by the majority, to expound that
defendants’ nondebtor status was “a distinction without a difference,” reasoning that preemption “implies”
that a claim for which the Bankruptcy Code provides
a remedy “cannot be the subject of regulation by state
statutory or common-law remedies” (id.). Further, the
court explained, any assertion that Thorpe petitioned
for bankruptcy or filed certain papers in bad faith or
for an improper purpose would be measured by state
law, and therefore would be barred (id. at 263). Just
so here, where plaintiff alleges that borrowers’ bankruptcy petitions were filed for an improper purpose:
to prevent plaintiff from exercising its contractual
remedies by means of the foreclosure sale.
The majority unpersuasively attempts to distinguish Choy and Astor Holdings. The courts in those
cases explained that the underlying nature of the
claims is what matters in the preemption analysis.

50a
For example, in Choy, “(t)he real purpose” of causing
the non-party debtor to petition for bankruptcy “was
to frustrate [the plaintiff’s] ability to seek and obtain
a judgment against [the debtor]” (103 Cal. App. 4th at
794, 127 Cal.Rptr.2d 94). The bankruptcy filing was
“on the initiative” of the defendant, who paid the necessary filing fees, so that the defendant could “avoid
liability” for its bad-faith conduct in rejecting the
plaintiff’s earlier offers to settle an insurance dispute
(id.). In Astor Holdings, Roski’s attorney “suggested
that Thorpe file for bankruptcy” because the Venture
Agreement was purportedly “onerous,” “obscene,” and
“unconscionable” (325 F. Supp. 2d at 257). The attorney also suggested to Thorpe that bankruptcy could
serve the dual goal of “reconfigur[ing]” Thorpe’s debt
and “freeing him of his obligations under the Venture
Agreement” (id.). 7 Here, plaintiff alleges breaches of
contract, but its complaint is with the actions taken
in bankruptcy. As I have noted (see supra Section
I.B), for purposes of preemption, what matters is not
the source of the allegedly tortious conduct but that
the damages flow from the bankruptcy proceedings.
Indeed, the function of the doctrine is to preempt a
litigant’s “ability collaterally to attack bankruptcy petitions in the state courts,” lest a patchwork “of laws
The majority correctly notes that in Astor the District Court
did not dismiss the plaintiff’s claim that the defendant had tortuously interfered with a bankruptcy settlement (majority op. at
–––– n. 8) but fails to explain its relevance. The plaintiff alleged
that Roski “set out to undermine the bankruptcy settlement,
and Robot Wars itself, by causing Thorpe to renege on the promise to ‘promote’ Robot Wars” (Astor Holdings, 325 F. Supp. 2d at
269), which, unlike here, plainly does not implicate either the
plaintiff’s or debtor’s status in the subject bankruptcy proceeding or the administration of the debtor’s estate. And, of course,
state courts are authorized to enforce settlement agreements.
7

51a
of the state in which the proceeding took place” and
“the fertility of the pleader’s mind” “threaten the uniformity of federal bankruptcy law, a uniformity required by the Constitution” (Choy, 103 Cal. App. 4th
at 798, 127 Cal.Rptr.2d 94, citing U.S. Const, art I, §
8, cl 4).
The majority’s reliance on Davis is no more availing. In Davis, the basis of the plaintiff minority
shareholders’ claim of breach of fiduciary duty was
grounded in their allegation that defendants caused
the corporation to petition for bankruptcy without
“considering other alternatives that may have yielded
greater value for the corporation and its shareholders” (481 F.3d at 665). In other words, defendants’ alleged tortious act was their failure to represent the
best interests of plaintiffs by presenting bankruptcy
as one option among others. Thus, “plaintiffs’ breach
of fiduciary duty claims [were] not based on ‘activities
that might be undertaken in the management of the
bankruptcy process,’ ” (id. at 679–680, quoting MSR
Expl., 74 F.3d at 914). In contrast, the damages here
flow solely from defendants’ facilitation of borrowers’
bankruptcies and the additional attendant delay related to administration of that process, which, according to plaintiff, would not have occurred but for defendants’ alleged inducement of borrowers’ contractual breaches. 8
The majority claims that my analysis compels preemption in
cases where “some fact questions might overlap with bankruptcy
proceedings” (majority op. at ––––). As I explain, the preemption
analysis requires careful scrutiny of the substantive nature of
the claim, and its potential disruptive impact on the bankruptcy
system by, as here, avoiding the remedial framework of the
Bankruptcy Code. Unlike the majority I do not ignore plaintiff’s
allegations and the leitmotif of its complaint that defendants

8

52a
Davis illustrates that the ultimate legal conclusion
turns on whether there has been misuse of the bankruptcy system. In Davis, the majority shareholders
made no allegation that defendants had abused the
bankruptcy system but instead argued that the defendants had a duty to weigh different options to
yield the greatest value in the company’s shares. In
contrast, plaintiff’s claim here is that defendants, acting in concert with borrowers, took advantage of “the
adjustment of rights and duties within the bankruptcy process” to upset plaintiff’s status as a first-tier
creditor in borrowers’ bankruptcy proceedings (Choy,
103 Cal. App. 4th at 797, 127 Cal.Rptr.2d 94, quoting
MSR Expl., 74 F.3d at 914).
In finding no preemption here, the majority relies
on the premise that the plaintiff’s claims “do not implicate debtor-creditor disputes relating to the bankruptcy estate” (majority op. at ––––). To the contrary,
if plaintiff’s claims are credited, the purpose of the
bankruptcy filings was solely to delay plaintiff’s recovery of its collateral. In fact, plaintiff initially argued to the bankruptcy court that the filing was in
bad faith. However, it withdrew its motion and instead supported the reorganization plan. In doing so,
plaintiff chose to forgo its remedy for the borrowers’
alleged misuse of bankruptcy law and the bankruptcy
system. Plaintiff cannot now seek to have a state
court decide whether the damages were caused by delay from the improper bankruptcy filings. To permit
such action would interfere with and undermine the
uniform remedies enacted by Congress in the Bankruptcy Code.
and borrowers labored towards one end—filing bankruptcy to
undercut plaintiff in its position as borrowers’ secured creditor.

53a
The majority’s other argument that plaintiff’s state
claims are not preempted because the defendants are
nondebtors and their alleged actions occurred prior to
the bankruptcy, is no more persuasive. First, the
preemption analysis does not turn on whether the defendants are nondebtors, but rather on the fact that
the Code is written to address the impact of the alleged scheme on the bankruptcy proceeding (see Astor
Holdings, 325 F. Supp. 2d at 262; Gonzales, 830 F.2d
at 1035). In other words, the issue is plaintiff’s “interfer[ence] with the whole complex reticulated bankruptcy process itself” by its choice to shop forums and
forego the remedial mechanisms exclusive to the
bankruptcy court and gamble on a state remedy instead (Choy, 103 Cal. App. 4th at 798, 127
Cal.Rptr.2d 94).
Moreover, plaintiff was a creditor in the bankruptcy proceedings when it simultaneously filed these
state claims and relied on those federal proceedings
to support its allegations that defendants’ scheme
undercut its creditor status. The majority’s view that
there is an insufficient connection is simply belied by
the plaintiff’s narrative of the interdependent actions
of defendants and borrowers.
Second, the conduct alleged here was to facilitate
the bankruptcies, so the fact that acts were taken
prefiling is unsurprising. For example, a debtor who,
before filing, secures a loan to pay the bankruptcy filing fee or acquires property to undercut a creditor’s
remedies—as plaintiff asserts happened here—would
be relevant to the bankruptcy court’s assessment of
the motives of the debtor (cf. National Hockey League
v. Moyes, No. CV-10-01036-PHX-GMS, 2015 WL
7008213, at *6 [D. Ariz. Nov. 12, 2015] [rejecting the
plaintiff’s argument that its tort claims are not
preempted because the claims comprise pre-filing

54a
conduct on the ground that, when an injury “might
never occur, and thus plaintiff’s claim would not accrue ... until after the company files its bankruptcy
petition, and accrual of the claim depends on what
happens in the Bankruptcy Court, the potential future claim would interfere sufficiently with the bankruptcy process to trigger preemption”] [citation omitted] ). As this example illustrates, for preemption
purposes there is no analytically sound basis to distinguish between preparatory actions that make possible the bankruptcy filing. The latter cannot occur
without the former—indeed that is plaintiff’s core argument in support of its claims, i.e., but for defendants having loaned money to borrowers to finance the
bankruptcy filings and defendants’ transfer of the
apartments that transformed Mortgage Borrower
from a special purpose bankruptcy remote entity,
there would be no automatic stay and delay of the
foreclosure sale, which is what plaintiff alleges
caused its losses.
Contrary to the majority’s characterization of
plaintiff’s claims, the state lawsuit is an attempt to
avoid the remedies of the Bankruptcy Code. Indeed,
plaintiff filed a motion to dismiss Mezz Borrower’s
bankruptcy petition, which it withdrew after the
court indicated that it was premature because, were
the court to afford plaintiff relief at that early stage,
it would have had to adopt the view based on plaintiff’s disputed assertions that the proceeding was a
two-party dispute with no additional creditors. Such
a view would require the court to have disregarded
the existence and appointment of the committee of
unsecured creditors, and that was “asking a lot of
[that] early stage of the case.” Rather than pursue
remedies under the Bankruptcy Code for the alleged
misuse of the bankruptcy system by refiling its mo-

55a
tion at the appropriate time and pursuing sanctions,
plaintiff seeks to have our state courts decide that defendants’ actions were for an improper purpose,
caused plaintiff damages, and therefore warrant
compensation to plaintiff. But the Bankruptcy Code
provides the exclusive remedies for these alleged injuries. As amicus curiae Melanie L. Cyganowski, former Chief Judge of the United States Bankruptcy
Court for the Eastern District of New York, explains,
“[t]he only significance of [d]efendants’ allegedly tortious conduct is that it facilitated or affected the nature of, the [b]ankruptcies. The damages [p]laintiff
claims to have sustained all resulted from [d]ebtors’
bankruptcy filings” (see brief for amicus curiae Melanie L. Cyganowski at 6). And as amicus curiae details, the Bankruptcy Code afforded plaintiff various
remedies for that alleged tortious conduct.
The Bankruptcy Code’s remedial scheme includes
a set of “comprehensive and purposeful procedures
designed to achieve uniformity, fairness and efficiency in the administration of bankruptcy cases” (id. at
2). The only remedy plaintiff chose to pursue was the
credit-bid for debtors’ assets under 11 USC § 363(k),
which allowed it to purchase the property at an auction sale, almost one month after filing the underlying tort claims in state court. The United States Supreme Court has explained that “[t]he ability to credit-bid helps to protect a creditor against the risk that
its collateral will be sold at a depressed price. It enables the creditor to purchase the collateral for what it
considers the fair market price (up to the amount of
its security interest) without committing additional
cash to protect the loan” (RadLAX Gateway Hotel,
LLC v. Amalgamated Bank, 566 U.S. 639, 644, 132

56a
S.Ct. 2065, 182 L.Ed.2d 967 [2012]). 9 Thus, plaintiff
simultaneously invoked remedies from federal and
state courts to address damages flowing from the
bankruptcy filings—exactly the type of dual proceedings Congress sought to preempt. 10
Apart from incorrectly approving state litigation of
issues that fall squarely within the exclusive jurisdiction of the bankruptcy court, the majority’s decision
will affect debtor access to bankruptcy remedies and
the “fresh start” allowed by Congress. The fear of
state litigation may disincentivize lawyers and potenAs amicus curiae notes, had Mortgage Borrower been a “single
asset real estate” debtor, at most the earliest date upon which
plaintiff could have obtained relief from the automatic stay under 11 USC § 362(d)(3) would have been on July 5, 2016 (Cyganowski brief at 13 n 4). Plaintiff purchased the property under
its winning credit-bid on December 13, 2016, meaning that
Mortgage Borrower’s changed status as a “single asset real estate” debtor resulted, at most, in a delay of approximately six
months (id.).
9

10
The majority makes the remarkable assertion that “defendants do not claim that any remedy was available to plaintiff in
the bankruptcy proceedings to compensate plaintiff for defendants’ alleged wrongdoing” (majority op. at ––––). Defendants
have described several remedies plaintiff could have sought during the bankruptcy proceedings to prevent, mitigate, or recoup
the alleged damages plaintiff requests in state court, remedies
further detailed by amicus curiae former Chief Judge Cyganowski. For example, plaintiff could have moved to dismiss
the bankruptcy cases on the ground that they were filed in bad
faith (see 11 USC § 1112[b]), moved to lift the automatic stay
(see 11 USC 362), or sought sanctions for filing a meritless claim
(see Fed R Bankr P 9011). Had plaintiff pursued its initial motion and succeeded, there might well be no injury to remedy.
Further, the majority has failed to identify, because it cannot,
what would be plaintiff’s damages were borrowers not to have
filed for bankruptcy.

57a
tial secondary lenders from assisting debtors who
wish to file for bankruptcy but need legal counsel and
financial assistance to do so, impacting those with the
little to no resources and a low credit rating (see brief
for amicus curiae Legal Services NYC Bankruptcy
Assistance Project, for defendants-respondents, at 6–
8; brief for amicus curiae Bullard Group at 15–16; see
also Alana Abramson, “People are Very Scared.” Why
Small Businesses Hit by Coronavirus Are Struggling
to Get Emergency Loans [Apr. 9, 2020, 3:41 PM] [explaining that “(i)t may be the companies most in need
of assistance” during the coronavirus pandemic that
“are the companies that don’t have a current banking
relationship”]; Paul Kiel, What Happens When You
Can’t Afford to Go Bankrupt, Washington Post [Mar.
2, 2018, 3:28 PM] [“Scores of people considering
bankruptcy told me the same thing again and again:
if they had $1,000 to pay an attorney, then they
probably wouldn’t need to file (for bankruptcy) in the
first place”]; David Skeel, Bankruptcy and the Coronavirus 5, Brooklings [2020] [“The costs of bankruptcy for small and medium-sized businesses are substantial—often 30% of the value of the business—and
two-thirds are liquidated rather than reorganizing”];
Chrystin Ondersma, Small Debts: Big Burdens, 103
Minn L Rev 2211, 2233 [2019] [“Although purportedly
designed to keep out high-income debtors, the effect
of the 2005 amendments (to the Bankruptcy Code)
has been to reduce access for the poorest debtors who
cannot afford the increased fees and who have difficulty navigating the complex technical rules without
attorneys”] ). The majority opines that state claims
against attorneys and debt counseling entities are
likely to fail (majority op. at ––––). And yet this is the
first time our Court has addressed the viability of a
claim for tortious interference with contract against a
nondebtor. It remains to be seen as to what other

58a
parties shall be subject to the ruling here, notwithstanding the majority’s speculative “optimism” about
the narrow class of defendants who will be dragged
into state court by litigious lenders.
IV.
According to the majority, plaintiff’s state claims
for tortious interference with contract against defendants “are peripheral to, and do not impugn, the
bankruptcy process” (majority op. at ––––). That conclusion will come as a surprise to defendants who
plaintiff alleges were parties to a “scheme” that depended on and succeeded only by virtue of borrowers’
bankruptcy filings. It is also contrary to Congressional intent in enacting our reticulated Bankruptcy Code
with remedies for a party aggrieved by the type of
manipulation of the bankruptcy system alleged by
plaintiff in its state action. And I do not anticipate it
will be well-received by the bankruptcy courts, which
have exclusive jurisdiction over bankruptcy filings
and sole authority to determine whether a bankruptcy petition is filed in bad faith.
Notably, this plaintiff recovered $86 million as a
creditor in the bankruptcy proceeding, achieved its
goal of purchasing the property from one of the borrowers, and obtained a $24 million judgment against
the loan guarantors. Plaintiff obtained everything our
federal and state legal systems allow. Plaintiff’s state
action is merely an attempt to avoid litigating in
bankruptcy court the impact of defendant’s alleged
scheme to manipulate plaintiff’s status as a creditor
of the bankruptcy petitioners. Put another way,
plaintiff’s state action is for damages incurred by the
delay in purchasing the property that resulted from
borrowers filing for bankruptcy. If there’s no bankruptcy filing, there’s no delay, and no damages. Without damages, there is no viable state claim. There is

59a
nothing peripheral about that. The majority plainly
misconstrues the matter when it suggests that “this
is not a situation where state and federal law provide
‘two separate remedies’ for identical grievances” (majority op. at ––––). The voluminous record before us
tells a different story.
In sum, plaintiff’s complaint is “self-consciously
and entirely one which seeks damages for a claim
filed and pursued in the bankruptcy court” (MSR
Expl., 74 F.3d at 912). Plaintiff “allege[s] state law
tort causes of action for damages entirely predicated
upon the filing and prosecution of” the bankruptcy
petitions (In re Miles, 430 F.3d 1083, 1093 [9th
Cir.2005]). Therefore, plaintiff’s claims are preempted
by federal law. I dissent.

60a
APPENDIX B
No. 654917/16
SUPREME COURT OF NEW YORK
APPELLATE DIVISION, FIRST JUDICIAL
DEPARTMENT
SUTTON 58 ASSOCIATES LLC,
Plaintiff-Respondent,
v.
PHILIP PILEVSKY et al.,
Defendants-Appellants.
Entered January 10, 2019
Order, Supreme Court, New York County (Shirley
Werner Kornreich, J.), entered on or about March 8,
2018, which denied defendants’ motion for summary
judgment dismissing the complaint, unanimously reversed, on the law, with costs, and the motion granted. The Clerk is directed to enter judgment accordingly.
Plaintiff’s claims, in which the sole damages plaintiff claims are losses resulting from the delay of a real
estate project due to the bankruptcy filing of two
nonparty entities, are preempted by federal law (see
Astor Holdings, Inc. v Roski, 325 F Supp 2d 251, 262263 [SD NY 2003]). We note that in the bankruptcy
proceedings, plaintiff moved to dismiss Mezz Borrower’s petition as filed in bad faith but voluntarily withdrew that motion. As in National Hockey League v
Moyes (2015 WL 7008213, 2015 US Dist LEXIS
153262 [D Ariz, Nov. 12, 2015, No. CV-10-01036PHX-GMS]), and unlike Davis v Yageo Corp. (481
F3d 661 [9th Cir 2007]), plaintiff’s damages arise only
because of the bankruptcy filings.
In light of the above disposition, we need not reach

61a
the parties’ arguments about the Noerr-Pennington
doctrine and veil-piercing.
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT
ENTERED: JANUARY 10, 2019
/s/
Clerk

62a
APPENDIX C
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY
PART 54
Index No. 654917/2016
SUTTON 58 ASSOCIATES LLC,
Plaintiff,
v.
PILEVSKY, PHILIP, et al.,
Defendants.
[Filed March 8, 2018]
DECISION, ORDER AND TRANSCRIPT OF
ORAL PROCEEDINGS HELD BEFORE THE
HONORABLE SHIRLEY WERNER
KORNREICH, DATED MARCH 6, 2018,
APPEALED FROM, WITH NOTICES OF ENTRY
Upon the foregoing papers, it is ordered that this
motion for summary judgment is denied for the
reasons stated on the record, which shall be e-filed by
movants.
Dated: 3/6/18

/s Shirley Werner Kornreich

63a
TRANSCRIPT
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
CIVIL TERM - PART 54
Index No. 654917/2017 [sic]
SUTTON 58 ASSOCIATES LLC,
Plaintiff,
v.
PHILIP PILEVSKY, MICHAEL PILEVSKY, SETH
PILEVSKY, PRIME ALLIANCE GROUP, LTD.,
and SUTTON OPPORTUNITY LLC,
Defendants.
March 6, 2018
BEFORE: HONORABLE SHIRLEY WERNER
KORNREICH, JUSTICE
***
[2] Proceedings
THE COURT: Good morning.
MR. GREENBERG: Good morning.
MR. HAMERMAN: Good morning.
MR. SCHUMAN: Good morning.
MR. MILLER: Good morning.
MR. GILMORE: Good morning.
THE COURT: You may be seated.
All right. What I have in front now is a summary
judgment motion made by all of the Defendants to
dismiss the complaint. And the complaint basically
alleges one cause of action -- I think one is tortious
interference with contract. One or two.

64a
MR. GREENBERG: It’s two causes of action
because it is against two separate entities, but both -and the individuals.
They are both tortious
interference claims.
THE COURT: I read it yesterday, but my mind is
such a siv. Right. So, it includes two different causes
of actions, but they are both for tortious interference.
Basically, what is raised here is the NoerrPennington defense. That is a major defense in this
case.
I will hear from you, counsel.
MR. SCHUMAN: Your Honor, good morning. Adam
[3] Schuman from Perkins Code for Defendants. With
me are my colleagues Keith Miller and Martin
Gilmore.
Your Honor, Plaintiffs seek to relitigate here their
disappointment about prior bankruptcy, the filing of
bankruptcy -THE COURT: I’m not quite sure that is exactly the
issue. And, I mean, I understand Noerr-Pennington.
I can see where that would be an issue were it the
party who filed for bankruptcy in this case.
You know, this is a really strange case And I
usually lay out the facts and I didn’t. Basically, what
this is -- you can have a seat.
And I should probably lay out the facts. It is always
easier for the court reporter when I do.
What happened here is a land developer decided to
develop a property, three properties I think it was, but
it was several properties on the far East Side around
Sutton Place. And bought up, I guess they were in the
form of townhouses, but smaller buildings and was
going to build a very tall high-rise. They needed a

65a
zoning change in order to do that and got the zoning
change; although, the community was not happy with
it because it was going to be one of those, almost like
one of those sliver buildings that was going to be very
tall.
[4] The developer needed money. It borrowed
approximately, I think it was close to $150 million, if I
recall, from the Plaintiff.
Now, the papers, the loan papers are similar to loan
papers I see all the time And what happened is a
lender who is lending all that much money to an entity
which is really a single purpose entity, and the only
thing the entity has is the land and is going to develop
this land.
And it will often provide that if that entity does go
into bankruptcy or something similar to bankruptcy,
that is an event of default. But they also do put in other
things in the contract which was in this contract as
well. And I say it was about $150 million. But,
typically, there was the mortgage loan, the mezzanine
loan and build-out loan which was very minimal, for
little over a million.
Two major were the mortgage loan and that was
secured by the mortgage, and I’m sure there were UCC
filings, and then there was a mezzanine loan which
was for a lot less perhaps. I think it was for like maybe
one hundred twenty some odd dollars. The mezz loan
was the rest, whatever it was.
But what the contract usually provides is -- this
contract, there was a separate mezzanine loan and a
[5] separate mortgage loan. The mezzanine loan
basically said that -- that the borrower shall not
directly or indirectly create or incur or assume any
indebtedness more than $50,000, except for trade

66a
indebtedness that had to be paid off basically within
30 days because they didn’t want creditors basically.
Also, it provided that for each of the loans, the
borrower would pay their own -- out of their own -liabilities of their own funds and assets.
It also said that, and this is very important, in terms
of the mortgage loan, that the borrower would remain
an entity that just was -- the only business would be
developing the property, owning the property and
developing the property. And so a single purpose
entity. It would not enter into any other business. It
would not do anything else. And that it would be solely
organized for that purpose and wouldn’t engage in
anything else.
And this is important to the lender and that dealt
with the mortgage borrower. There are other things
as to the mezzanine loan. It was also only to be
organized solely for the purpose of acting as member
of the limited liability company that owns the
property. And there are all of those other obligations
in the contract that had nothing really outwardly to do
with [6] the bankruptcy, but would impact on a
bankruptcy filing if there were a bankruptcy, but it
was --- did not have, on its face, anything to do with
the bankruptcy.
So, these were all obligations of the mezzanine
borrower, the mortgage borrower, borrower for the
building, building of the property as well. And,
basically, and even though -- you know, there1s a
subtext here because, number one, if there were no
other creditors, then it’s not likely that there would be
a bankruptcy committee, a trustee, other creditors.
There would not be a bankruptcy.
Further, if it was no other business, only a single
purpose entity, then the Bankruptcy Court would

67a
probably not grant a bankruptcy. It would just not be
a viable bankruptcy action. Basically those were just
parts of the contract.
What happened here, and I’m not even going to
posit on the record why the Defendants in this case,
and the Defendants in this case are all related. It’s
Mr. Philip Pilevsky, who owns a number of entities
which -- some are which -- are named as entities as
Defendants. And that would be, I think it’s Prime
Alliance Group, LTD is his entity.
He also owns Philip International. All of these
entities are related. His two sons, Michael [7]
Pilevsky and Seth Pilevsky, who own Sutton
Opportunity, LLC which is a Delaware LLC, which
was created after the mezzanine bankruptcy, but
before the mortgage borrower went into bankruptcy,
which was the property itself.
And, in any event, what happened here is Philip
Pilevsky, through one of its entities, sent the borrower
$50,000 in order to hire a lawyer, lawyer being his
nephew, in order to file a bankruptcy action.
That $50,000 then became a debt in the bankruptcy
for the mezzanine and the one who filed for
bankruptcy was the lender became a debt for the
mezzanine borrower, which was -- which violated the
contract.
But, be that as it may, the person who arranged all
of this, the original lawyer, was the general counsel for
Philip International, Mr. Pilevsky’s entity, but not
named, an unnamed entity. Plus, in an e-mail or some
note, Mr. Philip Pilevsky said he was sending the
$50,000 on behalf of his son Michael on behalf of
Sutton Opportunity, LLC which was a newly created,
a brand new entity which was -- which became a
partial partner of the borrower and that, again, was

68a
against the contract clauses. They were not allowed to
bring in someone else.
And, on top of all of that, apartments, three [8]
small Queens apartments, which had been sponsor
apartments, I assume, of a co-op that had belonged to
the Pilevskys, but was owned by an entity, another
entity not named, but by Philip Pilevsky, these three
small apartments were transferred to, I think the
mortgage borrower, and so that now there is a breach
because they are in a new business and now all of a
sudden it’s not a single purpose entity.
These are worth a minimal amount of money, but,
but, somehow Philip Pilevsky, one of his entities
transferred these properties, but on behalf of Sutton
and his son so that Sutton could become a member of
the mortgage borrower.
I mean, then the mortgage borrower then files for
bankruptcy also and has all of the creditors and is not
a single purpose entity.
In any event, there were so many breaches of the
contract as a result. And that is the crux of the
complaint.
Let me hear from you.
MR. SCHUMAN: Your Honor, the breach of any
contract provision is only relevant here and only is in
the complaint insofar as it relates to the bankruptcy.
THE COURT: Why?
MR. SCHUMAN: Because -[9] THE COURT: Certainly for the Defendants,
who probably wanted a piece of this development, you
are right. But, if you look at the contract itself, it has
nothing to do with the bankruptcy. It deals only with
the contract.

69a
What you are asking me to do is throw this out,
upend the way contracts are written here in New York
City and upend the whole development industry, land
development industry. Maybe I’m wrong.
MR. SCHUMAN: Respectfully, if you look at the
complaint, Plaintiff’s complaint, if I may, I have a
handout 1 shared with Plaintiffs that summarizes
their own allegations.
THE COURT: This is summary judgment, not a
motion to dismiss.
MR. SCHUMAN: Yes.
It repeatedly alleges underlying the two tortious
interference counts that there was prohibition of filing
for bankruptcy under that contract you cite -THE COURT: Because that would cause a default.
There was prohibition as well as all other prohibitions.
There was also a prohibition to file for bankruptcy,
only in the sense that if they did file for bankruptcy, it
caused a default.
MR. SCHUMAN: Those are -[10] THE COURT: It does not stop them from filing
for bankruptcy, but it causes default,
MR. SCHUMAN:
In connection with the
complaints, allegations of tortious interference, these
provisions cited are only relevant insofar as the
Defendants allegedly caused the breach of those
provisions.
That is relating to the bankruptcy,
reorganization.
Whether it’s a $50,000 loan that hired bankruptcy
counsel or a transfer of three apartments relating to
whether it’s a special purpose vehicle or not, it is only
relevant to the bankruptcy. All of the issues were
serviced, raised in the bankruptcy.

70a
Your Honor, you noted the Noerr Pennington
doctrine. We believe that causes a basis for dismissal
here, but federal preemption, Bankruptcy Court had
the issues before it -THE COURT: I’m not going to comment on the
bankruptcy judge. I have had him in front of me
before. I have made, unfortunately, comments about
him. I will not comment about him again.
Let’s just -- I don’t want to go into what the
bankruptcy judge did or did not do, but he did not
really have this in front of him. This is a totally
separate issue.
[11] MR. SCHUMAN: Your Honor, respectfully,
Plaintiff -- respectfully, Plaintiff had formally
challenged the bankruptcy case filing in Bankruptcy
Court. They filed for a bad faith filing. They cited the
same contract provisions that you cite now in their
motion. This is in -THE COURT: There was no decision on a motion to
dismiss. In fact, Justice Sherwood -- something that
was not brought to the bankruptcy judge’s attention,
had denied a TRO in this case prior to bankruptcy.
MR. SCHUMAN: In the bankruptcy case, Plaintiffs
raised this issue. They raised whether it is a special
purpose vehicle. They raised the issue of transfer of
the three apartments. They ultimately withdrew that
motion and -THE COURT: Right. It was not ultimately
decided. It was not decided.
MR. SCHUMAN: But it was before the Bankruptcy
Court. There was no secret. There was testimony
taken --

71a
THE COURT: As I said, I’m not going to comment
on Judge Lane, okay.
MR. SCHUMAN: Your Honor, we’re not asking you
to comment.
Our point is -[12] THE COURT: He did not --he made no decision
on this. He made -- chose not to make a decision on
this. And, in fact, it was withdrawn. It was not before
him. In that sense, he didn’t rule. He didn’t rule.
MR. SCHUMAN: To the extent these issues were
available, briefed, whether he ruled or not, your
Honor, it is our position that that creates the basis for
federal preemption. We cited multiple cases -- THE COURT: There’s no federal preemption here.
I don’t see it.
MR. SCHUMAN: Your Honor, we would ask -THE COURT: When a judge decides not to rule for
whatever reason, he has not ruled.
MR. SCHUMAN: We’re not asking you to find
collateral estoppel or res judicata, but preemption
when it comes to these issues having already been
surfaced, whether resolved directly or not, had been
surfaced in the bankruptcy case.
That is not
something this Court, respectfully, should be -THE COURT: I don’t have to rule about the
bankruptcy. This case does not involve the bankruptcy
itself. It involves separate contractual agreements
which your clients clearly knew about and were
involved in.
[13] I think, maybe there is -- on this record, there
is a good chance they aided and abetted in these
breaches and were involved in tortious interference.
On this record there is a good chance that is the case,

72a
I don’t know for sure because we have not even done
any discovery. We have to go forward with discovery.
The Plaintiffs have no discovery.
And that is another issue. It’s a little early for
summary judgment. I think there is an interesting
issue of piercing the corporate veil. I think on this
record it appears to be here, but, there is certainly
enough here where all of these different entities were
acting on behalf of each other. It was like one big piggy
bank here.
MR. SCHUMAN: If I may, your Honor, I would like
to revisit the corporate veil issue, but first still on
Noerr-Pennington and preemption. With all respect,
your Honor, I don’t think the contract alleged
violations can be divorced from the bankruptcy.
THE COURT: Why not?
MR. SCHUMAN: Because there is no claim. This is
not the type of case cited by Plaintiffs, American
Mortgage or otherwise, where there is actually a claim,
like a breach of contract claim or a breach of guarantee
claim if there wasn’t a bankruptcy.
[14] Here, the entire lawsuit turns on there having
been a bankruptcy. Nobody is saying we want $50,000
back or there is something regarding the three
properties that was fraudulent or inappropriate.
It’s only relevant insofar as it causes the bankruptcy
allegedly. And if you were to look -THE COURT: Well, that’s why they were put in,
the clauses were put in. But all of their complaints
stem from breaches of these clauses, not from the
bankruptcy, but from breaches of these clauses.
MR. SCHUMAN: Insofar as the breach allegedly,
for example, on the $50,000 funding for bankruptcy

73a
counsel, your Honor, we cite the Baltimore Scrap case
which holds that Noerr-Pennington should apply to -THE COURT: But those cases, all of those cases
dealt with the bankruptcy itself. They were not
dealing with other causes of -- other clauses of the
contract.
MR. SCHUMAN: The clauses, your Honor, this is
the Intervention Energy case, are all relevant only
insofar as they try to restrict the debtor from filing for
bankruptcy. Insofar as they try to do that, then the
debtor files for bankruptcy, that is protected under
Noerr-Pennington.
THE COURT: I don’t think Noerr-Pennington is
[15] that broad.
MR. SCHUMAN: I think if it’s not that broad, it’s
potentially a flood gate.
THE COURT: It is not at all a flood gate. I think
it’s the opposite.
By arguing what you are arguing, I think that, as I
said earlier, would undermine the way business is
dealt with in New York City when it comes to lenders
and developers. It just upends all of these contracts
and the way business has been done for years.
MR. SCHUMAN: Your Honor, we also cite cases as
to whether these provisions are enforceable because
you cannot restrict filing for bankruptcy -THE COURT: This does not restrict filing for
bankruptcy. Nowhere in that contract does it say you
cannot file for bankruptcy. Nowhere. In either
contract.
MR. SCHUMAN: It actually does. It’s actually
cited in the complaint at paragraph 26 as well as 25, 4
and 3.

74a
THE COURT: It says you are in default if you do;
is that what it says?
MR. SCHUMAN: It says -- yes. It talks -THE COURT: Which is not quite the same thing.
MR. SCHUMAN: If you read -- in the context of [16]
the complaint in Plaintiff’s own language repeatedly
they cite $50,000 and the three apartments transfer as
causing the bankruptcy. That is the basis for the
tortious interference.
So, whenever any potential Defendant in the future
is going to possibly lend some money that goes toward
filing of a bankruptcy they are exposed down the road
after the bankruptcy, after the plan is confirmed to
being sued for tortious interference
THE COURT: Are you advocating what your clients
did here as something good, is that what you are
arguing, that this should happen all the time?
MR. SCHUMAN: Your Honor, I’m not -THE COURT: Is that your argument?. That the
Court should look kindly upon what your clients did?
That should happen in every case?
MR. SCHUMAN: I am saying it’s -THE COURT: That that should -MR. SCHUMAN: Respectfully, it’s a slippery slope
if all it takes is a $50,000 loan -- THE COURT: That was hardly all, number one. I
don ‘t think it is a slippery slope at all. I think there
are separate breaches we’re talking about here.
Totally separate breaches that don’t say anything
about bankruptcy in any of those clauses. There is a
number of [17] them. We can ignore the one or two
bankruptcy clauses that bankruptcy would be a

75a
default. Even ignoring that, there are plenty of clauses
in that contract that were breached.
MR. SCHUMAN: Your Honor, this case is not about
the breach. If you look and re-read the complaint
which we ask, respectfully, you do after this argument,
even the preliminary statement repeatedly turns
entirely on the filing of bankruptcy and the alleged
actions by my clients that somehow promoted or
caused that filing.
Caused the funding of the
bankruptcy attorney. Caused it not to be treated as a
special purpose vehicle.
Those issues were also raised throughout the
bankruptcy.
They weren’t hidden.
They were
litigated. Plaintiff itself had brought a motion on these
issues -THE COURT: The Plaintiff withdrew its motion
and did not go forward with any motions to dismiss
and the court didn’t reach it.
MR. SCHUMAN: Your Honor, we don’t believe that
is a material distinction under Noerr-Pennington or
preemption.
THE COURT: If it stated this was only about
bankruptcy, you are right. This is different from
cases cited in your brief. This is not based upon
bankruptcy. It’s based upon various clauses in
[18] contract that were breached.

the
the
the
the

MR. SCHUMAN: Your Honor, with all respect, I
don’t think that’s what the complaint alleges.
If you took the words bankruptcy out of the
complaint, there would be nothing left. There would
not be a claim and the complaint would be a fraction of
its size.

76a
It’s all alleged to turn on the filing of the
bankruptcy. It’s all about the bankruptcy. Alleged
delay, changes in the real estate market during that
alleged delay.
There is no claim here if it’s not because of the
alleged actions causing the bankruptcy and how the
bankruptcy was then monitored.
Your Honor, if I can turn to piercing the corporate
veil, there is no domination or abuse of the corporate THE COURT: I think there are plenty of, you know,
there’s plenty in the complaint that talks about the
interaction between all of the different entities and the
Pilevskys.
And, frankly, I think, there has been a very recent
case called Cortland Street Recovery Corporation v.
Bonderman, a Court of Appeals case, 2018 Westlaw
942335, and I think it is directly on point.
[19] MR. SCHUMAN: Your Honor, you know, we
had cited Justice Freed in the Brown case where it’s
more than conclusory allegations needed to move
forward from the pleading stage -- THE COURT: I think this is much more closely
related to Cortland which is a Court of Appeals case.
MR. SCHUMAN: Your Honor, we respectfully ask
that you revisit the complaint. Here, there is no abuse
of the corporate privilege alleged. There is nothing
inappropriate or illegal. These are family-owned
entities . They have appropriate books and records.
The transactions are -THE COURT: We don’t know that, number one;
although, from what’s said already in the complaint it
appears that the apartments came from a Philip

77a
Pilevsky entity. There was no consideration . It went
from -- on behalf of Sutton to the mortgage borrower,
again, you know, so Sutton got the credit for it. But
they didn’t pay for it.
Philip Pilevsky gave the $50,000 on behalf of
Michael Pilevsky on behalf of Sutton. It just looks to
me that maybe this is not the case. They basically -- it
was all coming out of the same pocket.
MR. SCHUMAN: Your Honor, obviously when you
have entities, and it’s also the same on the Plaintiff’s
[20] side, the name Sutton in connection with a
building that’s going to be on Sutton Place they create
entities relating to certain projects. There’s nothing
inappropriate about that.
And they obviously need to provide assets to the
entities. That, in and of itself, does not create any
alleged wrongdoing.
THE COURT: However, you know, I think it is just
basic law that if any of the Defendants, and here,
Philip Pilevsky, exercised complete dominion and
control over several of the corporate entities and
abused the privilege of doing business in the corporate
forum to perpetrate a wrong or injustice as alleged
here, you at least have enough to make out a viable
corporate piercing, piercing of the corporate veil.
MR. SCHUMAN: Insofar as the complaint uses
those words alleged abuse, alleged domination, that’s
conclusory.
THE COURT: I’m not looking at those words. I’m
looking at the facts they have alleged.
The
apartments, the $50,000 going from one to the other.
Mr. Pilevsky’s own words in the e-mail saying I am
giving you the $50,000 on behalf of Michael who, on
behalf of Sutton, an entity that was being formed. All

78a
being formed and all done by one of Mr. Pivelsky’s own
[21] GC for one- of his entities who was doing all of the
legal work for Michael Pilevsky and Seth Pilevsky and
Sutton Opportunity. It all seemed to be it was one big
enterprise.
MR. SCHUMAN: If I may, there is nothing
inappropriate about a lawyer having, where there is
no conflict, more than one client, even on this new
transaction.
THE COURT: But she was the GC for Philip
International, which was one of Philip Pilevsky’s
businesses. She took money from one of Philip
Pilevsky’s entities.
She took apartments that belonged to another one
of Mr. Philip Pilevsky’s entities and she transferred
those on behalf of Sutton Opportunity to a mortgage
buyer to give Sutton Opportunity a piece of that
mortgage -- I don’t mean buyer. Borrower.
It seems to me it’s all treated as one.
MR. SCHUMAN: Your Honor -THE COURT: It may not be. But we’re just at the
very beginning. There has not been discovery here.
MR. SCHUMAN: Whether one lawyer handled
those transactions or two lawyer, that should not make
a difference, we submit, in whether this withstands a
motion for summary judgment on this point.
[22] Also, this was all transparent.
Piercing the corporate veil requires domination and
abuse of the corporate privilege. As you see in the
bankruptcy, again coming back to the bankruptcy,
these issues were aired there. They are in affidavit -THE COURT: That is the important thing. We’re
not dealing with bankruptcy here. I emphasized that

79a
again.
We’re dealing with a separate contract.
Separate breaches. Not the bankruptcy.
Let me hear from the other side.
MR. GREENBERG: Thank you, your Honor.
Ronald Greenberg. With me are my colleagues
Natan Hamerman and Dan Leonard from the Kramer
firm.
Your Honor, candidly, I had a 25-minute argument
prepared. I was going to walk your Honor through the
facts which -THE COURT: Well, go ahead.
MR. GREENBERG: No. I’m going to distill my
argument really down to two points because it would
be wasteful, your Honor, to tell you facts the Court
already knows and the law that your Honor knows
better than we do.
I want to point to something that your Honor said
in a slightly different context. This argument that, you
know, these -- your Honor had it exactly right [23] that
your Honor should change how business is done in
New York and that’s exactly what they’re asking.
And this argument that the contract event of
default provisions are somehow void against public
policy and these other loan covenants, these common
things that your Honor said you see a thousand times,
SPEs, et cetera, is astonishing, especially in this
context.
Nobody fell off the turnip truck yesterday. My
adversaries are sophisticated. We try to do okay. This
is a wonderful commercial court to be practicing in.
The clients on both sides are decades of lending and
borrowing. This is how business is done in this town,
your Honor.

80a
And the most astonishing thing they said on this
point and in their reply, and a case that he just cited
here on page 7 of their reply, where they go further
than just addressing the event of the default prevision.
And we’ve cited cases.
Your Honor had the distinction exactly right. You
cannot prohibit a bankruptcy. That would be against
public policy. You can certainly call a bankruptcy
event of default without prohibitibg it and the cases so
say .
They on reply, they didn’t do this in their [24]
opening papers, but on reply they come back and say
those provisions, meaning not the event of default
provision, but the loan covenant that caused this to be
a special purpose entity, those provisions are classic
special purpose vehicle covenants whose use is simply
a disguised form of bankruptcy waiver. As such, they
are unenforceable as a covenant and not to file for
bankruptcy itself.
So, don’t listen to them. Your Honor had it exactly
right when they’re telling you that they’re not asking
you to change how business is done in this town. They
are absolutely are, And that’s right in the NoerrPennington argument.
I think your Honor has it exactly right on these
other claims. This is a million miles away from
preemption. Nothing is preempted here, These are for
breaches that, under state law, that occurred prior to
the bankruptcy.
And, by the way, this is really their second motion
to dismiss. They are calling it a summary judgment
motion, but as you heard over and over, it’s an attack
on the pleading. The reason is they had an initial
motion to dismiss, as your Honor I’m sure will recall,

81a
was denied, that attacked our damages which he now
is attacking again on a motion for summary judgment.
[25] The only other quick point I’ll make on the
piercing claim, your Honor is, again, is exactly right.
Not only have we alleged way more than a complaint
usually does and they’re attacking the pleading, but
the First Department has said more than once that
these types of claims attacking intent are exactly the
type that should not be granted on summary judgment
particularly before we’ve had any discovery.
The last thing I’ll say, your Honor, is I heard my
adversary say that these transactions were
transparent. Your Honor, that’s anything but the
case. In fact, they used the lawyer, as your Honor
noted, Pilevsky’s lawyer, not only to represent the
father and son and son’s entities, but also the borrower
and the borrower’s principal and now they’re telling us
every thing in this transaction is privileged and we
can’t have it. And we’ll fight that fight, your Honor.
But this is the opposite of transparent.
So, unless the Court has any questions.
THE COURT: I don’t.
I am going to deny this summary judgment from the
bench. I think that it’s, even though it is a summary
judgment motion, there has been no discovery here.
I think there is clearly on it’s face an action [26]
alleged as to tortious interference as to the piercing of
the corporate veil. I cited the Cortland Street case and
as that court said, whether Plaintiff can ultimately
prove its allegations is not a consideration in
determining a motion to dismiss. And this is, in a
sense, a motion to dismiss because there has been no
discovery.

82a
Furthermore, a fact latent claim to pierce, there are
plenty of facts here I think on their face make out a
valid claim, a fact latent claim to pierce a corporate
veil is unsuited for resolution on a pre-answer prediscovery motion to dismiss.
Again, this is a
vsummary judgment motion, but there has been no
discovery here yet. It’s very similar to that, this
Cortland case.
(Transcript continues on the next page.)
[27] I believe that there is plenty here in terms of
an argument regarding the veil piercing.
So, I am denying summary judgment in total for all
of these reasons. I think there is, perhaps, a good
claim here and it needs discovery.
This shall constitute the Decision and Order of the
Court.
MR. GREENBERG: Thank you, your Honor.
(Record is closed.)
**

**

**

This is certified to be a true and accurate
transcription of my stenographic notes.
/s/ Carolyn Barna
CAROLYN BARNA
SENIOR COURT REPORTER

83a
APPENDIX D
No. 654917/2016
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
SUTTON 58 ASSOCIATES LLC, Plaintiff,
v.
PHILIP PILEVSKY, MICHAEL PILEVSKY, SETH
PILEVSKY, PRIME ALLIANCE GROUP, LTD, and
SUTTON OPPORTUNITY LLC, Defendants.
[Filed] September 16, 2016]
COMPLAINT
Plaintiff Sutton 58 Associates LLC, by its
undersigned counsel, for its complaint, alleges upon
information and belief, except for information about
itself as to which it has personal knowledge, as follows:
NATURE OF THE ACTION
1. This is an action against Prime Alliance Group,
Ltd. (“Prime Alliance”), Sutton Opportunity LLC
(“Sutton Opportunity”), and their respective
principals, Philip Pilevsky, and his sons, Michael
Pilevsky and Seth Pilevsky, for tortious interference
with contract. The action arises out of maturity
defaults on secured loans totaling $147.25 million that
plaintiff made to two non-party borrowers to develop a
super-tall tower at Sutton Place and 58th Street in
Manhattan (the “Project”). The maturity defaults were
followed by additional contractual breaches and
frivolous tactics by the borrowers, “Mezz Borrower”
and “Mortgage Borrower” (as hereinafter defined). The
borrowers, each now in bankruptcy, continue to be in
default of numerous contractual obligations and still

84a
have not repaid any portion of the loans. * Meanwhile,
the Project is at a standstill. Plaintiff, whose loan
proceeds funded the Project almost entirely, has been
and continues to be damaged by the borrowers’
breaches of contract. Plaintiff sues defendants for
willfully causing the borrowers to breach their
contractual obligations to plaintiff after the loans
matured.
2. Defendants, who were strangers to the Project,
intentionally and improperly caused these contractual
breaches in a scheme to benefit themselves and obtain
an ownership interest in the Project (the “Pilevsky
Scheme”). The Pilevsky Scheme had two parts.
3. First, when plaintiff tried to exercise its agreedupon contractual remedies following the maturity
defaults, Philip Pilevsky caused Prime Alliance, to
lend Mezz Borrower $50,000 (the “Pilevsky Loan”) to
retain a law firm (in which another Pilevsky is a
partner) to file a petition for bankruptcy that
prevented plaintiff from exercising those remedies.
This caused Mezz Borrower to breach no fewer than
five contractual obligations to plaintiff. Specifically,
Mezz Borrower had signed a loan agreement with
plaintiff agreeing: (a) not to file a petition for
bankruptcy; (b) not to incur debt other than
“Permitted Indebtedness”; (c) to pay its liabilities out
of its own funds and assets; (d) to consider the
interests of plaintiff in connection with all of its
Plaintiff has filed a motion for summary judgment in lieu of
complaint against the borrowers’ principals to enforce a guaranty.
See Sutton 58 Associates LLC v. Beninati et al, Index No,
651296/2016 (Komreich, J.), The motion has been fully briefed
and oral argument is scheduled for November 17, 2016. To date,
the borrowers’ principals have not paid any of the amounts they
guaranteed.

*

85a
corporate actions; and (e) to remain a special purpose
bankruptcy remote entity.
4. Second, Michael Pilevsky and Seth Pilevsky
caused Sutton Opportunity to transfer three rental
apartments in Lynbrook, New York (the “Pilevsky
Apartments”) to Mortgage Borrower to evade a
fundamental protection in favor of plaintiff under
bankruptcy law, Mortgage Borrower faced a
formidable obstacle in using bankruptcy to avoid the
consequences of its maturity defaults because it was a
“Single Asset Real Estate” entity. The Bankruptcy
Code, for good reason, disfavors a Single Asset Real
Estate entity using bankruptcy to defeat the ordinary
contractual remedies of its secured lender (here,
plaintiff). Michael Pilevsky and Seth Pilevsky caused
Sutton Opportunity to transfer the Pilevsky
Apartments to Mortgage Borrower in order to allow it
to seek to dodge these Bankruptcy Code provisions and
to continue to avoid the consequences of its maturity
defaults. In consideration for the Pilevsky Apartments
plus $150,000 in cash, the Pilevsky entity Sutton
Opportunity received an indirect 49% equity interest
in Mortgage Borrower. The Pilevsky Apartment
transaction caused Mortgage Borrower to breach no
fewer than seven contractual obligations to plaintiff.
Specifically, Mortgage Borrower had signed loan
agreements with plaintiff agreeing: (a) not to file a
petition for bankruptcy; (b) not to own any real
property or assets other than the Project property; (c)
not to engage in any business unrelated to the Project;
(d) not to make or permit the sale or transfer of any
indirect interest in Mortgage Borrower; (e) to pay its
liabilities out of its own funds and assets; (f) to
consider the interests of plaintiff in connection with all
corporate actions; and (g) to remain a special purpose
bankruptcy remote entity.

86a
5. The Pilevsky Scheme was willful and improper.
The Pilevsky defendants and the defendant entities
they dominated and controlled knew exactly what they
were doing.
6. Philip Pilevsky has sworn under penalty of
perjury that he caused Prime Alliance to make the
Pilevsky Loan “so that [Mezz Borrower] could file for
reorganization under Chapter 11 of the Bankruptcy
Code.” Philip Pilevsky directed the Pilevsky Loan
proceeds to be used to retain not just any law firm to
file Mezz Borrower’s bankruptcy petition, but the law
firm where Philip Pilevsky’s nephew Jordan Pilevsky
is a partner. Philip Pilevsky swore that he caused
Prime Alliance to advance the funds at the request of
Michael Pilevsky – his son and co-owner of Sutton
Opportunity with Philip Pilevsky’s other son Seth
Pilevsky. The suspicious timing of the Pilevsky Loan
corroborates Philip Pilevsky’s sworn statement about
its purpose; The Pilevsky Loan was made, and Mezz
Borrower’s bankruptcy petition was filed, just after
this Court issued an order allowing plaintiff to
foreclose and on the eve of that foreclosure. Mezz
Borrower’s managing member has sworn that Mezz
Borrower filed for bankruptcy in order to avoid that
foreclosure, which is a breach of Mezz Borrower’s
contract with plaintiff.
7. The Pilevsky Apartments transaction, was
similarly willful and improper. The defendants
urgently sought to get the Pilevsky Apartments into
the hands of Mortgage Borrower, which immediately
upon receipt of the Pilevsky Apartments filed a
bankruptcy petition stating that it was not subject to
the Bankruptcy Code’s restrictions on bankruptcy
filings by “Single Asset Real Estate” businesses.
Mortgage Borrower’s managing member has sworn
under oath that the transaction was intended “to

87a
bring, in equity” and unrelated real estate, which are
breaches of Mortgage Borrower’s contract with
plaintiff.
8. The Pilevsky Scheme has damaged and
continues to damage plaintiff. The Pilevsky Scheme
has prevented plaintiff from exercising plaintiffs
contractual remedies for maturity defaults that took
place in January 2016. This delay poses significant
risks to plaintiff because community groups, including
the East River 50s Alliance, and politicians, including
the Manhattan Borough President, have organized
and arc lobbying to change zoning laws for the specific
purpose of preventing construction of the Project.
Adding to the harm caused by this delay, since
January 2016, the market for luxury high-rise
apartments in Manhattan and developments like the
Project has eroded. The zoning and market risks
already have decreased the value of the Project by
millions of dollars and, as time passes, the Pilevsky
scheme threatens to cause plaintiff damages of tens of
millions of dollars. The Pilevsky Scheme also has
caused plaintiff to incur attorneys’ fees and other
costs, which already are substantial and are likely
ultimately to mount into millions of dollars. This
lawsuit seeks compensatory and punitive damages,
interest, attorneys’ fees and costs against Philip
Pilcvsky, Michael Pilevsky, and Seth Pilevsky,
personally, and against their entities, Prime Alliance
and Sutton Opportunity.
PARTIES
9. Plaintiff is, and at all relevant times has been,
a limited liability company organized and existing
under the laws of the state of Delaware. Its principal
place of business is 101 Park Avenue, Suite 2602, New
York, New York 10178.

88a
10. Defendant Philip Pilevsky is an individual
residing at 227 Smith Street, Woodmere, New York.
He is the father of Michael Pilevsky and Seth Pilevsky.
11. Defendant Michael Pilevsky is an individual
residing at 318 Kirby Avenue, Woodmere, New York.
He is the son of Philip Pilevsky and brother of Seth
Pilevsky.
12. Defendant Seth Pilevsky is an individual
residing at 121 Willow Road, Woodmere, New York.
He is the son of Philip Pilevsky and brother of Michael
Pilevsky.
13. Defendant Prime Alliance is a corporation
organized and existing under the laws of the State of
New York. Its principal place of business is 295
Madison Avenue, 2nd Floor New York, New York
10017. Philip Pilevsky is the president and sole
shareholder of Prime Alliance.
14. Defendant Sutton Opportunity is a limited
liability company organized and existing under the
laws of the State of Delaware. Michael Pilevsky and
Seth Pilevsky own 100% of Sutton Opportunity.
15. Non-party Philips International Holding Corp.
(“Philips International”) is a corporation organized
and existing under the laws of the State of New York.
Its principal place of business is 295 Madison Avenue.
2nd Floor New York, New York 10017. Philip Pilevsky
is the founder and CEO of Philips International, and
Michael Pilevsky and Seth Pilevsky are both
executives at Philips International.
16. Non-party Jordan Pilevsky is an individual
residing at 794 Roosevelt Street, Far Rockaway, New
York. He is the nephew of Philip Pilevsky and cousin
of Michael Pilevsky and Seth Pilevsky. He is a partner

89a
at the law firm LaMoniea Herbst & Maniscalco, LLP
(“LH&M”).
17. Non-party borrower Sutton 58 Owner LLC
(“Mortgage Borrower”) is a limited liability company
organized and existing under the laws of the State of
Delaware. Mortgage Borrower is, and at all relevant
times has been, the direct owner of the assets of the
Project, which consist of a real estate development at
428-432 East 58th Street in New York City (the
“Property”).
18. Non-party borrower BH Sutton Mezz LLC
(“Mezz Borrower”; together with Mortgage Borrower,
the “Borrowers”) is a limited liability company
organized and existing under the laws of the Stale of
Delaware. Mezz Borrower owns, and at all relevant
times has owned, 100% of the membership interests in
Mortgage Borrower.
19. Non-party BH Sutton Owner LLC (“Borrowers’
Parent”) is a limited liability company organized and
existing under the laws of the State of Delaware.
Borrowers’ Parent owns, and at all relevant times has
owned, 100% of the membership interests in Mezz
Borrower.
20. Immediately before the Pilevsky Scheme,
Joseph Beninati, the Joseph Reninati 2015 Generation
Skipping Trust, Christopher Jones, and Daniel Lee
owned 100% of the membership interests in
Borrowers’ Parent.
21. The loan agreements between Borrowers and
plaintiff describe the following ownership structure of
Mortgage Borrower, Mezz Borrower, and Borrower’s
Parent as it existed before the Pilevsky Scheme:

90a

22. According to Mr. Beninati, Sutton Opportunity
now owns 49% of the membership interests in
Borrowers’ Parent because of the Pilevsky Apartments
transaction.
FACTUAL BACKGROUND
Plaintiff’s Contracts with Borrowers
23. As of 2013, the Property site consisted of three
walk-up apartment buildings. Messrs. Beninati,
Jones, and Lee planned for the Project to involve: (a)
buying those low-rise buildings, (b) emptying those
buildings of their rental tenants, (c) demolishing those
buildings, (d) buying air rights from other properties,
and (e) building an approximately 1,000-foot
residential apartment building at the Property site.
24. In order to finance the Project, Borrowers and
plaintiff created a mezzanine loan structure consisting

91a
of a Mezzanine Loan Agreement in the amount of
$20,000,000, an Acquisition Loan Agreement in the
amount of $125,850,000, and a Building Loan
Agreement in the amount of $1,400,000, all dated as of
June 19, 2015 (collectively, the “Loan Agreements”).
25. In their respective Loan Agreements,
Mezzanine Borrower and Mortgage Borrower each
agreed: (a) not to file a petition for bankruptcy; (b) not
to incur debt other than “Permitted Indebtedness”; (c)
to pay their liabilities out of their own funds and
assets; (d) not to have assets or businesses unrelated
to the Property; (e) not to make, permit, or suffer the
sale or transfer of an indirect interest in Mezz
Borrower or Mortgage Borrower, respectively; (f) to
consider the interests of plaintiff in connection with all
corporate actions; (g) to remain a special purpose
bankruptcy remote entity; and (h) that any event of
default under one Loan Agreement would be an event
of default under the other Loan Agreements.
26. Specifically, both Borrowers separately agreed:
(a) Not To File for Bankruptcy: Section 7.1(j)
of each Loan Agreement states: “An ‘Event
of Default’ shall exist with respect to the
Loan if . . . any petition for bankruptcy,
reorganization or arrangement pursuant to
federal bankruptcy law . . . shall be filed by
or against, consented to, or acquiesced in by,
Borrower or Guarantor . , . (The word
“Borrower” is defined in tire Mezzanine Loan
Agreement to mean Mezz Borrower and is
defined in the Acquisition Loan Agreement
and Building Loan Agreement to mean
Mortgage Borrower.)
(b) To
Incur
Only
“Permitted
Indebtedness”: Section 4.16 of each Loan

92a
Agreement states: “Borrower shall not,
directly or indirectly create, incur or assume
any indebtedness other than (i) the Building
Loan and (ii) unsecured trade payables
incurred in the ordinary course of business
relating to the ownership and operation of
the Property which (A) are not evidenced by
a note, (B) do not exceed, at any time, a
maximum aggregate amount of $50,000 and
(C) are paid within thirty (30) days of the
date incurred (collectively, ‘Permitted
Indebtedness’).”
(c) To Use Its Own Funds and Assets to Pay
Obligations: Section 4.10 and Schedule
3(xv) of each Loan Agreement states that the
Borrower “will pay its own liabilities . . . out
of its own funds and assets.”
(d) Not To Have Unrelated Assets or
Businesses: Multiple provisions reinforce
this obligation.
•

In Section 4.11 of the Acquisition Loan
Agreement
and
Building
Loan
Agreement, Mortgage Borrower agrees
and covenants: “Borrower shall not enter
into any line of business other than as
owner and developer of the Property.
Borrower shall not purchase or own any
real property other than the Property and
the Contract Property [a parcel at 426
East 58th Street, adjacent to the
Property].”

•

In Section 4.10 and Schedule 3(i)-(iii) of
the Acquisition Loan Agreement and
Building Loan Agreement, Mortgage
Borrower agrees and covenants, in

93a
relevant part, that it: (i) “will be
organized solely for the purpose of . . ,
owning the Property”; (ii) “will not
engage in any business unrelated to . . .
the ownership of the Property”; and (iii)
“will not have any assets other than those
related to the Property.”
•

In Section 4.20 of the Acquisition Loan
Agreement
and
Building
Loan
Agreement, Mortgage Borrower agrees
and covenants: “Borrower shall not . . .
engage in any business activity not
related to the ownership and operation of
the Collateral or the Property . . . .”

•

In Section 4.10 and Schedule 3(i)-(iii) of
the Mezzanine Loan Agreement, Mezz
Borrower agrees and covenants, in
relevant part, that it: (i) “will be
organized solely for the purpose of. . .
acting as a , . . member of the limited
liability company that owns the
Property”; (ii) “will not engage in any
business unrelated to . . , the ownership
of the Property . . . or . . . acting as a
member of the limited liability company
that owns the Property”; and (iii) “will not
have any assets other than those related
to the Property or its . . . member interest
in the . . . limited liability company that
owns the Property.”

•

In Section 4.10 and Schedule 3(xxviii) of
the Loan Agreements, each of Mortgage
Borrower and Mezz Borrower agrees and
covenants that it, “will have an express
acknowledgment in its organizational
documents that Lender is an intended

94a
third-party beneficiary of the ‘special
purpose’
provisions
of
such
organizational documents.”
(e) Prohibition on Transfer of Indirect
Interest in Borrower: Section 4.18 of each
Loan Agreement states: “Borrower shall not
directly or indirectly make, suffer or permit
the occurrence of any Transfer without the
prior written consent of Lender, to be
granted or withheld in Lender’s sole
discretion.” A “Transfer,” which is also
prohibited by Section 7.1(d) of each Loan
Agreement, is defined in Section 1.1.2 of
each Loan Agreement to mean “any sale,
conveyance, transfer, assignment ... in or
affecting (x) all or part of the Property
(including any legal or direct or indirect
interest therein), (y) any direct or indirect
interest in Borrower or (z) all or any part of
the Collateral or (ii) any change of Control of
Borrower.”
(f) To Consider the Interests of Plaintiff:
Section 4.10 and Schedule 3(xxix) of each
Loan Agreement agrees and covenants that
the Borrower “will consider the interests of
its creditors in connection with all corporate,
partnership, or limited liability actions, as
applicable.”
(g) To
Remain
a
Special
Purpose
Bankruptcy Remote Entity: Section 4.10
of each Loan Agreement agrees and
covenants that the Borrower “shall at all
times be a Special Purpose Bankruptcy
Remote Entity.” Any breach of the Schedule
3 obligations set forth above in paragraph

95a
26(c), (d) and (f) of this Complaint violates
that covenant.
(h) Cross-Default: Section 7.1(p) of each Loan
Agreement provides that “[a]n ‘Event of
Default’ shall exist with respect to the Loan
if . . , an ‘Event of Default’ occurs under [the
other Loan Agreements].”
27. In addition, Mezz Borrower and plaintiff signed
a Pledge and Security Agreement dated as of June 19,
2015, in which Mezz Borrower pledged, as collateral
for the Mezzanine Loan, its 100% membership interest
in Mortgage Borrower. Mezz Borrower and plaintiff
agreed that, upon a maturity default, plaintiff could
sell that membership interest in Mortgage Borrower
at a UCC foreclosure sale.
28. Specifically, Section 6(a) of the Pledge and
Security Agreement states: “Whenever an Event of
Default shall exist, Lender may exercise from time to
time any rights and remedies available to it under the
UCC as in effect in the State of New York or otherwise
available to it under the Loan Documents or other
applicable law.”
29. This reassured plaintiff that upon a maturity
default, plaintiff would not be exposed to the risk, of
holding onto the Property, managing or developing the
Property, or the vagaries of an uncertain real estate
market, zoning regulations, or community activism
seeking to hinder or to stop the development of the
Property.
The Maturity Defaults
30. As set forth in the Loan Agreements, the
maturity date of each loan was January 19, 2016.

96a
31. Neither on January 19, 2016, nor since have
Borrowers repaid any amounts due under the Loan
Agreements.
32. On January 20, 2016, plaintiff sent the
Borrowers notices of maturity defaults under the three
Loan Agreements.
33. On January 20, 2016, plaintiff also sent Mezz
Borrower a notification of disposition of collateral. The
notification of disposition of collateral stated that,
pursuant to the Pledge and Security Agreement,
plaintiff had a perfected security interest in the
collateral for the Mezzanine Loan, consisting of Mezz
Borrower’s 100% membership interest in Mortgage
Borrower, and that plaintiff would conduct a UCC
foreclosure sale of that collateral on February 11,
2016.
34. On February 5, 2016, plaintiff sent Mezz
Borrower a notice informing it that plaintiff had
rescheduled this UCC foreclosure sale to take place on
February 29, 2016.
35. On February 17, 2016, Borrowers filed suit in
this Court, seeking a preliminary injunction and a
permanent injunction restraining and enjoining
plaintiff from conducting a UCC foreclosure sale,
whether on February 29, 2016, or any other date.
36. On February 23, 2016, Justice O. Peter
Sherwood denied Borrowers’ motion for a preliminary
injunction, holding that Borrowers were unlikely to
succeed on the merits, that they would not be
irreparably harmed by the UCC foreclosure sale, and
that the equities favored allowing plaintiff to enforce
its contractual rights. Justice Sherwood ordered that
the UCC foreclosure sale could proceed on Monday,
February 29, 2016.

97a
Mezz Borrower’s Bankruptcy Filing and the
Pilevsky Loan
37. At 3:30 p.m. on Friday, February 26, 2016, the
last business day before the UCC foreclosure sale,
Mezz Borrower filed a voluntary petition for
bankruptcy under Chapter 11 of the Bankruptcy Code,
which automatically stayed the UCC foreclosure sale
that Justice Sherwood had allowed to proceed only
three days earlier.
38. Mezz Borrower filed with its bankruptcy
petition an affidavit signed by Mr. Beninati in which
he swore that Mezz Borrower’s “Chapter 11 filing was
precipitated by, among other things, litigation with
one of its lenders and an attempt by [plaintiff] to
foreclose on the [Mezz. Borrower’s] membership
interest [in Mortgage Borrower] through a quick sale
under the Uniform Commercial Code.” Mr. Beninati’s
affidavit did not mention that Justice Sherwood had
ordered that plaintiff could proceed with the UCC
foreclosure sale.
39. The law firm LH&M, in which Jordan Pilevsky
is a partner, signed and filed Mezz Borrower’s
February 26, 2016 bankruptcy petition.
40. Mezz Borrower did not pay LH&M’s retainer
out of its own funds and assets. Indeed, in the February 26, 2016 affidavit that he signed on behalf of Mezz
Borrower, Mr. Beninati swore that Mezz Borrower had
a single asset consisting of its ownership interest in
Mortgage Borrower, and no employees.
41. On February 26, 2016, Prime Alliance loaned
Mezz Borrower $50,000 to retain LH&M to file Mezz
Borrower’s bankruptcy petition and thereafter to act
as its counsel in the bankruptcy case.

98a
42. Mezz Borrower’s bankruptcy petition, signed
both by LH&M and by Mr. Beninati, lists this $50,000
loan from Prime Alliance to Mezz Borrower as a debt
of Mezz Borrower.
43. Philip Pilevsky, the president and sole
shareholder of Prime Alliance, swore in an April 21,
2016 declaration: “The Retainer was wired from Prime
Alliance to LH&M on February 26, 2016 so that the
[Mezz Borrower] could file for reorganization under
Chapter 11 of the Bankruptcy Code. . . . Jordan
Pilevsky is my nephew and a partner at LH&M. Prime
Alliance advanced the Retainer to LH&M at the
request of Michael Pilevsky, one of the principals of
Sutton Opportunity LLC, Michael Pilevsky is one of
my sons.”
44. On March 10, 2016, plaintiff moved to dismiss
Mezz Borrower’s bankruptcy case or to lift the
automatic stay, so that plaintiff could proceed with the
UCC foreclosure sale and staunch the damages
flowing from the maturity defaults under the Loan
Agreements. In support of that motion, plaintiff
argued that the bankruptcy case should be dismissed
because it arises out of a one-creditor, one-asset
dispute.
45. Mezz Borrower successfully used the Pilevsky
Loan to argue that its bankruptcy case should not be
dismissed because Mezz Borrower has multiple
creditors.
46. The Pilevsky Loan caused Borrowers to violate
multiple provisions in the Loan Agreements.
47. The Pilevsky Loan caused Mezz Borrower to
breach its contractual obligation to plaintiff under
Section 7.1(j) of the Mezzanine Loan Agreement not to
file a petition for bankruptcy.

99a
48. The Pilevsky Loan caused Mezz Borrower to
breach its contractual obligation to plaintiff under Section 4.16 of the Mezzanine Loan Agreement not to incur debt other than “Permitted Indebtedness.” The
Pilevsky Loan is not Permitted Indebtedness for three
reasons. First, it is not an “unsecured trade payable[]
incurred in the ordinary course of business relating to
the ownership and operation of the Property” under
Section 4.16. Second, it was not “paid within thirty (30)
days of the dale incurred” under Section 4.16, nor, according to Philip Pilevsky’s April 21, 2016 declaration,
was it intended to be so paid. Third, according to Mezz
Borrower’s sworn bankruptcy petition, when Mezz
Borrower incurred the Pilevsky Loan, its total Permitted Indebtedness exceeded the “maximum aggregate
amount of $50,000” permitted by Section 4.16.
49. The Pilevsky Loan caused Mezz Borrower to
breach its contractual obligation to plaintiff under
Section 4.10 and Schedule 3(xv) of the Mezzanine Loan
Agreement to “pay its own liabilities ... out of its own
funds and assets.”
50. The Pilevsky Loan caused Mezz Borrower to
breach its contractual obligation to plaintiff under
Section 4.10 and Schedule 3(xxix) of the Mezzanine
Loan Agreement to consider the interests of plaintiff
in connection with all corporate, partnership, or
limited liability actions.
51. The Pilevsky Loan caused Mezz Borrower to
breach its contractual obligation to plaintiff under
Section 4.10 and Schedule 3 of the Mezzanine Loan
Agreement to be “at all times a Special Purpose
Bankruptcy Remote Entity.”
52. The Pilevsky Loan also caused Mortgage
Borrower to be in default of its contractual obligations
to plaintiff under the cross-default provisions in

100a
Section 7.1(p) of the Mortgage Loan Agreement and
Section 7.1(p) of the Building Loan Agreement.
Mortgage Borrower’s Bankruptcy Filing and
the Pilevsky Apartments
53. On April 6, 2016, Mortgage Borrower filed a
voluntary petition for bankruptcy under Chapter 11 of
the Bankruptcy Code. That petition was also signed
and filed by the LH&M law firm.
54. Mortgage Borrower filed with its bankruptcy
petition a declaration signed by Mr. Beninati in which
he swore that Mortgage Borrower’s “Chapter 11 filing
was precipitated in order to protect itself from
[plaintiff].”
55. In Mortgage Borrower’s bankruptcy petition,
Mr. Beninati swore that Mortgage Borrower’s business
was not “Single Asset Real Estate” as defined in 11
U.S.C. § 101(51B). To similar effect, Mortgage
Borrower filed along with its bankruptcy petition a
motion representing that it has assets in addition to
the Property.
56. To make these representations, Mortgage
Borrower relied solely upon the Pilevsky Apartments
– three small (one-bedroom) cooperative apartments
located at 504 Merrick Road, Lynbrook, New York that
have nothing to do with the Project – that Michael
Pilevsky and Seth Pilevsky caused Sutton
Opportunity to transfer to Mortgage Borrower just
before it filed for bankruptcy.
57. The Bankruptcy Code reflects a specific public
policy that protects lenders to single asset real estate
projects from ‘eve of foreclosure’ bankruptcy filings
that delay lenders’ rights to exercise their remedies.
The Project at issue here is exactly the type of property
covered by these statutory protections. The Pilevsky

101a
Apartments were transferred to Mortgage Borrower so
that it could represent that it was not a Single Asset
Real Estate business.
58. If Mortgage Borrower were engaged in a Single
Asset Real Estate business, 11 U.S.C, § 362(d)(3)
would allow plaintiff relief from the automatic stay to
proceed with its foreclosure unless, within 90 days, the
debtor starts servicing the mortgage debt or the debtor
has filed a plan of reorganization that has a reasonable
possibility of being confirmed within a reasonable
time.
59. If Mortgage Borrower were engaged in a Single
Asset Real Estate business, 11 U.S.C. § 362(d)(3)(B)(ii)
would allow plaintiff to be relieved from the
Bankruptcy Code’s automatic stay and to proceed with
its maturity default remedies against Mortgage
Borrower if Mortgage Borrower did not pay monthly
interest payments to plaintiff within ninety days of the
petition date.
60. Section 362(d)(3)(B)(ii) would apply here. On
the date it filed for bankruptcy, Mortgage Borrower
had no liquid assets, no income-generating assets, no
employees, and no ability to make such monthly
interest payments to plaintiff. To this day, that
continues to be the case.
61. Furthermore, if Mortgage Borrower were
engaged in a Single Asset Real Estate business, 11
U.S.C. § 362(d)(3)(B)(i) would allow plaintiff to be
relieved from the Bankruptcy Code’s automatic stay
and to proceed with its maturity default remedies
against Mortgage Borrower if Mortgage Borrower did
not file, within ninety days of the petition date, a plan
of reorganization that has a reasonable possibility of
being confirmed within a reasonable time. A Chapter
11 debtor that is not engaged in a Single Asset Real

102a
Estate business does not. need to satisfy this
requirement in order to benefit from the Bankruptcy
Code’s automatic stay.
62. Section 362(d)(3)(B)(i) would apply here.
Mortgage Borrower was not able to file a plan for
reorganization within ninety days of its April 6, 2016
petition date. The plan for reorganization Mortgage
Borrower ultimately filed outside that time period
does not have a reasonable possibility of being
confirmed within a reasonable time. It calls for months
of discovery and litigation before the bankruptcy court
will even rule on it. And it requests the Property to be
sold at a public sale after the conclusion of that
litigation, even though Mortgage Borrower has a
single secured creditor, plaintiff, and unsecured
obligations that are dwarfed in size by plaintiffs
secured claim.
63. The circumstances of the Pilevsky Apartments
transaction demonstrate that it was intended to
frustrate plaintiff’s maturity default remedies and
escape Section 362’s restrictions on bankruptcy filings
by Single Asset Real Estate businesses.
64. Before the bankruptcies, the Pilevsky
Apartments were owned for many years by Lynbrook
Apartment Associates, an entity affiliated with Philips
International – the holding corporation founded and
led by Philip Pilevsky that also employs Michael and
Seth Pilevsky. Certain of the defendants had a
longstanding relationship with the Lynbrook building
and had been instrumental in organizing it as a
cooperative.
65. This all began to rapidly change after this Court
denied the Borrowers’ motion for a preliminary
injunction to stop the UCC foreclosure sale, as the
defendants began to implement the Pilevsky Scheme.

103a
66. On February 25, 2016, two days after the
preliminary injunction was denied, defendant Sutton
Opportunity was incorporated at the behest of Philip,
Michael, and/or Seth Pilevsky.
67. Shortly
thereafter,
Sutton
Opportunity
arranged to obtain a 49% ownership stake in Sutton
Parent in exchange for contributing to Mortgage
Borrower the Pilevsky Apartments and cash,
including $150,000 to pay LH&M a retainer to file a
bankruptcy petition for Mortgage Borrower.
68. Tellingly, the transaction was between Sutton
Opportunity and Mortgage Borrower – not the
principals of Sutton Parent, who were the actual
owners of Sutton Parent’s equity. This was part of
defendants’ willful and intentional design. If the
Sutton Apartments and cash had been transferred to
Sutton Parent’s principals (as would have made sense
since they owned the equity in Sutton Parent),
Mortgage Borrower would not have been able to fund
its bankruptcy, and Mortgage Borrower would not
have been able to evade the Single Asset Real Estate
provisions in the Bankruptcy Code.
69. During the subsequent weeks, defendants
hurried to complete the transaction to which they had
just agreed so that Mortgage Borrower could file a
bankruptcy petition. Lynbrook Apartment Associates
transferred its interest in the Pilevsky Apartments to
Sutton Opportunity on March 30, 2016; Sutton
Opportunity then immediately transferred the
Pilevsky Apartments to Mortgage Borrower on the
same day. Less than one week later, on April 6, 2016,
Mortgage Borrower filed for bankruptcy.
70. During a sworn examination by the United
States Trustee, Mr. Beninati admitted that the
Pilevsky Apartments are not related to the Project and

104a
were not acquired for any independent business
purpose. Mr. Beninati also admitted: “There are three
tenants living in them now, because we’re managing
them.” When asked why Mortgage Borrower acquired
the Pilevsky Apartments, Mr. Beninati said that he
wanted to “bring in equity.” Mr. Beninati provided no
explanation why Mortgage Borrower would want the
Pilevsky Apartments as opposed to more cash and no
explanation why title to the Pilevsky Apartments was
transferred to Mortgage Borrower rather than Sutton
Parent.
71. The Pilevsky Apartments do not provide any
material economic benefit to the Borrowers. The
Pilevsky Apartments earn a net cumulative monthly
rent of only $600. The Pilevsky Apartments’ supposed
aggregate value is not more than $250,000. Neither
the rent nor the aggregate value is even a fraction of a
percent of the Borrowers’ debt and extraordinary
bankruptcy-related expenses, Nor do they assist the
Borrowers in advancing the Project, which is expected
to require well in excess of $500 million in additional
construction financing to complete.
72. The manner and speed in which the Pilevsky
Apartments transaction took place, the lack of any
Project-related purpose, and the absence of any
business justification for the Borrowers all confirm
that the real goal of this transaction was to frustrate
plaintiffs bargained-for rights in furtherance of the
tortious Pilevsky Scheme.
73. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Section 7.1(j) of the
Acquisition Loan Agreement and Section 7.1(j) of the
Building Loan Agreement not to file a petition for
bankruptcy. It provided cash to pay LM&H to file
Mortgage Borrower’s bankruptcy petition, and

105a
Mortgage Borrower used the Pilevsky Apartments to
represent that it was not a Single Asset Real Estate
business.
74. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Sections 4.10, 4.11, 4.20,
Schedule 3(i)-(iii), and Schedule 3(xxviii) of the
Acquisition Loan Agreement, and Sections 4.10, 4.11,
4.20, Schedule 3(i)-(iii), and Schedule 3(xxviii) of the
Building Loan Agreement, not to have assets or
businesses unrelated to the Property.
75. The Pilevsky Apartments transaction caused
Mezz Borrower to breach its contractual obligations to
plaintiff under Sections 4.10, and Schedule 3(i)-(iii) of
the Mezzanine Loan Agreement not to have assets or
businesses unrelated to the Property.
76. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Section 4.18 of the
Acquisition Loan Agreement and Section 4,18 of the
Building Loan Agreement not to make, suffer or
permit tire occurrence of any “Transfer” as defined
therein. See Paragraph 26(e) above,
77. The Pilevsky Apartments transaction caused
Mezz Borrower to breach its contractual obligations to
plaintiff under Section 4.18 of the Mezzanine Loan
Agreement not to make, suffer or permit the
occurrence of any “Transfer” as defined therein. See
Paragraph 26(e) above.
78. Each of Messrs. Beninati, Lee, and Jones signed
a Guaranty of Recourse Obligations respecting each of
the Loans, stating in relevant part: “Guarantor hereby
acknowledges that it owns . . . indirect ownership
interests in Borrower.” The Pilevsky Apartments
transaction caused “indirect ownership interests in

106a
Borrower” to “Transfer” to Sutton Opportunity within
the meaning of Section 4.1 8 of each of the Loan
Agreements.
79. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Section 4.10 and
Schedule 3(xv) of the Acquisition Loan Agreement and
Section 4.10 and Schedule 3(xv) of the Building Loan
Agreement “to pay its own liabilities ... out of its own
funds and assets.”
80. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Section 4.10 and
Schedule 3(xxix) of the Acquisition Loan Agreement
and Section 4.10 and Schedule 3(xxix) of the Building
Loan Agreement to consider the interests of plaintiff
in connection with all corporate, partnership, or
limited liability actions.
81. The Pilevsky Apartments transaction caused
Mortgage Borrower to breach its contractual
obligations to plaintiff under Section 4.10 and
Schedule 3 of the Acquisition Loan Agreement and
Section 4.10 and Schedule 3 of the Building Loan
Agreement to be “at all times a Special Purpose
Bankruptcy Remote Entity.”
82. The Pilevsky Apartments transaction also
caused Mezzanine Borrower to be in default of its
contractual obligations lo plaintiff under the crossdefault provisions in Section 7.1(p) of the Mezzanine
Loan Agreement.
Defendants’ Willfulness
83. Defendants had actual knowledge of plaintiffs
contracts with the Borrowers.

107a
84. In addition, defendants had actual knowledge
that the Pilevsky Scheme would cause the Borrowers
to breach contractual obligations to plaintiff and cause
damages to plaintiff.
85. Prior to the Pilevsky Scheme, the Borrowers’
sole purpose was the Project.
86. Prior to the Pilevsky Scheme, the Project and
plaintiffs funding of the Project were public
knowledge.
87. Defendants
investors.

are

sophisticated

real

estate

88. Philip Pilevsky has been in the real estate
industry for decades.
89. Philips International has holdings in hundreds
of properties and has millions of square feet of
property under management.
90. Prior to the Pilevsky Scheme, defendants had
actual knowledge of the Project and that plaintiff had
funded the Project.
91. Prior to the Pilevsky Scheme, defendants had
actual knowledge that plaintiff would not have funded
the Project without any contract.
92. Michael Pilevsky asked his father Phillip
Pilevsky to cause Prime Alliance to make the Pilevsky
Loan so that Mezz Borrower could file for bankruptcy.
93. Philip Pilevsky and Prime Alliance knew that
this bankruptcy filing would trigger the Bankruptcy
Code’s automatic stay and prevent plaintiff from
proceeding with the UCC foreclosure sale scheduled
for the next business day.
94. Michael Pilevsky and Seth Pilevsky caused
Sutton Opportunity to transfer the Pilevsky
Apartments and $150,0000 in cash in exchange for a

108a
49% ownership stake in Sutton Parent so that
Mortgage Borrower could file for bankruptcy and
represent that it was not engaged in a Single Asset
Real Estate business.
95. Michael Pilevsky, Seth Pilevsky, and Sutton
Opportunity had actual knowledge that Mortgage
Borrower’s bankruptcy filing would trigger the
Bankruptcy Code’s automatic stay and prevent
plaintiff from exercising its maturity default remedies.
Plaintiff’s Damages
96. The Pilevsky Scheme has prevented plaintiff
from exercising its contractual remedies for maturity
defaults that took place in January 2016. This delay
has damaged and will continue to damage plaintiff.
97. On January 21, 2016. East River 50s Alliance
filed an application to rezone the area east of First
Avenue between 52nd Street and 59th Street, where
the Property is located, in order to limit the size of any
new construction at 260 feet.
98. East River 50s Alliance has been publicly
supported in this rezoning effort by the Manhattan
Borough President, City Council Members, a State
Senator, Community Board No. 6, and others.
99. East River 50s Alliance has held a rally to
support this rezoning effort.
100. Community opponents of the Project have
publicly stated that the Borrowers’ principals used
deceit to obtain the air rights for the Project and to
remove pre-existing rental tenants from their homes
at the Project site.
101. The threat that the Property site will be
rezoned has already caused the Project to lose value.

109a
102. If the Property site is rezoned during the delay
caused by the Pilevsky Scheme, plaintiffs damages
may be in the tens of millions of dollars.
103. In addition, numerous news articles since
January 2016 have commented on the declining prices
and troubles in the market for luxury high-rise
apartments in Manhattan and developments like the
Project.
104. These market developments already have
decreased the value of the Project and threaten to
cause plaintiff tens of millions of dollars in damages.
105. Plaintiff already has paid significant
attorneys’ fees and has incurred other costs because of
the Pilevsky Scheme. Those costs will increase as time
passes.
FIRST CAUSE OF ACTION
(Against Philip Pilevsky and Prime Alliance for
Tortious Interference with a Contractual
Relationship)
106. Plaintiff repeats and realleges the allegations
set forth above in paragraphs 1 through 105, as though
fully set forth herein.
107. Plaintiff
Borrowers.

has

valid

contracts

with

the

108. At all relevant times, Prime Alliance and its
principal, Philip Pilevsky, had actual knowledge of the
contracts between plaintiff and the Borrowers.
109. Philip Pilevsky and Prime Alliance willfully,
intentionally, maliciously, and without reasonable
justification tortiously interfered with, and induced
and procured breaches by Borrowers of their Loan
Agreements with plaintiff.

110a
110. As a result of Philip Pilevsky and Prime
Alliance’s wrongful actions, plaintiff has been injured
and is entitled to recover compensatory damages,
punitive damages, pre-judgment and post-judgment
interest, and the attorneys’ fees and costs plaintiff
incurs in prosecuting this action.
111. Philip Pilevsky is the president and sole
shareholder of Prime Alliance.
112. Philip Pilevsky completely dominated,
managed, and controlled Prime Alliance, including
with respect to the matters described in this
Complaint.
113. Philip Pilevsky used Prime Alliance to
tortiously interfere with plaintiffs Loan Agreements
with the Borrowers as described in this Complaint.
114. An adherence to the fiction of a separate
corporate existence of Prime Alliance would result in
injustice to plaintiff.
115. Philip Pilevsky is personally responsible for
his own and Prime Alliance’s tortious conduct toward
plaintiff, and he and Prime Alliance should both be
held jointly and severally liable to plaintiff for
compensatory damages, punitive damages, prejudgment and post-judgment interest, and the
attorneys’ fees and costs plaintiff incurs in prosecuting
this action.
SECOND CAUSE OF ACTION
(Against Michael Pilevsky, Seth Pilevsky, and
Sutton Opportunity for Tortious Interference
with a Contractual Relationship)
116. Plaintiff repeats and realleges the allegations
set forth above in paragraphs 1 through 115, as though
fully set forth herein.

111a
117. Plaintiff
Borrowers.

has

valid

contracts

with

the

118. At all relevant times, Sutton Opportunity and
its principals, Michael Pilevsky and Seth Pilevsky, had
actual knowledge of the contracts between plaintiff
and the Borrowers.
119. Michael Pilevsky, Seth Pilevsky, and Sutton
Opportunity willfully, intentionally, maliciously, and
without reasonable justification tortiously interfered
with, and induced and procured breaches by the
Borrowers of their contracts with plaintiff.
120. As a result of Michael Pilevsky, Seth Pilevsky,
and Sutton Opportunity’s wrongful actions, plaintiff
has been injured and is entitled to recover from them
compensatory damages, punitive damages, prejudgment and post-judgment interest, and the
attorneys’ fees and costs plaintiff incurs in prosecuting
this action.
121. Michael Pilevsky and Seth Pilevsky are the
sole shareholders of Sutton Opportunity, an entity
created to effectuate the Pilevsky Apartment
transaction.
122. Michael Pilevsky and Seth Pilevsky
completely dominated, managed, and controlled
Sutton Opportunity, including with respect to the
matters described in this Complaint.
123. Sutton Opportunity was incorporated for a
single purpose – to tortiously interfere with plaintiffs
Loan Agreements with the Borrowers.
124. An adherence to the fiction of a separate
corporate existence of Sutton Opportunity would
result in injustice to plaintiff.

112a
125. Michael Pilevsky and Seth Pilevsky arc
personally responsible for their own and Sutton
Opportunity’s tortious conduct toward plaintiff, and
they and Sutton Opportunity should all be held jointly
and severally liable to plaintiff for compensatory
damages, punitive damages, pre-judgment and postjudgment interest, and the attorneys’ fees and costs
plaintiff incurs in prosecuting this action.
PRAYER FOR RELIEF
WHEREFORE, plaintiff demands judgment as
follows:
a. On the First Cause of Action, awarding against
Philip Pilevsky and Prime Alliance, jointly and
severally, and in favor of plaintiff, compensatory
damages, punitive damages, both in amounts to be
proved at trial, together with pre- and post-judgment
interest and the attorneys’ fees and costs plaintiff
incurs in prosecuting this action.
b. On the Second Cause of Action, awarding
against Michael Pilevsky, Seth Pilevsky, and Sutton
Opportunity, jointly and severally, and in favor of
plaintiff, compensatory damages, punitive damages,
both in amounts to be proved at trial, together with
pre- and post-judgment interest and the attorneys’ fees
and costs plaintiff incurs in prosecuting this action;
and,
c. Awarding in favor of plaintiff such other and
further relief as is just and proper.
Dated: New York, New York
September 16, 2016
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
By: /s Ronald S. Greenberg
Ronald S. Greenberg

113a
Scott Ruskay-Kidd
Jeffrey P. Dunlap
Daniel Leonard
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9100
Attorneys for Plaintiff

114a
APPENDIX E
No. 16-10455 (SHL)
UNITED STATES BANKRUPCY COURT
SOUTHERN DISTRICT OF NEW YORK
In re
BH SUTTON MEZZ LLC, Debtor
[Filed March 10, 2016]
SUTTON 58 ASSOCIATES LLC’S MOTION TO
DISMISS THIS CHAPTER 11 CASE PURSUANT
TO BANKRUPTCY CODE § 1112(b) OR, IN THE
ALTERNATIVE, TO MODIFY THE AUTOMATIC
STAY PURSUANT TO BANKRUPTCY CODE §
362(d)(1)
Sutton 58 Associates LLC (“Lender”) hereby moves
for entry of an order, pursuant to § 1112(b) of the
Bankruptcy Code, dismissing the Chapter 11 case filed
by BH Sutton Mezz LLC (“Sutton Mezz” or the
“Debtor”), or in the alternative, for an order, pursuant
to Bankruptcy Code § 362(d)(1), modifying the
automatic stay to permit Lender to pursue its state
law remedies against the Debtor in this two-party, one
asset dispute.
Preliminary Statement
1. This case is a classic bad-faith filing. The Debtor
is a special purpose, bankruptcy remote, holding
company with no operations or employees, whose only
asset is a 100% equity interest in a property owning
non-debtor subsidiary. It is encumbered by a $20
million secured loan that matured in January and has
not been repaid. The case was filed after the New York
State Supreme Court rejected the Debtor’s last ditch
attempt to stave off a fully noticed UCC foreclosure. In

115a
short, this is exactly the sort of tactical filing that has
been repeatedly condemned by the Second Circuit and
should therefore be dismissed.
2. This case arises out of the acquisition and
development of real estate at 428-432 East 58th Street
in New York City (the “Property”). The Property is
owned by non-debtor Sutton 58 Owner LLC (“Sutton
Owner”). Sutton Mezz, in turn, is a holding company
that owns a 100% ownership interest in Sutton Owner
(the “Membership Interest”). To finance the initial
stages of the development, Lender loaned $127.25
million to Sutton Owner, secured by first and second
lien mortgages on the Property (the “Property Loans”).
Lender also loaned $20 million to Sutton Mezz,
secured by the Membership Interest (the “Mezz
Loan”). Both the Property Loans and Mezz Loan
matured on January 19, 2016. In the seven weeks
since, no payments of any kind have been made by the
Borrowers on any loan.
3. When the Mezz Loan was not repaid at
maturity, Lender sought to foreclose on the
Membership Interest under New York’s Uniform
Commercial Code (the “UCC”). A foreclosure sale was
scheduled for February 29, 2016. Although the loans
were indisputably in default from nonpayment, the
Debtor and Sutton Owner (together, the “Borrowers”)
filed suit in New York State Supreme Court to enjoin
the foreclosure, contending, among other things, that
the sale was not being conducted in accordance with
the UCC and that the Court should disregard the
mezzanine structure as illusory. On February 23,
2016, Commercial Division Justice O. Peter Sherwood
denied Borrowers’ motion for a preliminary injunction,
finding, among other things, that Borrowers were
unlikely to succeed on the merits of their claim, that
they would not be irreparably harmed by the

116a
foreclosure sale, and that the equities favored allowing
Lender to enforce its rights as agreed by the parties.
Rather than appeal or seek a stay in the Appellate
Division, Sutton Mezz filed this case to do what the
state court would not: stop Lender from foreclosing on
the Membership Interest.
4. As the Second Circuit recognized in In re C-TC
9th Avenue P’ship, 113 F.3d 1304 (2d Cir. 1997), this
is precisely the type of case that does not belong in
Bankruptcy Court: a single asset dispute between two
parties – a debtor and its sole secured creditor – that
can be fully resolved in the state court system. The
Debtor has no operations or employees and no assets
other than the Membership Interest. While the Debtor
lists unsecured creditors, they appear to be creditors
of Sutton Owner (architects, contractors, engineers,
etc.), not Sutton Mezz, and their claims are dwarfed by
the Mezz Loan. More importantly, Sutton Mezz’s
organizing documents, and the terms of the Mezz
Loan, forbid the Debtor from incurring more than a
token amount of such debt. The vast majority of any
such obligations would therefore be ultra vires and
unenforceable. In short, there is nothing here to
reorganize – just a dispute over Lender’s right to
foreclose on the Debtor’s sole asset – and thus the real
purposes for this filing were improper ones: forum
shopping and opportunistic exploitation of the
automatic stay. Dismissing the Petition would correct
this misuse of bankruptcy, while leaving the Debtor
free to seek further relief in the state courts pending a
rescheduled sale.
5. Alternatively, this Court should modify the
automatic stay pursuant to Bankruptcy Code §
362(d)(1) to permit Lender to pursue its state law
remedies. All of the factors favoring dismissal of the
Petition also favor lifting the stay. Moreover, the

117a
Debtor is continuing to use Lender’s collateral without
the Lender’s consent and without so much as offering
any adequate protection to Lender. With no cash flow,
no operations and no other assets, the Debtor lacks the
means to do so. This is yet another reason to lift the
stay.
Factual Background
6. The facts underlying this Motion are set forth in
the accompanying Declaration of N. Richard Kalikow,
Lender’s principal (through intermediate holding
companies). We summarize those facts here for the
Court’s convenience.
A. The Project
7. For the past few years, Sutton Owner has
pursued an extraordinarily ambitious real estate
development project at 428-432 East 58th Street in
New York City. Affidavit of Herman Carlinsky
(“Carlinsky Aff.”) [Doc. # 3] ¶ 7. Sutton Owner’s
business consisted of: (i) buying the existing-low-rise
buildings, (ii) emptying them of rental tenants, (iii)
demolishing them, (iv) buying air rights from other
properties, and (v) building a super-tall residential
tower exceeding 1,000 feet. REDACTED
H.

REDACTED. Kalikow Decl. Exh. A at 7-8, 12; Exh.

8. Sutton Mezz’s role in the project was limited. Its
business and corporate purpose was (i) to “acquire,
own, hold, sell, transfer, pledge, or otherwise dispose
of a limited liability company interest in, and to be and
act as a member of, [Sutton Owner];” and (ii) to
perform under the documents governing the Mezz
Loan. Kalikow Decl. Exh. B at §§ 7(i) and (ii).

118a
B. The First Financing (January 2015)
9. In January 2015, Lender’s affiliate, Gamma
Lending S58 LP, provided $63 million in initial
financing for the development project (the “First
Financing”) – or about 11% of the total financing
Sutton Owner acknowledges it needed. The First
Financing was broken into two separate loans: an
acquisition loan of $43 million made to Sutton Owner,
and a mezzanine loan of $20 million, made to Sutton
Mezz. Kalikow Decl. Exhs. II and C.
10. In both the First Financing and the subsequent
financing (described below), the Debtor was structured
as a special purpose, bankruptcy remote, holding
company. The Debtor’s Amended and Restated
Limited Liability Company
Agreement
(the
“Operating Agreement”) expressly restricts the
Debtor’s activities “in order to qualify the Company as
a ‘special purpose entity.’” Kalikow Decl. Exh. B at §
9(d)(i). Among other things, the Operating Agreement
imposes stringent restrictions on Sutton Mezz’s ability
to incur unsecured debt-provisions that are typical for
a special purpose entity (“SPE”) such as the Debtor. In
particular, Section 9(d)(iv)(D) of the Operating
Agreement provides that the Debtor shall “not incur,
create or assume any indebtedness other than as
expressly permitted under the [Mezz Loan
documents].” Id. at § 9(d)(iv)(D). Section 4.16 of the
Mezz Loan agreement, in turn, provides that Sutton
Mezz is not permitted to “incur or assume any
indebtedness other than ... unsecured trade payables
incurred in the ordinary course of business relating to
the ownership and operation of the Property which (A)
are not evidenced by a note, (B) do not exceed at any
time a maximum aggregate amount of $50,000 and (C)
are paid within thirty (30) days of date incurred.”

119a
Kalikow Decl. Exh. C at § 4.16. Consistent with these
restrictions, Section 4.30 of the Mezz Loan agreement
also prohibited Sutton Mezz from entering into
virtually any contractual obligations other than those
in its organizational documents and the loan
agreements. Id. at § 4.28.
11. The Debtor’s sole asset is a 100% Membership
Interest in Sutton Owner. Sutton Owner, in turn,
owns the Property. To secure the Mezz Loan, Sutton
Mezz pledged the Membership Interest to Lender as
collateral. Kalikow Decl. Exh. D at 1. The loan
documents for the First Financing provided, among
other things, that if Borrowers were unsuccessful at
obtaining other funding and at maturity could not
repay either the acquisition loan or the mezzanine
loan, then Sutton Mezz’s ownership interest in Sutton
Owner could be sold at a UCC foreclosure sale. Id. at
§ 6(a). Sutton Mezz also expressly agreed that any
notice of such UCC foreclosure sale “shall be deemed
reasonably and properly given if given at least ten (10)
days before such disposition.” Id.
12. Undoubtedly aware that the initial short-term
$63 million First Financing represented a fraction of
the total time and financing necessary to develop the
Property, the Borrowers’ manager, Joseph Beninati,
made numerous statements about his efforts to find
further financing. In December 2014, Mr. Beninati
stated he was already “working to finalize” deals to
obtain “several hundred million dollars” from China.
Kalikow Decl. Exh. E at 1. On January 7, 2015, Mr.
Beninati boasted that there was “serious competition”
among five companies, including several large Chinese
companies, to invest and that right after closing the
First Financing, Mr. Beninati would start a process to
bring in those bids, in the amount of hundreds of
millions of dollars. Kalikow Decl. Exh. F at 1. On

120a
January 9, 2015, Mr. Beninati stated “With Chinese.
[T]hey are all in and boiling hot for this deal.” Kalikow
Decl. Exh. G at 1. In the spring of 2015, Mr. Beninati
even hired Cushman & Wakefield to solicit interest.
Kalikow Decl. Exh. H at 4; Exh. I. Despite these
efforts, however, Mr. Beninati did not locate any such
financing.
C. The Second Financing (June 2015)
13. Without third party financing, in the summer
of 2015, Borrowers sought a second round of financing
(the “Second Financing”) from Lender (an affiliate of
the original lender). The Second Financing was
intended to be a short-term bridge loan with a term of
seven months. The original mezzanine loan was
refinanced with a second $20 million mezzanine loan.
The property level loan (taken on by non-debtor Sutton
Owner) was also refinanced, but the amount of the
loan was materially increased from $43 million to
$125.8 million. Pursuant to the loan documents these
additional funds were to be used to, among other
things, purchase certain additional neighboring air
rights and repay the First Financing. Kalikow Decl.
Exh. J § 2.1. Sutton Owner also borrowed $1.4 million
from Lender under a Building Loan. Kalikow Decl.
Exh. K.
14. No changes were made in the structure of
Sutton Mezz in connection with the Second Financing.
The Operating Agreement and the new mezzanine
loan documents again barred Sutton Mezz from
incurring any debt other than limited and de minimis
trade debt of not more than $50,000 in the aggregate
that was to be paid off in 30 days. Kalikow Decl. Exh.
L at § 4.16; see also id. at § 4.30 (prohibiting Sutton
Mezz from virtually all contractual obligations, other

121a
than those in its organizational documents and loan
documents).
15. As it had in connection with the First
Financing, Sutton Mezz again agreed that upon either
Borrower’s default, the Membership Interest could be
sold through a UCC foreclosure sale and that any
notice of that sale “shall be deemed reasonably and
properly given if given at least ten (10) days before
such disposition.” Kalikow Decl. Exh. M at § 6(a); see
also id. Exh. L § 7.1(p) (stating that an event of default
under the Property Loans would be a default under the
Mezz Loan). This agreement reassured Lender that if
either Borrower defaulted, Lender would not be stuck
with a matured but unrepaid loan, and would not need
to expose itself to the fluctuations of an uncertain real
estate market, zoning regulations, or community
activism seeking to hinder or to stop the development
of the Property. Kalikow Decl. ¶ 41.
16. Thus, Borrowers, led by experienced real estate
developers and advised by sophisticated counsel, twice
negotiated and executed hundreds of pages of
meticulous financing documents that provide for an
SPE, bankruptcy remote, mezzanine loan secured by
the Debtor’s sole asset and consenting to a 10-day UCC
foreclosure sale remedy. 1
D. The Borrowers Again Fail to Locate Further
Financing
17. In August 2015, Mr. Beninati was interviewed
by the New York Times. “After months of fruitless
Mr. Benninati’s profile on his company’s website states that he
has decades of experience in commercial and residential real
estate and has completed billions of dollars of acquisitions,
development, construction, and real estate finance transactions.
Kalikow Decl. Exh. HH.
1

122a
hunting, Mr. Beninati said he remained confident he
would find a partner. ... ‘It’s a real opportunity to do
something special,’ Mr. Beninati said, ‘but if a joint
venture partner doesn’t show up, I’ll have no choice
but to sell.’” Kalikow Decl. Exh. H at 4.
18. Throughout fall 2015, Mr. Beninati tried to
obtain replacement financing to take out Lender and
fund the long term development of the Property. Mr.
Beninati hired The Carlton Group to assist with this
effort. REDACTED
REDACTED. See Kalikow Decl. Exhs. A & P.
Despite these efforts, the Borrowers did not secure
financing to fund the entire project – or even funds to
refinance the outstanding (and maturing) loans.
19. On January 19, 2016, the loans matured.
Notwithstanding the many months of efforts by Mr.
Beninati, Borrowers were still unable to find alternate
or additional financing. The Borrowers did not repay
any portion of the outstanding loans and have not
made any payments of any nature thereon since.
Kalikow Decl. ¶ 2.
E. Recent Events Relating to the Property
20. Various recent events may jeopardize the
development of the Property and the value of Lender’s
collateral.
21. Community Opposition: On January 21,2016,
the East River Fifties Alliance, joined by several city
and state representatives, including the Manhattan
Borough President, submitted a proposal to the
Department of City Planning to create new zoning for
the Property’s location that would “Banish
Megatowers.” Kalikow Decl. Exh. O. The proposed
zoning restrictions would limit the height of buildings
in the district to no more than 260 feet, a fraction of

123a
the height that Sutton Owner planned. Id. On
February 8, 2016, it was reported that the project “has
received a great deal of pushback from community
groups like the East River 50s Alliance” and already
“has taken a significant height cut going down from
the original planned 80 stories down to 62 stories.”
Kalikow Decl. Exh. P.
22. Fluctuations in the Lending and Economic
Environment: On February 4, 2016, The Real Deal
reported that “[w]ary of a slowdown in high-end
apartment sales and a potential supply glut, lenders
are beginning to retreat from Manhattan’s luxury
condominium market. Many banks are either cutting
down their luxury condo construction lending or
stepping away from the market altogether, according
to brokers and lenders.” Kalikow Decl. Exh. Q. The
article states that after a three-year period of recordsetting luxury condominium sales, “the market is
showing signs of a correction.” Id.
F.
Lender’s Efforts to Foreclose on its
Collateral, and Borrowers’ Failed Preliminary
Injunction Motion
23. On January 20, 2016, Lender sent Borrowers
notices of default. Lender also sent Sutton Mezz a
notice informing it that, in accordance with the Mezz
Loan agreement, Lender would conduct a UCC
foreclosure sale on February 11 – 22 days later.
Kalikow Decl. Exhs. N, R, & S. Lender sent a
subsequent notice to plaintiffs on February 5, 2016,
rescheduling the UCC foreclosure sale for February
29, with a deadline of February 24 for submission of
bid deposits. Kalikow Decl. ¶ 25, Exh. U.
24. To prepare for the UCC sale, Lender retained
Eastdil, the nation’s largest broker for real estate
investment properties. In consultation with Eastdil,

124a
Lender advertised the sale in The Wall Street Journal
and Real Estate Alert on February 10 and again on
February 17. Kalikow Decl. Exhs. V & W. Lender also
advertised in The New York Times on February 18 and
in The New York Post on February 23. Kalikow Decl.
Exhs. X & Y. On February 11, Eastdil also sent a
“Teaser Blast” by direct personal e-mail to 266 major
potential bidders. Kalikow Decl. Exhs. Z & AA. 2
25. Eastdil also created a data room containing
information for potential bidders. That data room
included relevant loan documents, membership
certificates, zoning documents, notices relating to
plaintiffs’ defaults and indebtedness, documents
relating to an air rights agreement with the owner of
another property, bidding procedures, demolition
permits, and a title abstract. Kalikow Decl. Exh. BB.
Before the filing of the Petition, nine potential bidders
signed confidentiality agreements and were given
access to the due diligence material in this data room.
Kalikow Decl. Exh. JJ at ¶ 10.
26. On February 17, 2016, the Borrowers filed an
action in New York State Supreme Court, and
immediately sought a temporary restraining order
(the “TRO”). In their papers, Borrowers did not
dispute that they had defaulted on the loans, that the
loans had matured, that the full balance was due and
owing, and that nothing had been repaid. Rather, the
Borrowers asked the Court to disregard the
commercially
reasonable
and
commonly-used
structure of a mezzanine loan secured by an equity
pledge and the SPE structure of the loan transaction.
Real Estate Alert is a publication that is frequently used and
consulted by the real estate investors Eastdil was targeting.
Similarly, Eastdil’s “Teaser Blast” was transmitted to a who’s
who of real estate investors. Kalikow Decl. Exh. JJ at ¶ 6.
2

125a
The Borrowers also asserted that the UCC foreclosure
sale process was flawed. Among other things,
Borrowers incorrectly alleged that the sale was being
conducted on too short notice, that Lender had
advertised only in a single publication with too few
subscribers, and that Lender had not made
information concerning the sale available to
prospective purchasers in an online data room as is
customary.
27. A TRO was entered (Kalikow Decl. Exh. CC),
pending argument of the preliminary injunction
motion, which occurred on February 23, six days
before the scheduled UCC foreclosure sale. After
argument, the Court denied the motion on the record,
finding Borrowers were not likely to succeed on the
merits, would not be irreparably harmed by the
foreclosure sale, and that the balance of the equities
favored allowing Lender to foreclose on the pledged
membership interest – the Debtor’s sole asset – as
provided by the parties’ agreements. Kalikow Decl.
Exhs. DD at pp. 37-39 & T.
G. Sutton Mezz Files for Bankruptcy to Avoid
Foreclosure
28. Rather than appealing the denial of the Court’s
ruling to the Appellate Division, Sutton Mezz instead
filed for bankruptcy on Friday, February 26, 2016. It
thereby obtained an unbonded stay of the foreclosure
sale that the New York Supreme Court – the forum
originally chosen by the Borrowers – had allowed to
proceed only a few days earlier. 3 In his first day

Lender had requested that, if a preliminary injunction was
granted, a $15 million bond be required to account for the
potential diminution in value of Lender’s collateral during the
3

126a
affidavit, the Debtor’s president concedes that the
purpose of the filing was to avoid “an attempt by
[Lender] to foreclose on the Debtor’s membership
interest.” Carlinsky Aff. ¶ 18.
29. In addition to the Mezz Loan, Sutton Mezz’s
Petition alleges roughly $3,500,000 in unsecured debt.
Many, if not all, of the listed claims appear to relate to
services (architects, engineers, interior designers)
provided to the non-debtor Sutton Owner, not to
Sutton Mezz. 4 Nowhere, moreover, does the Petition
explain how Sutton Mezz could properly have incurred
such obligations without violating the prohibitions in
its Operating Agreement and the Mezz Loan
Documents. Kalikow Decl. Exh. B at § 9(d)(iv)(D); Exh.
L at § 4.16.
Argument
I. THE CASE SHOULD BE DISMISSED AS A BAD
FAITH FILING
30. This Court is empowered under Bankruptcy
Code § 1112(b) to dismiss a bankruptcy case that was
filed in bad faith, e.g., as a litigation tactic without the
intention or serious hope of reorganizing. See, e.g., In
pendency of the litigation. Since Justice Sherwood found that no
injunction was warranted, he did not rule on the bond.
Perhaps reflective of the Debtor’s mischaracterization of third
party claims, two of the Debtor’s alleged creditors have filed
mechanics liens against the Property naming non-debtor Sutton
Owner, not Sutton Mezz, as liable on their claims. Regardless,
these liens, and a third filed against Sutton Owner and the
Property, give Lender yet additional reason to be concerned that
the value of its collateral is at risk and is not adequately protected
by the Debtor, as creditors take action against the underlying
Property due to nonpayment. Kalikow Decl. ¶ 47, Exhs. EE, FF,
& GG.
4

127a
re C-TC 9th Ave. P’ship, 113 F.3d 1304, 1310-12 (2d
Cir. 1997) (“C-TC”); In re Cohoes Indus. Terminal, Inc.,
931 F.2d 222, 227-28 (2d Cir. 1991) (“Cohoes”); In re
MBM Entm’t, LLC, 531 B.R. 363, 408 (Bankr. S.D.N.Y.
2015); In re Hartford & York LLC, No. 13-45563-ESS,
2014 WL 985449, at *6 (Bankr. E.D.N.Y. Mar. 13,
2014). The appropriateness of dismissing bad-faith
filings, as has happened here, is widely recognized. 5
31. While a moving party bears the initial burden
of demonstrating “cause” for dismissal under §
1112(b), “once the good faith of a debtor is called into
question, the burden shifts to the debtor to
demonstrate that the petition was filed in good faith.”
In re Syndicom Corp., 268 B.R. 26, 49 (Bankr. S.D.N.Y.
2001); see also In re Fraternal Composite Serv., Inc.,
315 B.R. 247, 249 (Bankr. N.D.N.Y. 2003) (same), aff’d
sub nom. Fraternal Composite Servs. v. Karczewski,
315 B.R. 253 (N.D.N.Y. 2004). A finding of bad faith
need not be based on or equated with allegations of
actual fraud or malice. A debtor may have a sincere
desire to preserve its assets, but a petition will still not
be in “good faith” unless it is motivated by a realistic
desire to reorganize rather than merely to thwart

See, e.g., In re Premier Auto Servs., Inc., 492 F.3d 274, 280-281
(4th Cir. 2007) (finding bad faith where Chapter 11 petition filed
just two days before debtor’s tenancy was to expire); In re Cedar
Shore Resort, Inc., 235 F.3d 375, 380-382 (8th Cir. 2000)
(affirming dismissal of petition filed for primary purpose of
preventing shareholders from pursuing state court lawsuit); In re
SGL Carbon Corp., 200 F.3d 154, 163-165 (3d Cir. 1999)
(dismissing Chapter 11 petition filed to change venue of antitrust
litigation without valid reorganizational purpose); In re Phoenix
Piccadilly, Ltd., 849 F.2d 1393, 1395 (11th Cir. 1988) (Chapter 11
petition filed in bad faith warranting dismissal where petition
was filed to frustrate secured creditor’s attempt to foreclose on
debtor’s sole assets).
5

128a
creditors and escape the effects of non-bankruptcy
litigation. See In re Syndicom Corp., 268 B.R. at 49-50.
A. The Petition Was Filed to Obtain a Litigation
Advantage in a Two-Party Dispute and Thus
Lacks a Good-Faith Basis for Invoking
Bankruptcy Jurisdiction
32. Where, as here, a debtor filing for bankruptcy
has a single asset, has no reasonable prospects of being
a going concern, and has as its primary purpose “a
hope to relitigate a state court action,” a bankruptcy
petition should be dismissed as filed in bad faith. In re
Project Orange Assocs., LLC, 432 B.R. 89, 113 (Bankr.
S.D.N.Y. 2010) (quotation omitted). Indeed, the badfaith filing doctrine has been applied with particular
vigor in the context of two-party single-asset real
estate cases, similar to this one, where the courts have
repeatedly
reaffirmed
that
“debtors
cannot
manipulate the Bankruptcy Code to thwart the
legitimate rights of secured creditors to realize on
their claims.” In re Shea & Gould, 214 B.R. 739, 744
(Bankr. S.D.N.Y. 1997); see also In re Northtown
Realty Co., L.P., 215 B.R. 906, 914 (Bankr. E.D.N.Y.
1998) (finding bad faith based on intent to delay or
frustrate efforts of secured creditor to enforce legal
rights).
33. C-TC is a leading case in this regard. The
debtor in C-TC was an entity formed for the purpose
of purchasing and managing property, which was then
pledged as security for the loan financing the
purchase. 113 F.3d at 1306-07. When C-TC failed to
make required payments, the lender sued for
foreclosure, but on the same day the court approved
the appointment of a receiver to conduct a foreclosure
sale, C-TC filed a bankruptcy petition to halt the
process. Id. at 1307. The Bankruptcy Court ultimately

129a
found this to be a bad faith filing based on its
conclusions that C-TC had filed the petition primarily
“as a litigation tactic” to avoid foreclosure on its one
asset and that the dispute could have been fully
resolved in a non-bankruptcy forum. Id. at 1309-10.
34. The Court of Appeals ultimately affirmed the
Bankruptcy Court’s bad-faith finding, concluding that
the Chapter 11 filing had been made “with no hope of
reorganization and at the very moment that the state
litigation had taken a turn adverse to C-TC, making
mortgage foreclosure imminent.” Id. at 1310. The
court based its finding in part on a series of factors
initially set forth in Pleasant Pointe Apartments, Ltd.
v. Kentucky Housing Corp., 139 B.R. 828 (W.D. Ky.
1992):
(1) the debtor has only one asset;
(2) the debtor has few unsecured creditors whose
claims are small in relation to those of the secured
creditors;
(3) the debtor’s one asset is the subject of a
foreclosure action as a result of arrearages or
default on the debt;
(4) the debtor’s financial condition is, in essence, a
two-party dispute between the debtor and the
secured creditors which can be resolved in the
pending state foreclosure action;
(5) the timing of the debtor’s filing evidences an
intent to delay or frustrate the legitimate efforts of
the debtor’s secured creditors to enforce their
rights;
(6) the debtor has little or no cash flow;

130a
(7) the debtor cannot meet current expenses
including the payment of personal property and
real estate taxes; and
(8) the debtor has no employees.
C-TC, 113 F.3d at 1311 (citing Pleasant Pointe
Apartments, 139 B.R. at 832). The Second Circuit
affirmed the finding of bad faith in C-TC after
observing that most of the Pleasant Pointe factors
applied. This eight-factor analysis has been widely
employed to assess the potential bad faith of
bankruptcy filings. See, e.g., In re Syndicom Corp., 268
B.R. at 50-51 (finding bad faith based on C-TC factors);
In re Northtown Realty Co., 215 B.R. at 915-16 (same);
In re Hartford & York LLC, No. 13-45563-ESS, 2014
WL 985449, at *6 (Bankr. E.D.N.Y. Mar. 13, 2014)
(same); see also In re Laguna Assocs. Ltd. P’ship, 30
F.3d 734, 738 (6th Cir. 1994) (articulating similar
multipart test).
35. Another similar case is JER/Jameson Mezz
Borrowers II, LLC, 461 B.R. 293, 296 (Bankr. D. Del.
2011). In that case, a chain of hotels were owned and
operated by various operating companies, and the
ownership of those companies was held by an entity
called JER/Jameson Mezz II, LLC (“JER Mezz II”). Id.
at 296. JER Mezz II had borrowed funds to acquire the
operating entities and pledged its ownership interest
as collateral. After a time, JER Mezz II was unable to
repay its lender and the lender took steps to conduct a
UCC foreclosure. The day before the auction was
scheduled to occur, JER Mezz II filed for chapter 11
relief. Id. The lender filed a motion to dismiss the case
or, in the alternative, to lift the automatic stay. Id.
After
undertaking
a
multi-factor
analysis
substantially similar to the C-TC test, Judge Walrath
found that “virtually all of the [relevant] factors are

131a
present,” and dismissed the case with prejudice after
finding that the petition was filed in bad faith and for
no legitimate bankruptcy purpose. Id. at 299. The
JER/Jameson case underscores how the present
scenario (a holding company whose sole asset is stock
in a company that owned real estate) represents a
classic bad faith filing.
36. These cases often boil down to an assessment
of whether a bankruptcy petition was filed primarily
as a litigation tactic or whether the debtor in fact has
a reasonable probability of being able to reorganize as
a viable business under the protection of Chapter 11.
“[A]n entity may not file a petition for reorganization
which is solely designed to attack a judgment
collaterally – the debtor must have some intention of
reorganizing.” C-TC, 113 F.3d at 1310 (citing Cohoes,
931 F.2d at 228). The protections of Chapter 11 are
intended to be available only to those parties that
seriously intend to reorganize, thereby yielding some
benefit for creditors as a trade-off for the breathing
room provided by the automatic stay. “Chapter 11 is
not a procedural vehicle which may be commandeered
solely for ‘the purpose of invoking [its] automatic
stay.’” In re Premier Auto. Servs., Inc., 492 F.3d 274,
281 (4th Cir. 2007) (citation omitted). Nor is Chapter
11 intended to give debtors “the option of litigating a
dispute with a single party ... in an alternative forum,
when the Debtor has no other need of or use for the
bankruptcy court.” In re Fraternal Composite Serv.,
Inc., 315 B.R. at 250. In short, bankruptcy must be
used as a shield to facilitate legitimate reorganization
efforts, not as a sword to collaterally challenge state
court litigation results with which the debtor is
unhappy or as a tool to forum-shop. See In re
Briarpatch Film Corp., 281 B.R. 820, 834-35 (Bankr.
S.D.N.Y. 2002) (debtor cannot use bankruptcy as

132a
“sword” to relitigate unfavorable judgments rather
than taking state court appeal).
37. The Second Circuit has focused on the timing
of the filing of a petition as a strong indication of a
debtor’s true intention. In C-TC, for example, “the
Chapter 11 filing was made with no hope of
reorganization and at the very moment that the state
litigation had taken a turn adverse to C-TC” – on the
eve of foreclosure of the debtor’s only asset. 113 F.3d
at 1310. Similarly, in In re Wally Findlay Galleries
(New York, Inc.), 36 B.R. 849 (Bankr. S.D.N.Y. 1984),
the Bankruptcy Court dismissed as a bad-faith filing
a case commenced the same day as entry of a judgment
ordering the debtor to make certain payments to its
creditors. Id. at 850-51. The Bankruptcy Court found
it evident that the debtor had employed Chapter 11
not to reorganize, but to relitigate the lost motions,
which was “an impermissible use of Chapter 11.” Id.
at 851.
38. As demonstrated below, all of these factors
point to the conclusion that the instant Petition lacks
a good-faith basis and was filed merely as a litigation
tactic.
B. This Case Presents a Classic Bad-Faith Filing
39. The Petition in this case is a paradigmatic badfaith filing. All of the classic indicia of “single asset”
cases reflected in the C-TC factors are present here.
40. Factor 1: The Debtor was formed for the
purpose of owning a single asset (the ownership
interest in Sutton Owner) and, indeed, the parties
agreed that it was a “Special Purpose Bankruptcy
Remote Entity.” Kalikow Decl. Exh. C at § 3.1. The
Debtor acknowledges that its sole asset is the
Membership Interest. Carlinsky Aff. ¶ 12 (“The

133a
Debtor’s assets consist of its membership interest in
Sutton 58 Owner LLC.”).
41. Factor 2: The Debtor claims only a limited
number of unsecured creditors – each of which has a
relatively small amount of debt in relation to the
Lenders’ claims. Even if properly listed as owed by the
Debtor (and there is reason to be skeptical), that debt
was improperly incurred by Sutton Mezz. As noted
above, the Debtor is an SPE that was prohibited from
incurring unsecured debt greater than $50,000 in the
aggregate, that was required to be paid off within 30
days. The alleged unsecured claims scheduled with the
Debtor’s petition far exceed this limit. The Debtor
should not be allowed on the basis of these ultra vires
acts – in violation of its own operating agreement – to
render itself something other than the bankruptcy
remote SPE it agreed to be. Indeed, as a matter of law,
acts in violation of the operating agreement are
considered null and void. See, e.g., Feeley v. NHAOCG,
LLC, CA. No. 7304-VCL, 2012 WL 4859132, at *7 (Del.
Ch. Oct. 12, 2012); In re Tri-River Trading, LLC, 329
B.R. 252, 265 (B.A.P. 8th Cir. 2005) aff’d sub nom.
DeBold v. Case, 452 F.3d 756 (8th Cir. 2006); In re Min
Sik Kang, No. 1:15-CV-00953 LMB, 2015 WL 5786692,
at *6 (E.D. Va. Sept. 30, 2015).
42. Moreover, these unsecured claims are almost
entirely trade debt for architects, engineers, and
construction, among other things, that facially appear
to relate to the underlying property owner, and not the
Debtor. Insofar as these claims really are against nondebtor Sutton Owner, these unsecured creditors would
not be prejudiced by the dismissal of this case, because

134a
they will be free to pursue their claims against that
non-debtor entity. 6
43. Factor 3: The Debtor’s single asset – the
Membership Interest – is the subject of foreclosure
proceedings that the State Court, after a hearing on
the merits, has declined to enjoin.
44. Factor 4: The Debtor’s financial situation is in
essence a two-party dispute between itself and Lender,
and that dispute is fully capable of being resolved
through state court proceedings.
45. Factor 5: The timing of the Petition plainly
reflects an attempt to frustrate the Lender’s bargained
for rights. The Mezz Loan matured seven weeks ago.
As authorized by the Mezz Loan documents, Lender
has sought to conduct a UCC Foreclosure relating to
its undisputed collateral, the Membership Interest. To
stop that sale, the Borrowers first brought suit in New
York State Supreme Court. Only when that litigation
failed did they file this case. In fact, Sutton Mezz’s
First Day Affidavit frankly admits the filing was made
to stop the UCC Foreclosure. Carlinsky Aff. ¶ 18. At
the same time, Sutton Mezz offers no plan for
reorganization and, in the days since, has filed no
substantive motions of any kind. Indeed, because the
Debtor has no other business activities or significant
creditors, there is nothing credibly to reorganize – only
a binary question of whether or not Lender will be
permitted to enforce its contractual rights to
foreclosure on the Debtor’s sole asset. In other words,
this is a classic two party dispute between
debtor/owner and lender that should be resolved in
There is no indication that any creditor was pressuring Sutton
Mezz to file for bankruptcy or were otherwise pursuing it. This
also militates in favor of dismissal. JER/Jameson, 461 B.R. at
299.
6

135a
state court, and does not warrant the broader purposes
of this Court. And if this case were to be dismissed (or
the automatic stay lifted to permit foreclosure
proceedings to go forward, as discussed below), the
Debtor would still have ample opportunity to obtain
any relief to which it might be entitled in the state
court system.
46. Factors 6 and 7: The Debtor has no cash flow
whatsoever, and lacks any ability either to develop
and complete the underlying project or meet the
project’s current expenses. The lack of funding and
any operations by the Debtor underscores that the sole
purpose of this case is to obtain a delay, rather than
reorganize.
47. Factor 8: The Debtor has no employees.
Carlinsky Aff. ¶ 8.
48. By contrast to the classic bad-faith facts
present here, motions to dismiss have been denied
where debtors were conducting active businesses
involving multiple constituencies and thus had a
legitimate need to use the bankruptcy process to
facilitate negotiations and compromises among
multiple parties to restructure the company going
forward. See, e.g., Cohoes, 931 F.2d at 228-29 (denying
motion to dismiss where debtor conducted significant
business, faced financial stress and mounting
expenses at the time it filed petition, and persisted in
actual attempt to reorganize even after losing
litigation that had driven it into bankruptcy); In re
Sletteland, 260 B.R. 657, 667 (Bankr. S.D.N.Y. 2001)
(contrasting two-party cases in finding that “Debtor’s
interests are sufficiently complex and sophisticated to
justify giving him the opportunity to utilize the
flexible procedure of Chapter 11 in an attempt to
restructure his debt, satisfy his creditors, and retain a
residual interest if he is so entitled” and finding that

136a
there had been “no attempt on the part of the Debtor
to relitigate or forum shop”). This case, to the contrary,
involves only a two-party dispute over a single asset,
and the bankruptcy filing was motivated solely by
litigation tactics and forum shopping to obtain delay.
This case does not necessitate negotiating
compromises with multiple creditor constituencies.
Rather, the only thing that this Debtor is attempting
to do is buy time so that it can do what it has known it
must do for months – repay the loans and secure much
more substantial financing to allow the non-debtor
Sutton Owner to develop the Property, or sell its
assets. Bankruptcy protection is not intended to be a
vehicle to obtain an extension of a maturity deadline
merely because the debtor did not act with sufficient
diligence earlier. In re Cinole, Inc., 339 B.R. 40, 45
(Bankr. W.D.N.Y. 2006) (finding that the filing of a
petition was improper and in bad faith where debtors
filed for bankruptcy to stop a tax sale “and buy time to
raise capital or get financing to rehabilitate the
distressed properties”).
49. In short, the relevant factors overwhelmingly
support a finding of bad faith and dismissal of Sutton
Mezz’s Chapter 11 case.
II. IN THE ALTERNATIVE, THE AUTOMATIC
STAY SHOULD BE LIFTED BECAUSE LENDER’S
INTEREST IN THE COLLATERAL CANNOT BE
ADEQUATELY PROTECTED
50. The same factors that warrant dismissal also
warrant entry of an order modifying the automatic
stay to permit Lender to proceed with its efforts to
foreclose on its collateral (subject to the Debtor’s
ability to seek to forestall that result through ordinary
state court processes). An application to modify the
stay based on a debtor’s bad-faith filing is decided

137a
under the same standards as a motion to dismiss the
entire case. See In re 234-6 W. 22nd St. Corp., 214 B.R.
751, 757-60 (Bankr. S.D.N.Y. 1997) (applying C-TC
and Laguna factors to determine that debtor’s bad
faith filing constituted necessary “cause” to grant
relief from automatic stay pursuant to Bankruptcy
Code § 362(d)(1)); In re Syndicom Corp., 268 B.R. at
48-49 (‘“the standards for bad faith as evidence of
cause,’ whether in the context of dismissal or relief
from the stay, ‘are not substantively different from
each other.’”) (citing 234-6 West 22nd St., 214 B.R. at
757).
51. The stay also should be lifted because the
Debtor has not even attempted to, and cannot, offer
Lender adequate protection for the use of Lender’s
collateral as required by the Bankruptcy Code. Section
363(e) of the Bankruptcy Code provides that a court
shall condition a debtor’s use of property pledged to a
creditor as collateral on the debtor’s provision of
adequate protection. Where there is a lack of adequate
protection, section 362(d)(1) provides that the court
shall grant relief from the automatic stay such as by
terminating, annulling or modifying the stay to allow
the creditor to protect its interests. “If the value of
collateral is threatened, creditors may seek adequate
protection and relief from the automatic stay, giving
the permission to foreclose on the property.” In re
Price, 370 F.3d 362, 373 (3d Cir. 2004); see also In re
Rosen, 208 B.R. 345, 356 (D.N.J. 1997) (noting that a
bankruptcy court may grant stay relief “where a
secured creditor lacks adequate protection because
there is a threat the value of the property may
decline.”); In re Sterling Dev., Inc., No. 11-08-14208
MA, 2009 WL 196250, at *3 (Bankr. D.N.M. Jan. 26,
2009) (“A creditor seeking relief from the automatic
stay for cause based on a lack of adequate protection

138a
must demonstrate that its collateral is declining in
value, or that there is a threat of a decline in value, in
order to establish a prima facie case.”).
52. Here, the Debtor is continuing to use Lender’s
collateral. However, the value of that collateral is
threatened by numerous factors, including actions and
liens filed by creditors against the underlying
Property owned by the non-debtor, the risk that
community opposition will grow to any development,
and that the zoning regulations governing the
Property will be altered to forbid construction going
forward as planned. Kalikow Decl. Exh. O. The value
of the collateral also is threatened by volatility in the
real estate financing world. These factors all
dramatically affect the likelihood of raising the
necessary financing – which efforts have failed over
the course of the last year and show little if no
prospects of being successful now that the Debtor has
filed for bankruptcy.
53. Above all, given that the Debtor is a single
asset entity, has no cash flow whatsoever, and that the
project is not even anticipated to be complete until
2019 (even if the non-existent financing suddenly
appeared), there is no viable mechanism by which the
Debtor could provide adequate protection payments to
Lender. This inability is yet another reason why the
stay should be lifted and Lender should be permitted
to pursue its state law foreclosure remedies.
Notice
54. Pursuant to Rule 2002(a)(4) of the Federal
Rules of Bankruptcy Procedure, notice of this motion
has been given to the Debtor, the Office of the United
States Trustee, and all creditors listed in the Petition,
and all other parties in interest who have requested

139a
notice in the Chapter 11 case. Lender submits that no
further notice is required.
Conclusion
55. For the foregoing reasons, Lender respectfully
requests that the Court (1) enter an order, in the form
attached as Exhibit 1 hereto, granting Lender’s motion
to dismiss the case or, in the alternative, lifting the
automatic stay and (2) grant such other and further
relief as is just.
Dated: New York, New York
March 10, 2016
Respectfully submitted,
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
By: /s/ Adam C. Rogoff
Adam C. Rogoff, Esq.
P. Bradley O’Neill, Esq.
Natan Hamerman, Esq.
1177 Avenue of the Americas
New York, New York 10036
Tel: 212-715-9100
Fax: 212-715-8000
Counsel
for
Associates LLC

Sutton

58

140a
APPENDIX F
1. U.S. Const. art. I, § 8, cl. 4 provides:
The Congress shall have Power * * * To establish
an uniform Rule of Naturalization, and uniform Laws
on the subject of Bankruptcies throughout the United
States[.]
2. 11 U.S.C.A. § 105 provides, in relevant part:
Power of court
(a) The court may issue any order, process, or judgment that is necessary or appropriate to carry out the
provisions of this title. No provision of this title
providing for the raising of an issue by a party in interest shall be construed to preclude the court from,
sua sponte, taking any action or making any determination necessary or appropriate to enforce or implement court orders or rules, or to prevent an abuse
of process.
***
3. 11 U.S.C.A. § 362 provides, in relevant part:
Automatic stay
***
(d) On request of a party in interest and after notice
and a hearing, the court shall grant relief from the
stay provided under subsection (a) of this section,
such as by terminating, annulling, modifying, or conditioning such stay-(1) for cause, including the lack of adequate protection of an interest in property of such party in interest;

141a
(2) with respect to a stay of an act against property
under subsection (a) of this section, if-(A) the debtor does not have an equity in such
property; and
(B) such property is not necessary to an effective
reorganization;
(3) with respect to a stay of an act against single
asset real estate under subsection (a), by a creditor
whose claim is secured by an interest in such real
estate, unless, not later than the date that is 90
days after the entry of the order for relief (or such
later date as the court may determine for cause by
order entered within that 90-day period) or 30 days
after the court determines that the debtor is subject
to this paragraph, whichever is later-(A) the debtor has filed a plan of reorganization
that has a reasonable possibility of being confirmed within a reasonable time; or
(B) the debtor has commenced monthly payments
that-(i) may, in the debtor’s sole discretion, notwithstanding section 363(c)(2), be made from rents
or other income generated before, on, or after
the date of the commencement of the case by or
from the property to each creditor whose claim
is secured by such real estate (other than a
claim secured by a judgment lien or by an unmatured statutory lien); and
(ii) are in an amount equal to interest at the
then applicable nondefault contract rate of interest on the value of the creditor’s interest in
the real estate; or
(4) with respect to a stay of an act against real

142a
property under subsection (a), by a creditor whose
claim is secured by an interest in such real property, if the court finds that the filing of the petition
was part of a scheme to delay, hinder, or defraud
creditors that involved either-(A) transfer of all or part ownership of, or other
interest in, such real property without the consent
of the secured creditor or court approval; or
(B) multiple bankruptcy filings affecting such real property.
If recorded in compliance with applicable State laws
governing notices of interests or liens in real property, an order entered under paragraph (4) shall be
binding in any other case under this title purporting
to affect such real property filed not later than 2
years after the date of the entry of such order by the
court, except that a debtor in a subsequent case under this title may move for relief from such order
based upon changed circumstances or for good cause
shown, after notice and a hearing. Any Federal,
State, or local governmental unit that accepts notices
of interests or liens in real property shall accept any
certified copy of an order described in this subsection
for indexing and recording.
***
4. 11 U.S.C.A. § 1112 provides, in relevant part:
Conversion or dismissal
***
(b)(1) Except as provided in paragraph (2) and subsection (c), on request of a party in interest, and after
notice and a hearing, the court shall convert a case
under this chapter to a case under chapter 7 or dis-

143a
miss a case under this chapter, whichever is in the
best interests of creditors and the estate, for cause
unless the court determines that the appointment
under section 1104(a) of a trustee or an examiner is
in the best interests of creditors and the estate.
(2) The court may not convert a case under this
chapter to a case under chapter 7 or dismiss a case
under this chapter if the court finds and specifically
identifies unusual circumstances establishing that
converting or dismissing the case is not in the best
interests of creditors and the estate, and the debtor or
any other party in interest establishes that-(A) there is a reasonable likelihood that a plan will
be confirmed within the timeframes established in
sections 1121(e) and 1129(e) of this title, or if such
sections do not apply, within a reasonable period of
time; and
(B) the grounds for converting or dismissing the
case include an act or omission of the debtor other
than under paragraph (4)(A)-(i) for which there exists a reasonable justification for the act or omission; and
(ii) that will be cured within a reasonable period
of time fixed by the court.
(3) The court shall commence the hearing on a motion under this subsection not later than 30 days after filing of the motion, and shall decide the motion
not later than 15 days after commencement of such
hearing, unless the movant expressly consents to a
continuance for a specific period of time or compelling
circumstances prevent the court from meeting the
time limits established by this paragraph.
(4) For purposes of this subsection, the term “cause”
includes--

144a
(A) substantial or continuing loss to or diminution
of the estate and the absence of a reasonable likelihood of rehabilitation;
(B) gross mismanagement of the estate;
(C) failure to maintain appropriate insurance that
poses a risk to the estate or to the public;
(D) unauthorized use of cash collateral substantially harmful to 1 or more creditors;
(E) failure to comply with an order of the court;
(F) unexcused failure to satisfy timely any filing or
reporting requirement established by this title or by
any rule applicable to a case under this chapter;
(G) failure to attend the meeting of creditors convened under section 341(a) or an examination ordered under rule 2004 of the Federal Rules of
Bankruptcy Procedure without good cause shown
by the debtor;
(H) failure timely to provide information or attend
meetings reasonably requested by the United
States trustee (or the bankruptcy administrator, if
any);
(I) failure timely to pay taxes owed after the date of
the order for relief or to file tax returns due after
the date of the order for relief;
(J) failure to file a disclosure statement, or to file or
confirm a plan, within the time fixed by this title or
by order of the court;
(K) failure to pay any fees or charges required under chapter 123 of title 28;
(L) revocation of an order of confirmation under
section 1144;
(M) inability to effectuate substantial consumma-

145a
tion of a confirmed plan;
(N) material default by the debtor with respect to a
confirmed plan;
(O) termination of a confirmed plan by reason of
the occurrence of a condition specified in the plan;
and
(P) failure of the debtor to pay any domestic support obligation that first becomes payable after the
date of the filing of the petition.
***

